<html>
<title> - U.S. ENVIRONMENTAL PROTECTION AGENCY'S RESPONSE TO AIR QUALITY ISSUES ARISING FROM THE TERRORIST ATTACKS ON SEPTEMBER 11, 2001: WERE THERE SUBSTANTIVE DUE PROCESS VIOLATIONS?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     U.S. ENVIRONMENTAL PROTECTION 
                     AGENCY'S RESPONSE TO AIR QUALITY 
                      ISSUES ARISING FROM THE TERRORIST 
                       ATTACKS ON SEPTEMBER 11, 2001: 
                        WERE THERE SUBSTANTIVE DUE 
                             PROCESS VIOLATIONS? 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION, 
                   CIVIL RIGHTS, AND CIVIL LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2007

                               __________

                           Serial No. 110-54

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov
                       COMMITTEE ON THE JUDICIARY

                     U.S. GOVERNMENT PRINTING OFFICE

36-342 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
























                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

  Subcommittee on the Constitution, Civil Rights, and Civil Liberties

                   JERROLD NADLER, New York, Chairman

ARTUR DAVIS, Alabama                 TRENT FRANKS, Arizona
DEBBIE WASSERMAN SCHULTZ, Florida    MIKE PENCE, Indiana
KEITH ELLISON, Minnesota             DARRELL ISSA, California
JOHN CONYERS, Jr., Michigan          STEVE KING, Iowa
ROBERT C. SCOTT, Virginia            JIM JORDAN, Ohio
MELVIN L. WATT, North Carolina
STEVE COHEN, Tennessee

                     David Lachmann, Chief of Staff

                    Paul B. Taylor, Minority Counsel
























                            C O N T E N T S

                              ----------                              

                             JUNE 25, 2007

                                                                   Page

                           OPENING STATEMENT

The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Chairman, Committee on the 
  Judiciary, and Member, Subcommittee on the Constitution, Civil 
  Rights, and Civil Liberties....................................     9
The Honorable Anthony D. Weiner, a Representative in Congress 
  from the State of New York, and Member, Committee on the 
  Judiciary......................................................    11
The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Ranking Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................    28

                               WITNESSES

The Honorable Christine Todd Whitman, Whitman Strategy Group
  Oral Testimony.................................................    13
Mr. John L. Henshaw, Henshaw & Associates, Inc.
  Oral Testimony.................................................    15
  Prepared Statement.............................................    18
Mr. Samuel Thernstrom, American Enterprise Institute
  Oral Testimony.................................................    64
  Prepared Statement.............................................    66
Ms. Tina Kreisher, Communications Director, U.S. Department of 
  the Interior
  Oral Testimony.................................................    85
  Prepared Statement.............................................    86
Mr. David M. Newman, New York Committee of Occupational Safety 
  and Health
  Oral Testimony.................................................    88
  Prepared Statement.............................................    90
Ms. Eileen McGinnis, Senior Vice President, Whitman Strategy 
  Group
  Oral Testimony.................................................   114
Ms. Marianne L. Horinko, Executive Vice President, Global 
  Environment & Technology Foundation
  Oral Testimony.................................................   115
Ms. Suzanne Y. Mattei
  Oral Testimony.................................................   116
  Prepared Statement.............................................   118

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Chairman, Subcommittee on the Constitution, Civil Rights, and 
  Civil Liberties................................................     6
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, 
  Chairman, Committee on the Judiciary, and Member, Subcommittee 
  on the Constitution, Civil Rights, and Civil Liberties.........    10

                                APPENDIX
           Material Submitted for the Printed Hearing Record

Material submitted by the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Chairman, Subcommittee on the Constitution, Civil Rights, and 
  Civil Liberties................................................   150
Supplemental Submission from the Honorable Christine Todd 
  Whitman, Whitman Strategy Group................................   153
Response to Post-Hearing Questions from the Honorable Christine 
  Todd Whitman, Whitman Strategy Group...........................   158
Response to Post-Hearing Questions from John L. Henshaw, Henshaw 
  & Associates, Inc..............................................   167
Response to Post-Hearing Questions from Samuel Thernstrom, 
  American Enterprise Institute..................................   171
Response to Post-Hearing Questions from Tina Kreisher, 
  Communications Director, U.S. Department of the Interior.......   174
Response to Post-Hearing Questions from Eileen McGinnis, Senior 
  Vice President, Whitman Strategy Group.........................   175
Response to Post-Hearing Questions from Marianne L. Horinko, 
  Executive Vice President, Global Environment & Technology 
  Foundation.....................................................   177
Substantive Due Process Violations Arising from the EPA's 
  Handling of Air Quality Issues Following September 11, 2001, 
  June 25, 2007..................................................   181

                        OFFICIAL HEARING RECORD
                   Material Submitted but not Printed

    The information that follows is material that was submitted for the 
official hearing record. The material is not printed in this printed 
hearing record but is on file with the Subcommittee and is also 
available at the specified links.

EPA's Response to the World Trade Center Collapse: Challenges, 
    Successes, and Areas for Improvement, by the Office of the EPA 
    Inspector General at:

    http://www.epa.gov/oig/reports/2003/WTC_report_20030821.pdf.

    This August 21, 2003 report by EPA's Office of the Inspector 
General surveys EPA's response to the attacks on 9/11 and the Agency's 
failure to comply with its established regulations and 
responsibilities, particularly with regard to indoor air.

Pollution and Deception at Ground Zero, by Suzanne Mattei at:

    http://web.archive.org/web/20041106175554/www.sierraclub.org/
groundzero/report.pdf.

    This report, by the former New York City Executive of the Sierra 
Club, analyzes the response of Federal and local authorities in the 
wake of 9/11. It provides important insight into falsely reassuring 
statements that EPA made to the public.

EPA Ombudsman Hearings Transcripts at:

    http://www.nyenvirolaw.org/PDF/Transcript-EPA-OmbudsmanHearing-2-
23-2002.pdf, and

    http://www.nyenvirolaw.org/PDF/Transcript-EPA-OmbudsmanHearing-3-
11-2002.pdf.

    The EPA Ombudsman held two investigative hearings in 2002 at the 
request of Congressman Nadler to explore the accounts of people who 
were directly affected by the environmental consequences of 9/11. 
Transcripts of both hearings are provided.

The Honorable Jerrold Nadler's Actions Regarding World Trade Center Air 
    Quality on Testing and Clean-up of WTC Contamination at:

    http://www.house.gov/nadler/wtc/cleanup.shtml.

    This site provides information on Congressman Jerrold Nadler's 
actions on testing and clean-up of contamination that resulted from the 
collapse of the World Trade Center. It provides a link to Congressman 
Nadler's April 12, 2002 report on Lower Manhattan air quality, which 
documents significant evidence that EPA misled the public about the 
safety of air quality and made virtually no effort to ensure that City 
agencies complied with Federal laws designed to protect the public from 
hazardous materials.


 U.S. ENVIRONMENTAL PROTECTION AGENCY'S RESPONSE TO AIR QUALITY ISSUES 
 ARISING FROM THE TERRORIST ATTACKS ON SEPTEMBER 11, 2001: WERE THERE 
                  SUBSTANTIVE DUE PROCESS VIOLATIONS?

                              ----------                              


                         MONDAY, JUNE 25, 2007

              House of Representatives,    
              Subcommittee on the Constitution,    
                 Civil Rights, and Civil Liberties,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:02 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Jerrold 
Nadler (Chairman of the Subcommittee) presiding.
    Present: Representatives Nadler, Wasserman Schultz, 
Ellison, Conyers, Scott, Cohen, Franks and King.
    Also present: Representatives Pascrell and Weiner.
    Staff Present: David Lachman, Subcommittee Staff Director; 
Kanya Bennett, Majority Counsel; Perry Apelbaum, Staff Director 
and Chief Counsel; Ted Kalo, General Counsel/Deputy Staff 
Director; Paul Taylor, Minority Counsel; Crystal Jezierski, 
Minority Counsel; and Susana Gutierrez, Professional Staff 
Member.
    Mr. Nadler. Good afternoon. This hearing of the 
Subcommittee on Constitution, Civil Rights, and Civil Liberties 
will come to order. Today's hearing will examine the question 
of possible substantive due process violations arising from the 
EPA's handling of air quality issues following the terrorist 
attacks of September 11, 2001.
    Before we begin, and mindful of the very strong emotions 
necessarily associated with the issues we will be looking at 
today, I would remind all those in attendance that the Rules of 
the House of Representatives do not permit demonstrations of 
any kind by the spectators. That includes holding up posters of 
any kind. The work we are doing today is very important. We 
have the opportunity to get answers to questions many people 
have been asking for nearly 6 years. The Chair is determined to 
see that the work of the Committee will go forward and not be 
disrupted. I know that those of you have traveled so far to be 
here will agree with that goal.
    Before we begin, I'd like to extend a special welcome to a 
number of people who are here: to first responders John 
Sferazo, Marvin Bethea, Richard Volpe, Jim McGowan, Deputy 
Chief Jim Riches, and Michael Arcari; to family members, the 
family of Felicia Dunn-Jones, Rebecca Jones, Joseph Jones, 
Sharon Alvarez, Rose Foti and Diane Horning; and to people who 
have been very active in the community surrounding the World 
Trade Center in the last 5\1/2\ years, Kimberly Flynn, Jo 
Polett, Catherine McVay Hughes, Jonathan Bennett, Rob Spencer, 
Rachel Lidov, Sally Regenhard, Robert Gulack, Nina Lavin; 
member of the State Assembly from New York Linda Rosenthal; and 
Professor Glen Corbett.
    The Chair recognizes himself for an opening statement. 
Today the Subcommittee begins--let me say since the Ranking 
Minority Member is not here yet, he will be here in about 20 
minutes, we will give him an opportunity to make his opening 
statement after he arrives between rounds of questioning.
    Before my opening statement, I want to ask unanimous 
consent, we are joined today by the gentleman from New York, 
Mr. Weiner, who is a Member of the full Committee but not a 
Member of the Subcommittee. Without objection, the gentleman 
will be permitted to sit on the Subcommittee and recognized to 
ask questions of our witnesses after the Members of the 
Subcommittee have had the opportunity do so. Without objection.
    In addition to that, we are joined today by the gentleman 
from New Jersey Mr. Pascrell. Without objection, the gentleman 
will be permitted to sit on the Subcommittee and will be 
recognized for 5 minutes to ask questions of our witnesses 
after the Members of the Subcommittee have had the opportunity 
to do so. Without objection.
    Today the Subcommittee begins its investigation of the 
possible substantive due process violations arising from the 
Environment Protection Agency's handling of air quality issues 
following the terrorist attacks of September 11, 2001.
    I want to welcome our witnesses and thank them for their 
willingness to participate. This hearing continues the work 
begun in the hearing chaired last week by New York's junior 
Senator, Hillary Clinton, which also looked at the Federal 
Government's failures in responding to the environmental crisis 
that resulted from the World Trade Center attacks.
    The hearing will examine whether the Federal Government by 
its actions violated the substantive due process rights of 
first responders, local residents, students and workers. 
Specifically, did the Federal Government itself, by responding 
inadequately or improperly to the environmental impact, 
knowingly do bodily harm to its citizens and thereby violate 
their constitutional rights, and if so, which government actors 
were responsible? We will look into what is known about the 
quality of the air versus what was communicated to the public 
and whether Federal Government ``risk communications'' properly 
communicated necessary and legal precautions.
    So why are we asking these questions about events that 
happened nearly 6 years ago?
    These hearings represent the first comprehensive 
congressional oversight investigations into these matters since 
the immediate aftermath of the attacks. Indeed, Congress and 
the American people have heard very little on the record from 
the key players in this controversy.
    Today marks the first time that former EPA Administrator 
Christine Todd Whitman has testified at a congressional hearing 
dedicated solely to the Federal Government's response to the 
environmental and health dangers caused by the terrorist 
attacks on the World Trade Center.
    The heroes and victims of 9/11, and the families and 
workers who continue to live with the consequences of that 
environmental disaster, deserve to know the truth, to hear from 
the officials who provided the assurances on quality, and to 
learn why, and on what basis those assurances were made.
    Finally we must address the future. What can we learn from 
the government's response? How will our government respond to 
future environmental disasters? The Administration seems to be 
headed in the wrong direction already. For example, the 
Administration has now mandated that public health 
communications during a terrorist attack be ``coordinated'' 
through the Department of Homeland Security, and it is 
developing standards for toxic clean-ups and national 
emergencies that may be weaker than current Federal standards.
    I represent the site of the World Trade Center and the 
surrounding communities. The World Trade Center collapse 
propelled hundreds of tons of asbestos, nearly half a million 
pounds of lead, and untold amounts of glass fibers, steel and 
concrete into a massive cloud of toxic, caustic dust and smoke 
which blanketed parts of New York City and New Jersey, and was 
blown and dispersed into surrounding office buildings, schools 
and residences. In addition, fires that burned for many months 
emitted particulate matter, various heavy metals, PCBs, VOCs, 
dioxin, benzene and other deadly substances.
    Tens of thousands of my constituents and others from around 
the country who responded to the call have already begun to 
suffer severe illnesses. I have unfortunately had to spend the 
better part of the last 5-plus years attempting to cajole the 
Federal Government into telling the truth about 9/11 air 
quality, insisting that there must be a full and proper clean-
up of the environmental toxins remaining in apartments, 
workplaces, and schools that to this day, I believe, are 
poisoning people, and demanding that the government provide 
long-term, comprehensive health care to those already sick, be 
they first responders or area residents, workers or 
schoolchildren.
    In the 6 years since the attacks, we have accumulated a 
mountain of evidence that tens of thousands of those exposed, 
including 10,000 firefighters, are suffering from chronic 
respiratory diseases and a variety of rare cancers. And the 
deaths of at least two individuals, James Zadroga and Felicia 
Dunn-Jones, whose families join us today, have been linked 
unquestionably by government medical examiners to World Trade 
Center dust. Nonetheless, the Federal Government still refuses 
to respond appropriately.
    The Administration continues to conceal and obfuscate its 
misstatements, its failure to follow applicable laws, and its 
failure to take standard protective actions in the days and 
weeks following the attacks. Even worse, the Administration 
still fails to protect the health of the community and our 
first responders. Whatever may have been noted at the time the 
evidence available today mandates action.
    The Administration's continuing lack of response stems 
directly, I believe, from a desire to cover up its 
misstatements and misdeeds in the early days after the attacks. 
The Administration has continued to make false, misleading and 
inaccurate statements, and refused to take remedial actions, 
even in the face of overwhelming evidence, so that it would not 
have to admit it failed to follow applicable laws and to 
utilize basic precautionary principles in the first place. It 
continues to this day, to endanger the lives of American 
citizens, so it can deny that other White House concerns 
trumped its legal mandate to protect public health. That is why 
this hearing seeks to reexamine what happened back in the early 
days of September and October 2001.
    Following the attacks Administrator Christine Todd Whitman 
repeatedly assured New Yorkers that the air was ``safe to 
breathe.'' On September 14, 2001, the New York Times concluded 
from Administrator Whitman's assurances that ``tests of air and 
the dust coating parts of Lower Manhattan appeared to support 
the official view expressed by Federal health and environmental 
officials that health problems from pollution would not be one 
of the legacies of the attacks.''
    The EPA Inspector General found these statements were 
falsely reassuring, lacked a scientific basis, and were 
politically motivated. The IG said, ``When EPA made a[n] 
announcement that the air was ``safe'' to breathe, it did not 
have sufficient data and analyses to make such a blanket 
statement.''
    The IG called the EPA assurance, quote, ``incomplete in 
that it lacked necessary qualifications and thus was not 
supported by the data available at the time.'' She concluded 
that ``EPA's basic overriding message was that the public did 
not need to be concerned about airborne contaminants caused by 
the World Trade Center collapse. This reassurance appeared to 
apply to both indoor and outdoor air.''
    I believe the Inspector General was quite generous here. In 
a March 2002 White Paper, I detailed how EPA's statements not 
only lacked sufficient data and qualification, but how they 
also mischaracterized what data they did have, withheld 
critical information from the public, and ignored a wealth of 
information available at the time that directly contradicted 
their assurances.
    The IG's report described the process by which the White 
House, through the Council on Environmental Quality and the 
National Security Council, ``. . . influenced . . . the 
information that EPA communicated to the public . . . when it 
convinced EPA to add reassuring statements and delete 
cautionary ones.'' It concluded that, quote, ``competing 
considerations, such as . . . the desire to open Wall Street, 
also played a role in EPA's air quality statements,'' close 
quote. Other observers have surmised that the cost of a proper 
government-financed clean-up of indoor spaces, given the scope 
of potential contamination, and concern about Manhattan real 
estate value may have been other ``competing considerations.''
    These EPA statements and a series of subsequent EPA 
misdeeds lulled Americans affected by 9/11 to a false sense of 
safety, and gave other government decision-makers, businesses 
and employers the cover to take extremely perilous shortcuts, 
which did further harm. After making those initial safety 
claims, EPA continued to make materially misleading statements 
about air quality, long-term health effects and EPA's alleged 
lack of jurisdiction for remediating indoor contamination. EPA 
illegally delegated its responsibility to clean indoor 
environments to New York City, which in turn dumped that 
responsibility onto individual homeowners, tenants and 
employers who were completely unequipped to discharge that 
responsibility.
    EPA conducted indoor clean-ups in 2002 and later that the 
IG, EPA's own Scientific Advisory Panel, and now the Government 
Accountability Office have all found lacked a paper scientific 
basis and failed to ensure the proper decontamination of tens 
of thousands of residences and work places.
    The response of other Federal agencies was similarly 
inadequate. The Occupational Safety and Health Administration, 
for example, failed to enforce workplace safety regulations on 
the ``pile,'' the same regulations that were enforced at the 
Pentagon where every worker was required to wear respirators, 
and nobody has become sick. OSHA allowed indoor workers to 
reoccupy workplaces that had not been properly tested and 
cleaned. FEMA refused to pay for testing and clean-up of indoor 
spaces, a cost that was much too prohibitive for most residents 
and small businesses. FEMA also denied payments to residents to 
stay elsewhere even when their homes were full of World Trade 
Center dust.
    New York City and State government officials followed suit 
by allowing reoccupation of buildings, including schools, that 
had not properly been tested and decontaminated; advising 
people to clean asbestos-containing dust in their homes and 
workplaces with a ``wet mop and wet rag,'' illegal and unsafe 
advice endorsed by EPA and posted on its Website; and failing 
to enforce local environmental codes for worker protection.
    Based on EPA assurances, insurance companies refused to 
cover individual claims for proper indoor clean-ups, and 
building owners and employers citing the Federal safety 
standards did not properly test and clean the spaces for which 
they were ostensibly responsible. Hundreds of thousands of 
people, not wanting to imagine that their government could act 
with such reckless disregard for their safety, believed the 
false assurances and continued to work on the pile with 
inadequate protective equipment and returned to their homes, 
schools and workplaces that had not been properly tested and 
cleaned and have still have not been.
    Six years later we are just beginning to see the enormous 
consequences of these actions. Our government knowingly exposed 
thousands of American citizens unnecessarily to deadly, 
hazardous materials, and because it has never admitted the 
truth, Americans remain at grave risk to this day. Thousands of 
first responders, residents, area workers and students are 
sick, and some dead. And that toll will continue to grow until 
we get the truth and take appropriate action.
    Those false statements continue to the present. 
Administrator Whitman has said, ``There has never been a 
subsequent study that disproved what agency scientists told us 
all along.'' She omits to note that what Agency scientists and 
others told her was very, very different from what the EPA 
communicated to the public.
    A September 2003 statement of 19 EPA union local heads 
read:
    ``Little did the Civil Service expect their professional 
work would be subverted by political pressure applied by the 
White House. . . . These workers reported to senior EPA 
officials their best estimate of the risks, and they expected 
those estimates and the accompanying recommendations for 
protective measures to be released in a timely manner to those 
who need the information. The public was not informed of all 
the health risks. . . . This information was withheld . . . 
under orders of the White House. The Bush White House had 
information released, drafted by political appointees, that it 
knew to contradict the scientific facts. It misinformed. And 
many rescue workers and citizens suffered. Some citizens now 
face the long-term risk of asbestos-related lung cancer as well 
as other debilitating respiratory ailments as a result.''
    I want to conclude with a pronouncement made by then 
Administrator Whitman in 2001. She declared then, ``The 
President said, 'Spare no expense, do everything you need to do 
to make sure the people of this city . . . are safe as far as 
the environment is concerned.''
    It is my fervent hope that after some of the truth begins 
to come to light through these hearings, we will see that this 
promise made to the victims and heroes of 9/11 is finally kept.
    [The prepared statement of Mr. Nadler follows:]
Prepared Statement of the Honorable Jerrold Nadler, a Representative in 
Congress from the State of New York, and Chairman, Subcommittee on the 
            Constitution, Civil Rights, and Civil Liberties
    Today, the Subcommittee begins its investigation into possible 
substantive due process violations arising from the Environmental 
Protection Agency's handling of air quality issues following the 
terrorist attacks of September 11, 2001.
    I want to welcome our witnesses and thank them for their 
willingness to participate.
    This hearing continues the work begun in a hearing chaired last 
week by New York's Junior Senator, Hillary Clinton, which also looked 
at the federal government's failures in responding to the environmental 
crisis that resulted from the World Trade Center attacks.
    This hearing will examine whether the federal government, by its 
actions, violated the ``substantive due process'' rights of first 
responders, local residents, students and workers. Specifically ``[d]id 
the federal government itself, by responding inadequately or improperly 
to the environmental impacts--knowingly do bodily harm to its citizens, 
and thereby violate their constitutional rights? And, if so, which 
government actors were responsible?'' We will look into what was known 
about the quality of the air versus what was communicated to the 
public, and whether federal government ``risk communications'' properly 
communicated necessary and legal precautions.
    So, why are we asking these questions about events that happened 
nearly 6 years ago?
    These hearings represent the first comprehensive Congressional 
oversight investigations into these matters since the immediate 
aftermath of the attacks. Indeed, Congress and the American people have 
heard very little on the record from the key players in this 
controversy.
    Today marks the first time that former EPA Administrator Christine 
Todd Whitman has testified at a Congressional hearing dedicated solely 
to the federal government's response to the environmental and health 
dangers caused by the terrorist attacks on the World Trade Center.
    The heroes and victims of 9/11, and the families and workers who 
continue to live with the consequences of that environmental disaster, 
deserve to know the truth; to hear from the officials who provided the 
assurances on air quality, and to learn why, and on what basis those 
assurances were made.
    Finally, we must address the future. What can we learn from the 
government's response? How will our government respond to future 
environmental disasters like this? The Administration seems to be 
headed in the wrong direction already. For example, they have now 
mandated that public health communications during a terrorist attack be 
``coordinated'' through the Department of Homeland Security and they 
are developing standards for toxic cleanups in national emergencies 
that may be weaker than current federal standards.
    I represent the site of the World Trade Center and the surrounding 
communities. The World Trade Center collapse propelled hundreds of tons 
of asbestos, nearly half a million pounds of lead, and untold amounts 
of glass fibers, steel and concrete into a massive cloud of toxic, 
caustic dust and smoke which blanketed parts of New York City and New 
Jersey, and was blown or dispersed into surrounding office buildings, 
schools, and residences. In addition, fires that burned for many months 
emitted particulate matter, various heavy metals, PCBs, VOCs, dioxin, 
benzene and other deadly substances.
    Tens of thousands of my constituents and others from around the 
country who responded to the call have already begun to suffer severe 
illnesses as a result of this environmental disaster. I have, 
unfortunately, had to spend the better part of the last five plus years 
attempting to cajole the federal government into telling the truth 
about 9/11 air quality, insisting that there must be a full and proper 
cleanup of the environmental toxins remaining in apartments, 
workplaces, and schools that, to this day, are poisoning people, and 
demanding that the government provide long term, comprehensive health 
care to those already sick--be they first responders or area residents, 
workers or school children.
    In the six years since the attacks, we have accumulated a mountain 
of evidence that tens of thousands of those exposed are suffering from 
chronic respiratory disease, and, increasingly, a variety of rare 
cancers. The sick includes 10,000 firefighters. And, the deaths of at 
least two individuals--James Zadroga and Felicia Dunn-Jones (whose 
family joins us today) have been linked unquestionably by government 
medical examiners to World Trade Center dust. Nonetheless, the federal 
government still refuses to respond appropriately.
    The Administration continues to conceal and obfuscate its 
misstatements, its failure to follow applicable laws, and its failure 
to take standard protective actions in the days and weeks following the 
attacks. Even worse, the Administration still fails to act to protect 
the health of the community and our first responders. Whatever may have 
been known at the time, the evidence available today mandates action.
    The Administration's continuing lack of responsiveness stems 
directly, I believe, from a desire to cover up its misstatements and 
misdeeds in the early days after the attacks. The Administration has 
continued to provide false, misleading and inaccurate statements, and 
refused to take remedial actions, even in the face of overwhelming 
evidence, so that it would not have to admit that it failed to follow 
applicable laws and to utilize basic precautionary principles in the 
first place. It continues, to this day, to endanger the lives of 
American citizens, so it can deny that other White House concerns 
trumped its legal mandate to protect public health. That is why this 
hearing seeks to re-examine what happened back in those early days of 
September and October of 2001.
    Following the attacks, Administrator Christine Todd Whitman 
repeatedly assured New Yorkers that the air was ``safe to breathe.'' On 
September 14, 2001, the New York Times concluded from Administrator 
Whitman's assurances that, ``tests of air and the dust coating parts of 
Lower Manhattan appeared to support the official view expressed by . . 
. federal health and environmental officials: that health problems from 
pollution would not be one of the legacies of the attacks.''
    EPA's Inspector General found that these statements were falsely 
reassuring, lacked a scientific basis, and were politically motivated. 
The IG said, ``When the EPA made a[n] announcement that the air was 
`safe' to breathe, it did not have sufficient data and analyses to make 
such a blanket statement.'' She called this EPA assurance, ``incomplete 
in that it lacked necessary qualifications and thus was not supported 
by the data available at the time.'' She concluded that ``EPA's basic 
overriding message was that the public did not need to be concerned 
about airborne contaminants caused by the WTC collapse. This 
reassurance appeared to apply to both indoor and outdoor air.''
    I believe that the IG was quite generous here. In a March, 2002 
``White Paper,'' I detailed how Administrator Whitman's statements not 
only ``lacked sufficient data'' and ``qualification,'' but how she also 
mischaracterized what data she did have, withheld critical data from 
the public, and ignored a wealth of information available at the time 
that directly contradicted those assurances.
    The IG's report described a process by which the White House, 
through the Council on Environmental Quality and the National Security 
Council, ``. . . influenced . . . the information that EPA communicated 
to the public . . . when it convinced EPA to add reassuring statements 
and delete cautionary ones.'' It concluded that, ``competing 
considerations, such as . . . the desire to open Wall Street, also 
played a role in EPA's air quality statements.''
    Other observers have surmised that the cost of a proper government-
financed cleanup of indoor spaces, given the scope of the potential 
contamination, and concerns about Manhattan real estate values, were 
other ``competing considerations.''
    These EPA statements, and a series of subsequent EPA misdeeds, 
lulled Americans affected by 9/11 into a dangerously false sense of 
safety, and gave other government decision-makers, businesses and 
employers the cover to take extremely perilous short cuts which did 
further harm. After making those initial safety claims:

        <bullet>  EPA continued to make materially misleading 
        statements about air quality, long-term health effects, and 
        EPA's alleged lack of jurisdiction for remediating indoor 
        contamination;

        <bullet>  EPA illegally delegated its responsibility to clean 
        indoor environments to New York City, which, in turn, dumped 
        that responsibility onto individual home owners, tenants, and 
        employers; and

        <bullet>  EPA conducted two so-called ``indoor cleanups'' that 
        the IG, EPA's own scientific advisory panel, and, now, the 
        Government Accountability Office, all found lacked a proper 
        scientific basis and failed to ensure the proper de-
        contamination of tens of thousands of residences and 
        workplaces.

    The response of other federal agencies was similarly inadequate. 
The Occupational Safety and Health Administration, for example, failed 
to enforce workplace safety regulations on the ``pile'' that it 
enforced at the Pentagon (where every worker was required to wear 
respirators and nobody has become sick). OSHA also allowed indoor 
workers to re-occupy workplaces that had not been properly tested and 
cleaned. FEMA refused to pay for testing and cleanup of indoor spaces, 
a cost that was much too prohibitive for most residents and small 
businesses. FEMA also denied payments to residents to stay elsewhere 
even when their homes were full of World Trade Center dust.
    New York City and State government officials followed suit by 
allowing re-occupation of buildings (including schools) that not been 
properly tested and decontaminated, advising people to clean asbestos-
containing dust in their homes and workplaces with a ``wet mop and a 
wet rag''--illegal and unsafe advice endorsed by EPA and posted on its 
website--and failing to enforce local environmental codes for worker 
protection.
    Based on EPA assurances, insurance companies refused to cover 
individual claims for proper indoor cleanups. And building owners and 
employers, citing the federal safety statements, did not properly test 
and clean the spaces for which they were ostensibly responsible.
    Finally, hundreds of thousand of people, not wanting to imagine 
that their government could act with such reckless disregard for their 
welfare, believed the false assurances, and continued to work on the 
pile with inadequate Personal Protective Equipment and returned to 
their homes, schools and workplaces that had not been properly tested 
and cleaned--and have still not been.
    Six years later, we are just beginning to see the enormous 
consequences of these actions. Our government has knowingly exposed 
thousands of American citizens unnecessarily to deadly hazardous 
materials. And because it has never admitted the truth, Americans 
remain at grave risk to this day. Thousands of first-responders, 
residents, area workers and students are sick, and some are dead, and 
that toll will continue to grow until we get the truth and take 
appropriate action.
    Those false statements continue to the present. Ms. Whitman herself 
has rationalized the White House's soft-peddling of risk in EPA 
statements, proclaiming to Newsweek in 2003 that she did not object to 
the White House changing her press releases and that, ``the public 
wasn't harmed by the White House's decision to adopt the more 
reassuring analysis.'' Even now, they try to rewrite history, arguing, 
for example, that their reassuring statements were ``only talking about 
air on the `pile,' not in the surrounding neighborhoods'' or that they 
were ``only talking about outdoor, not indoor air'' or that they had 
``always told residents to get their homes professionally cleaned.'' 
The IG reached a different conclusion, and the statements speak for 
themselves. Governor Whitman has even gone so far as to blame the 
victims themselves for their illnesses.
    Administrator Whitman has said, ``There has never been a subsequent 
study that disproved what agency scientists told us all along.'' She 
omits to note that what agency scientists and others told her, was 
very, very different from what she communicated to the public. A 
September, 2003 statement of 19 EPA union local heads reads:

        Little did the Civil Service expect that their professional 
        work would be subverted by political pressure applied by the 
        White House. . . . These workers reported to senior EPA 
        officials their best estimate of the risks, and they expected 
        those estimates and the accompanying recommendations for 
        protective measures to be released in a timely manner to those 
        who need the information. The public was not informed of all 
        the health risks. . . . This information was withheld . . . 
        under orders of the White House. The Bush White House had 
        information released, drafted by political appointees, that it 
        knew to contradict the scientific facts. It misinformed. And 
        many rescue workers and citizens suffered. Some citizens now 
        face the long-term risk of asbestos-related lung cancer as well 
        as other debilitating respiratory ailments as a result.

    I want to conclude with a pronouncement made by then-Administrator 
Whitman in September 2001. She declared then, ``The President has said, 
`Spare no expense, do everything you need to do to make sure the people 
of this City . . . are safe as far as the environment is concerned.''
    It is my fervent hope that after some of the truth begins to come 
to light through these hearings; we will see that this promise, made to 
the victims and heroes of 9/11, is finally kept.
    Thank you.

    Mr. Nadler. Please, no demonstrations, including applause.
    Since the Ranking Member is not here, as I stated before, 
we will postpone his opening statement.
    Normally in the interest of proceeding to our witnesses--we 
will have apparently two opening statements right now, first 
from the Chairman of the full Committee, the distinguished 
gentleman from Michigan Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Nadler.
    I come here in full recognition of the importance and 
gravity of this hearing, and I begin by welcoming the witnesses 
of which there are quite a few. But to begin with, it is 
important that we extend a welcome, as the Chairman Nadler 
will, to Governor Christine Todd Whitman, the former 
Administrator of EPA.
    We thank you very much for your appearance here today and 
the discussion that we are going to have.
    This isn't a courtroom, although most of the people might 
be lawyers. We want to try to get at the bottom of a very 
important historical question, obviously. And the reason I 
start off by welcoming you is that it would not be 
inappropriate to notice that you, at times when you felt it 
necessary, have been an independent voice in discharging your 
responsibilities not only as the Governor, but as the director 
or Administrator of EPA, the Environmental Protection Agency. 
And so we thank you for coming.
    This will probably be the most important hearing that we 
will hear, and it is appropriate that you know that there--with 
Chairman Nadler, he has a very direct and vital connection to 
this terrible tragedy. His constituents were involved. He's 
represented the City of New York and the State of New York 
across a great number of years, and so we think that that is 
extremely important.
    I would also like to thank the former Administrator of the 
Occupational Safety and Health Administration, OSHA, Mr. John 
Henshaw, who is sitting at the witness table as well. I want to 
thank you, sir, personally for the cooperation you have 
extended the Committee, which leads us to the best way that we 
can get at what happened.
    Now, September 11, 2001, indelibly imprinted in the history 
of this country by reason of the fact that terrorists flew two 
hijacked commercial jets into the World Trade Center Towers in 
New York. Almost 3,000 people were killed by the terrorists in 
the collapse of the towers, including hundreds of first 
responders, police officers and firefighters. Beyond the 
devastating loss of life, when the towers collapsed, numerous 
hazardous substances were released into the environment.
    It also is appropriate to say that our attitude as a Nation 
toward the enemies of this country were automatically changed 
at the same time in a hugely dramatic way. And so we're here to 
reexamine it, and I have to comment on some of the theories 
that have been advanced to me across the years about this, 
which we need not recount now, but this has moved into the 
psyche of almost all of the citizens of this country.
    And so evidence accumulated since the collapse of the World 
Trade Center under this attack indicates that the air exposure 
to these hazards have caused serious physical injury and death. 
That's probably the first thing we want to examine. Those who 
relied on statements that the air was safe and the instructions 
for insufficient clean-up of the indoor spaces have created 
serious results following that.
    There's been a lot of injuries and deaths and suffering and 
family misery that has been caused as a result of the actual 
dastardly attack on this country. This oversight hearing of the 
Constitution Subcommittee gives us and the American people the 
first opportunity to try to establish what really happened, and 
we are looking for an honest revelation of the circumstances 
and the relationships between EPA and the White House, through 
the Council on Environmental Quality and the National Security 
Council, and other activities between them that will be 
inquired into.
    It's very important to me that all of our witnesses' 
testimony be as candid as it possibly can be under the 
circumstances. We're here to learn, we're here to find out what 
happened, we're here to put to rest some of the 
misunderstandings that have occurred. And we are counting on 
our witnesses, beginning with Governor Whitman and Mr. Henshaw 
and those others--I think there are six more on panel two--to 
help us make history right by us proceeding with an inquiry 
that is long overdue.
    But I commend the Chairman and even the Ranking Member in 
his absence, and I am hoping he will appear shortly, for the 
way they have constructed today's activity, and I thank the 
Chairman and congratulate him for his hard work.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
  in Congress from the State of Michigan, Chairman, Committee on the 
Judiciary, and Member, Subcommittee on the Constitution, Civil Rights, 
                          and Civil Liberties
    On September 11, 2001, nearly 3,000 Americans lost their lives in a 
series of terrorist attacks, one of which caused the collapse of the 
World Trade Center. As a Nation, we collectively shared the pain and 
suffering of the victims and the survivors of these horrific attacks.
    Sadly, there continues to be further casualties of this national 
tragedy. The collapse of the World Trade Center spewed numerous toxic 
chemicals into the air, which was then inhaled by the brave rescuers 
and clean-up personnel as well as the men, women and children living in 
the surrounding area. Already, many of these individuals have developed 
life-threatening illnesses as a result of their exposure to these 
chemicals.
    Our Nation's air quality watchdog, the Environmental Protection 
Agency, however, may not have accurately assessed the extent of the 
hazard these airborne toxins presented to the public. Indeed, the 
allegations go beyond that the EPA acted negligently.
    While the EPA assured members of the public that the air was safe 
and that they could return to their homes, jobs, and schools, there is 
accumulating evidence that the available science did not support those 
statements and may have actually contradicted them.
    The EPA's Inspector General found that the Agency's press releases 
and reports were altered to downplay or conceal the breadth of the 
environmental hazard and health consequences. In addition, the U.S. 
District Court for the Southern District of New York recently held that 
the EPA's actions violated the public's due process rights. Noting that 
the EPA's actions were ``conscience-shocking,'' the court found that 
the Agency ``affirmatively took actions that increased or created 
dangers'' to the public.
    Although the terrorists bear the ultimate responsibility for the 
September 11th attacks, it is the duty of our government to protect the 
public and to assist those whose lives have been affected by a 
catastrophe. Unfortunately, the government's failures here have 
compounded, rather than lessened the impact of the September 11th 
attacks.
    Today, we have the opportunity to assess the EPA's response to the 
lingering health hazards presented by these attacks. It is my hope that 
the witnesses will shed light on the facts and circumstances of the 
Agency's actions and respond to these very serious allegations. 
Understandably, there has been much speculation as to why the EPA acted 
as it did, but the American public, particularly those who work and 
live in New York City deserve the truth.

    Mr. Nadler. I thank the gentleman.
    I am told that Mr. Weiner wanted to have an opening 
statement. Without objection--do any of the other Members of 
the Subcommittee want an opening statement first?
    Fine. Without objection, Mr. Weiner will be recognized for 
an opening statement.
    Mr. Weiner. Thank you, Mr. Chairman. I won't take much 
time.
    I first want to begin by offering my thanks and the thanks 
of our whole city to you, Mr. Chairman. Shortly after the 
events of September 11, there began to be many people who 
sought to gloss over the challenges our city in Lower Manhattan 
faced. You were not one of them. You confronted the danger that 
was quite literally in the air and have not given up your quest 
to get to the bottom of it.
    Today I also want to welcome Governor Whitman, the EPA 
Administrator, here today. We will get to hear two voices, and 
maybe even more, from the EPA Administrator. We heard the 
public assurances in the days after September 11; the 
assurances, for example, on September 13, in the EPA press 
release that the air quality is ``unlikely to cause significant 
health effects, and the EPA is greatly relieved to have learned 
there appears to be no significant levels of asbestos dust in 
the air in New York City.'' We heard the EPA say on the 16th, 
air asbestos levels ``cause us no concern.'' September 18: ``I, 
the EPA administer, am glad to reassure the people of New York 
and Washington, D.C., that the air is safe to breathe.'' Those 
quotes were unambiguous, they were reassuring, and they were 
dead wrong. They were literally dead wrong. We know they were 
deadly because many of my constituents and some people in this 
audience are dying because they believed those assurances.
    We also know they were wrong because the IG has said they 
were wrong. A Federal district court went so far as to say 
Whitman's deliberate and misleading statements made to the 
press where she reassured the public that the air was safe to 
breathe around Lower Manhattan and Brooklyn and that there 
would be no health risk presented to those returning to the 
areas shocked the conscience.
    We also know they were wrong because the EPA knew they were 
wrong at the time you, Madam Governor, stated them. At the 
point that those decisions were made, those statements were 
made, 25 percent of all the dust samples taken by the EPA had 
already shown to have unsafe levels of asbestos.
    But now there is a second voice emerging from the former 
Administrator, after shouting from rooftops in the days after 
September 11 that the air was safe, now there are statements 
that, well, in fact, I, the EPA Administrator, was quietly 
whispering into the ear of city officials, saying, don't 
believe what I say publicly, only believe that it is unsafe; go 
out and make sure your workers protect themselves.
    It looks very honestly like what it is, an unseemly attempt 
to rewrite the public record, to rewrite it in a way that 
effectively covers one person's responsibility and moves it to 
someone else. Make no mistake, this is a national 
responsibility. This was an attack on us, the United States, 
not one neighborhood, not two buildings. It was an attack on 
the United States.
    It is the responsibility of the Federal Government to act 
now, and it is not too late. It is too late for some that stood 
on that pile and believed what they heard their highest 
government officials say, but it is not too late for the 
Federal Government to finally step up and say, we did wrong 
then, there were pressures on us that were unimaginable, but 
now is the time for us to start taking care of the health of 
the people who believed what we said.
    There was an environment in the period after September 11 
where many things that were told to us by our government turned 
out to be wrong. Slowly but surely, like an onion peeling away, 
we are learning more and more of them. Perhaps none were so 
damaging to the health and lives of the people in New York City 
than the ones made by our witness here today. We cannot 
continue this effort to say I said, he said, she said. Now is 
the time to accept responsibility, so finally the people who 
are harmed by those statements, harmed by those misjudgments, 
harmed by that mismanagement can finally reach some closure on 
the facts and get some opening on true health care for their 
families.
    And I yield back.
    Mr. Nadler. I thank the gentleman.
    Without objection, all Members will have 5 legislative days 
to submit opening statements for inclusion in the record.
    Without objection, the Chair will be authorized to declare 
a recess of the hearing if necessary at any time.
    We will now turn to our first panel of witnesses. As we ask 
questions of our witnesses, the Chair will recognize Members in 
the order of their seniority on the Subcommittee, alternating 
between Majority and Minority, provided that the Member is 
present when his or her turn arrives. Members who are not 
present when their turn begins will be recognized after the 
other Members have had the opportunity to ask their questions. 
The Chair reserves the right to accommodate a Member who is 
unavoidably late or is only able to be with us for a short 
time.
    Our first witness is the Honorable Christine Todd Whitman. 
Christine Todd Whitman served as Administrator of the U.S. 
Environmental Protection Agency under President George W. Bush 
from 2001 to 2003. Before that she served for 7 years as 
Governor of New Jersey. Governor Whitman is now the president 
of the William--I'm sorry, Whitman Strategy Group, a consulting 
firm that specializes in government relations and environmental 
and energy issues.
    Our next witness is John Henshaw. Mr. Henshaw was nominated 
by President Bush and was confirmed by the Senate in 2001 to 
head the Occupational Safety and Health Administration. Prior 
to becoming the OSHA Administrator, he served as director, 
environment safety and health for Astaris, LLC. He was also the 
director of environment safety and health for Solutia, Inc.; 
corporate director, quality and compliance assurance, from 
Monsanto Company. He is now president of Henshaw & Associates, 
Inc., a safety and health professional services firm of 
Florida.
    Your written statements will be made part of the record in 
its entirety. I would ask that you now summarize your testimony 
in 5 minutes, if you can. To help you stay within that time 
there is a timing light at your table. When 1 minute remains, 
the light will switch from green to yellow, and red when the 5 
minutes are up. I will be a little lenient on the timing.
    It is our custom in this Committee to swear the witness, so 
will the two witnesses please stand? I ask you to raise your 
right hand to take the oath.
    [witnesses sworn.]
    Mr. Nadler. Let the record reflect the witnesses responded 
in the affirmative.
    You may be seated.
    Governor, you may proceed.

  TESTIMONY OF THE HONORABLE CHRISTINE TODD WHITMAN, WHITMAN 
                         STRATEGY GROUP

    Ms. Whitman. I appreciate this opportunity to respond, to 
discuss the Environmental Protection Agency's response to the 
terrorist attacks of September 11, 2001. It's been nearly 6 
years since two planes flew into the Twin Towers of the World 
Trade Center, yet not a day goes by that I don't think of 
friends that we all lost and the grief, despair and 
helplessness we felt as a Nation.
    It is important to remember that many of the EPA personnel 
saw the planes hit knowing they had friends and relatives in 
those buildings. Yet within hours of those attacks, EPA 
officials were on the site collecting test data on potential 
environmental contaminants in order to assist New York City and 
the public.
    In the early days EPA officials were monitoring for 
contaminants around Ground Zero without the benefits of 
electricity, surrounded by firefighting crews in the midst of 
desperate rescue operations. They deserve our respect and our 
appreciation.
    On September 11, the President issued the declaration of 
emergency triggering the Federal response plan, which assigned 
lead Federal authority to the Federal Emergency Management 
Agency. FEMA then charged EPA with the responsibility of 
supporting the city's response to any discharge of hazardous 
materials as a result of the attacks.
    EPA immediately began collecting air, water and bulk dust 
samples for testing. By 2003, EPA had taken over 25,000 test 
samples, consisting of nearly 227,000 individual measurements 
of almost 700 contaminants. The EPA also performed other 
emergency response functions, such as the removal of hazardous 
waste, monitoring environmental conditions at landfills 
receiving debris from the World Trade Center, assisting the FBI 
in the recovery of evidence and remains, as well as 
constructing and operating wash stations near Ground Zero for 
both vehicles and personnel.
    Within days of the attack, EPA took the initiative to 
secure critical protective gear for rescue and recovery 
personnel and in all provided them with 22,000 respirators, 
13,000 safety glasses, 1,000 hard hats.
    After I left the Agency in 2003, the Inspector General 
confirmed that the EPA fulfilled its mandate to support New 
York City. While understandably finding areas for improvement, 
she publicly stated, and I quote, ``EPA did a really good 
job.''
    Mr. Chairman, I fully appreciate that the events of 9/11 
touch raw emotions, but I am disappointed in the 
misinformation, innuendo and outright falsehoods that have 
characterized public discussion about EPA in the aftermath of 
the terrorist attacks. EPA's extreme critics have alleged that 
I knowingly misled New Yorkers and the workers of Ground Zero 
about the safety risks associated with environmental 
contamination. This destructive and incendiary charge was 
investigated by EPA's Inspector General, who confirmed in her 
2003 report that we did not conceal any of our test data from 
the public.
    In fact, within days of the 9/11 report, I authorized EPA 
to post all the test data, all of it, on a public Website. I 
did so precisely because I wanted to be as transparent to the 
public as possible. Statements that EPA officials made after 9/
11 were based on the judgment of experienced environmental and 
health professionals at EPA, OSHA and the CDC who had analyzed 
the test data that 13 different organizations and agencies were 
collecting in Lower Manhattan.
    I do not recall any EPA scientist or experts responsible 
for reviewing this data ever advising me that the test data 
from Lower Manhattan showed that the air or water posed long-
term health risks for the general public.
    With respect to the immediate area where the towers fell, 
however, the data revealed, and we publicly reported, that the 
air was different than in the rest of Manhattan. As these 
charts over here show, in the weeks following the attacks, EPA 
officials repeatedly warned of the risk to workers at Ground 
Zero and noticed the difference between air quality at the site 
and the air in the rest of New York. I and other EPA officials 
publicly urged rescue and recovery workers to wear protective 
gear that EPA had secured for their use at Ground Zero.
    The EPA also advised workers at Ground Zero of the proper 
washing procedures for their clothes and equipment. In fact, on 
September 11, only hours after the attack, EPA officials 
prepared this flier that I would direct your attention to for 
distribution by FEMA to rescue and recovery workers at the 
site. As you can see, Mr. Chairman, the flier informed workers 
of the risk of asbestos exposure caused by the collapse and 
cautioned workers to use protective equipment, including 
appropriate eyeglasses, respirators and protective clothing. It 
also urged proper cleaning procedures for clothing and 
equipment. It is utterly false, then, for EPA critics to assert 
that I or others in the agency set about to mislead New Yorkers 
or the rescue workers.
    Mr. Chairman, the grief of 9/11 remains with us. Like many 
others, I lost personal friends that day. I suspect there will 
be a lot of talk in this hearing about blame and responsibility 
for what happened on September 11 and its aftermath. Let's be 
clear: There are people to blame. They are the terrorists who 
attacked the United States, not the men and women at all levels 
of government who worked heroically to protect this country.
    Of course, there are lessons to be learned from the 
extraordinary challenges of 9/11. I welcome a constructive 
dialogue on those lessons that is undertaken in good faith. I 
came here today in that spirit, Mr. Chairman, and I trust the 
Subcommittee has as well.
    I thank you and will be pleased to answer any questions 
that you might have.
    Mr. Nadler. Thank you.
    I now recognize Mr. Henshaw for an opening statement for 5 
minutes.

                 TESTIMONY OF JOHN L. HENSHAW, 
                   HENSHAW & ASSOCIATES, INC.

    Mr. Henshaw. Thank you, Mr. Chairman. You stated earlier I 
am an occupational safety and health professional and a 
certified industrial hygienist providing safety and health 
consultation services to clients around the world.
    In June 2001, I was nominated by President Bush and then 
later confirmed by the U.S. Senate in August of 2001 as 
Assistant Secretary of Labor for the Occupational Safety and 
Health Administration, or OSHA.
    I wish to take this opportunity today to discuss OSHA's 
role in protecting workers after the tragic events of the World 
Trade Center on September 11, 2001. My testimony represents my 
views and reflects my experiences as the OSHA Administrator.
    OSHA's mission is to ensure to the extent possible safe and 
healthful working conditions for employees around this Nation. 
Under the OSH Act of 1970, OSHA has jurisdiction over private-
sector employees and does not have jurisdiction over the 
public-sector employees such as the local fire and local 
police.
    In addition, and under the Federal Response and National 
Contingency Plans established to deal with emergencies, OSHA 
operates under the incident command system which is invoked 
during significant emergency situations.
    Our first action after the attack was to evacuate all 21 
members of our Manhattan area office from building number 6 of 
the World Trade Center, which was destroyed with the collapse 
of the North Tower. It is because of their training and 
commitment to protecting workers, all of our employees, 
including an employee confined to a wheelchair, got out safely. 
They, too, were traumatized and exposed to all the same 
conditions as others who were in Lower Manhattan that tragic 
day.
    After all were accounted for, our staff joined the Federal, 
State and local agencies, as well as safety and health 
professionals from contractors, trade unions on site, all in an 
effort to protect the workers involved in the rescue, recovery, 
demolition and clean-up operations. In line with OSHA's 
internal directive, we determined we could be most protective 
in protecting worker safety and health by providing immediate 
assistance, oversight and consultation in an effort to ensure 
OSHA's standards and good safety and health practices were 
followed at a minimum.
    It was apparent the site was not a typical construction or 
demolition project. Workers needed immediate protection from 
hazards whose scope and severity could be assessed only as the 
work progressed. In an effort to achieve quick and maximum 
effectiveness in saving lives and assuring worker protections, 
OSHA embarked on five specific activities: Number one, 
conducted personnel and area monitoring to characterize 
potential workplace exposures and the resulting hazards; number 
two, recommended appropriate personal protective equipment, 
including respiratory protection; number three, distributed and 
fit respirators, along with distributing other kinds of 
personal protective equipment; number four, conducted safety 
and health inspections 24 hours a day, 7 days a week in an 
effort to ensure standards were followed and workers were 
properly protected; and number five, provided site leadership 
and coordination of workplace safety and health.
    OSHA committed nearly 1,100 staff, many times as many as 75 
personnel on the site on any day. OSHA's staff worked on the 
site 24 hours a day, 7 days a week for the entire 10-month 
period. OSHA collected more than 6,500 air and bulk samples and 
performed over 24,000 analyses, looking at 81 different 
potentially hazardous materials such as asbestos, lead, silica 
and many other organic and inorganic compounds.
    Personal air samples were collected around the clock each 
day, and we coordinated our efforts in monitoring with our 
safety and health compatriots, our professionals, and unions, 
and contractors and other agencies. OSHA's sampling effort 
focused on workers on and near the pile, as well as workplaces 
that were impacted by the attack, which is like the financial 
district. OSHA's breathing zone samples showed well below the 
Agency's permissible exposure levels for the majority of 
compounds and substances. The few that were above were on the 
pile.
    OSHA distributed sampling summaries to trade unions, site 
contractors and agencies during our daily safety and health 
meetings and posted them on our Web. OSHA consistently 
instructed employers on the site to wear appropriate 
respiratory protection. Due primarily to the unpredictable 
nature of the hazards on the pile, a high level of protection 
was selected jointly with all safety and health professionals. 
These requirements were communicated through orders and notices 
posted throughout the sites, as well as during inspections, 
daily meetings and other communications.
    During the first 3 weeks following the attack, OSHA gave 
out respirators at a rate of 4,000 a day. Over the 10-month 
period OSHA distributed more than 131,000 respirators to 
personnel working at the World Trade Center. Initially handing 
out respirators on foot, OSHA quickly opened multiple 
distribution locations throughout the 16-acre site, including 
the ones at the Queens Marina, which was the Fire Department of 
New York's staging area.
    Over 7,500 quantitative fit tests were conducted for 
negative pressure respirators, including nearly 3,000 fit tests 
specifically for the firefighters. In addition, 45,000 pieces 
of other kinds of protective equipment were distributed, 
including hard hats, safety glasses, gloves.
    Mr. Chairman, I am very proud of how OSHA responded after 
the attack of September 11, 2001. Despite the highly intense, 
highly emotional and highly dangerous rescue, recovery and 
clean-up mission, this Nation did not lose another life at that 
site during that 10-month period. In fact, the lost day injury 
rate during that 10-month period was significantly less than 
what you would expect on a typical construction project.
    Mr. Chairman, this was not a typical construction project. 
The absolute key to this success was working in partnership 
with unions, contractors, city employees, management, all in an 
effort to achieve compliance with OSHA's standards and our 
recommendations. The normal enforcement strategy was 
unacceptable to me, unacceptable approach, to enforce within 
the green line the pile, given the fact that enforcement may 
take days or weeks to develop the necessary evidence to support 
citations as this Committee knows. As you know, if citations 
are contested, it could take years before the administrative 
law judge's review and corrective action is required.
    Mr. Chairman, if our purpose is to save lives and reduce 
injuries and illnesses, we did not have years, we did not have 
months, we did not have weeks, we did not have hours to wait 
for corrective action. We had to deploy a strategy to achieve 
compliance as soon as the hazard was recognized. The number of 
near misses that were reported indicated to me that the 
strategy that achieved immediate corrective action was the 
absolute right choice. OSHA did, however, execute normal 
enforcement strategy outside the pile, outside of Ground Zero, 
and we issued many citations as a result.
    Mr. Chairman, I, like many people in OSHA, can say with 
confidence and a high degree of pride that OSHA's staff did 
everything they believed humanly possible to assure worker 
protection during those 10 months after the attack. OSHA did, 
however, learn a great deal at the World Trade Center site, 
lessons that can help the Agency and the Nation improve 
emergency preparedness and emergency response.
    Following the World Trade Center experience, OSHA is 
pursuing a leadership role in coordinating worker health and 
safety during significant emergencies and is getting more 
involved in emergency preparedness. We now train with 
firefighters, law enforcement agencies and others responders 
across the Nation as a valued member of the response team.
    Our Nation's responders deserve the very best protection, 
and the best way to assure that is for OSHA, supported by 
NIOSH, to be an integral part of our Nation's emergency 
planning, training and response efforts.
    Thank you, Mr. Chairman. I will be glad to take any 
questions.
    Mr. Nadler. Thank you.
    [The prepared statement of Mr. Henshaw follows:]

                 Prepared Statement of John L. Henshaw

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Nadler. The Chair will recognize himself for the first 
questions.
    A September 12, 2001, e-mail circulated to top EPA 
officials stated, quote, ``All statements to the media should 
be cleared through the National Security Council before they 
were released,'' close quote. So as early as September 12, the 
National Security Council and the White House were approving 
public statements. Let's take a look at some of those 
statements. There will be a video for about 30 seconds.
    [Videotape played.]
    Mr. Nadler. Ms. Whitman, an EPA press release from 
September 18th also quotes you as saying, ``I am glad to 
reassure the people of New York and Washington, D.C., that 
their air is safe to breathe.''
    Mr. Henshaw, in a September 16th press release, you were 
quoted as saying, ``Our tests show that it is safe for New 
Yorkers to go back to work in New York's financial district.''
    In a series of EPA press releases beginning on September 
13, the following words were used to describe the air 
conditions: Good news, causes no concern, not detectable, no 
significant health risk and safe to breathe.
    Ms. Whitman, do these words and phrases convey a sense of 
danger or even of caution, or do they, in fact, convey a sense 
of safety and security?
    Ms. Whitman. Mr. Chairman, those words, to the best of my 
recollection and every effort that I made at the time, were 
also added with the phrase, ``However, on the pile it is 
different.''
    Mr. Nadler. Well, we will get to that.
    Ms. Whitman. There is a significant difference, the 
readings we were getting at the time.
    Mr. Nadler. At the time--would you answer my question--do 
they convey a sense of safety and security or a sense of 
caution?
    Ms. Whitman. They convey exactly what they were meant to 
convey. Those were the readings we were getting from the 
scientists.
    Mr. Nadler. Do you regret your repeating the sentence that 
the air was safe to breathe?
    Ms. Whitman. I do not regret repeating what the scientists 
said was appropriate.
    Mr. Nadler. Mr. Henshaw, do these words and phrases convey 
a sense of danger or even of caution? Or do they convey a sense 
of safety and security in your opinion?
    Mr. Henshaw. Again, not counting the pile, the pile was a 
separate issue.
    Mr. Nadler. We will get to the pile.
    Mr. Henshaw. All right. We took 240 samples------
    Mr. Nadler. Please answer the question.
    Mr. Henshaw. All of our samples were below our--
significantly below our significant exposure limits.
    Mr. Nadler. You said that already. It is on the record. I 
just asked you to convey the sense of------
    Mr. Henshaw. That conveys that the environment is safe.
    Mr. Nadler. Okay. Thank you. Do you now regret saying it 
was safe for New Yorkers to go back to work 6 days after the 
terrorist attack? Was that a mistake?
    Mr. Henshaw. Not within the Financial District. On the pile 
was a different circumstance. Sir, I do not regret it.
    Mr. Nadler. The area around it was okay?
    Mr. Henshaw. All of our data indicated it was okay.
    Mr. Nadler. Ms. Whitman, during 2001 did any government 
official or outside scientist tell you that EPA statements were 
not adequately communicating health risk warnings based on the 
data available at the time?
    Ms. Whitman. Mr. Chairman, to the best of my knowledge, not 
one of the scientists who were responsible for analyzing the 
data on the pile ever indicated------
    Mr. Nadler. Did any scientist?
    Ms. Whitman. Not that I can recall.
    Mr. Nadler. Okay. Now, Ms. Whitman, I would like to talk 
about the information you had or did not have at the time and 
compare it to what EPA said publicly. Much of this organization 
is--I am sorry--much of this information is contained on that 
chart to your left, although not all of it. It is Document 16 
in the binder that was supplied to you. Since I know it's a 
little difficult to read that, because I can't read it from 
here, that chart summarizes overwhelming evidence that when the 
EPA was assuring everyone was--that the air was safe, in fact, 
it either didn't have supporting data or it had data showing 
the opposite.
    Ms. Whitman, on September 13 you said in an interview, 
everything we are getting back from the sampling that we are 
doing is below background levels. There's not a reason for the 
general public to be concerned, closed quote. And yet on 
September 12, the day before that statement, in response to an 
urgent White House inquiry, Dr. Ed Kilbourne of the Centers for 
Disease Control warned that EPA sampling data was, quote, 
scanty, unquote, that he was, quote, aware of other toxic 
hazards in the area about which EPA hasn't asked, and that of 
the first five EPA bulk samples from the World Trade Center 
site, one contained a, quote, substantial concentration of 
asbestos, closed quote. That is 20 percent of the available 
samples.
    Doesn't this information make your September 13 statement a 
flat out falsehood?
    Ms. Whitman. No, it does not, Mr. Chairman.
    Mr. Nadler. Why doesn't it?
    Ms. Whitman. The fact that dust contained high levels of 
lead and asbestos, or asbestos I should say, is absolutely 
accurate and true. But that was different from what we were 
finding in the air. In fact, that was why we were working with 
the city to put HEPA trucks on the street that could get in and 
suck up the dust and to wash down the outsides of the 
buildings.
    Mr. Nadler. Were you aware that Dr. Kilbourne had warned 
that EPA wasn't asking about lots of toxic hazards and that he 
said that the EPA sampling data was scanty and should not be 
relied upon for safety at that------
    Ms. Whitman. I was not aware of any scientist--what 
happened--let me describe for you the process. Perhaps it will 
help things. The first week, or 2 weeks actually, we had three 
phone calls a day, gradually went down to two and then one, 
that involved every regional administrator from around the 
country, Region 2 scientists at Region 2, on-scene coordinators 
as well as headquarters staff, who was involved with emergency 
response and in communications. We would go over what the 
dust--what the samples they were getting in those days. And we 
were constantly adding to the samples. There's no doubt about 
that. We were getting results on a lot of those samples. We 
would go over. I would ask what was accurate to say to the 
public, what they could hear, what I could say accurately. And 
I was told we were--went over that, we decided what it was and 
we went out and conveyed that to the public.
    Mr. Nadler. Well, EPA did not begin regular outdoor air 
monitoring in Lower Manhattan until September 14. The only air 
monitoring results, we are told, that you had for September 12 
and 13 were from the New York City Department of Environmental 
Protection. Those air samples, of the 10 air samples the city 
took during those days, seven showed asbestos levels above the 
EPA's 1 percent trigger mark, including one from as far away as 
six blocks away in front of the Municipal Building. Yet the 
September 13 press release states that EPA, quote, found either 
no asbestos or very low levels of asbestos and further states 
that monitoring the sampling has been very reassuring about 
potential exposure. The general public should be very 
reassured. This despite the New York City findings of 70 
percent of its samples showing asbestos levels above the EPA's 
1 percent trigger level.
    Isn't this a little contradictory.
    Ms. Whitman. Mr. Chairman, I am not going to try to go back 
almost 6 years now to second-guess the scientists at the time.
    Mr. Nadler. Excuse me. It's not second guessing the 
scientists at this time.
    Ms. Whitman. It would be second guessing the scientists.
    Mr. Nadler. No. My question has nothing to do with the 
scientists. My question is to do with the fact that you are 
putting out very reassuring statements saying nobody's finding 
any asbestos levels above--any high asbestos levels when in 
fact the only test they had at that time, the New York City 
test, showed high asbestos levels above the 1 percent mark in 
70 percent of the tests.
    Ms. Whitman. Two things here, Mr. Chairman, and I cannot 
determine based on the question what is in play either, whether 
all of the samples that you are talking about from New York 
City were relative--related to the dust or related to the air. 
Those are two different things.
    Mr. Nadler. Excuse me. Those were air samples.
    Ms. Whitman. All right. Fine. Thank you. I will also tell 
you that it was my understanding--we had people back on the 
site. We did use New York City samples. We used New York State 
samples. We used samples, as I had mentioned, from over 17 
different organizations and we were taking our own samples, 
which we were taking at which time? I can't tell you. I can't 
go back and tell you.
    Mr. Nadler. Let's go into your own samples. The EPA dust 
samples, dust samples of September 14 show asbestos levels of 
2.1 to 3.3 percent, which is 210 percent and 330 percent above 
the EPA's 1 percent trigger level. Yet the EPA September 16 
press release describes this as slightly above the 1 percent 
trigger. Don't you believe that characterizing dust samples 
that are 210 to 330 percent above your own standard as only 
slightly above the trigger is falsely reassuring and 
misleading?
    Ms. Whitman. Mr. Chairman, with all due respect I can't 
imagine that we would have released a statement 3 days later 
that wasn't based on new testing data and results because we 
were getting new information every single day. When I was on 
the phone------
    Mr. Nadler. The fact is, is that you did release that 
statement, and these were the test results that were there at 
the time.
    Ms. Whitman. Well, if we are talking about dust or air, 
again there was a difference with dust and air.
    Mr. Nadler. These were dust samples.
    Ms. Whitman. You are saying that the second statement 
related to dust samples, too, or air samples?
    Mr. Nadler. The second statement simply said that um--yes, 
they referred to these specific tests, and they characterized 
the results of these specific tests of 2.1 and 3.3 as slightly 
above the 1 percent trigger. So we are referring to these 
specific tests.
    Mr. Whitman. I will have to take your word for that. I 
haven't seen that. Recently I haven't had a chance to go back 
over all that. But I will tell you again that every statement 
that we made, that I made, was based on what the experts who 
had a great deal of experience in this kind of response were 
conveying to me.
    Mr. Nadler. Thank you very much. I will now recognize the 
distinguished--I will come to Mr. Henshaw in the next round. I 
will now recognize the distinguished Chairman of the full 
Committee, the gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman, and I thank the 
witnesses for their testimony. Mr. Henshaw, the September 16 
EPA press release quotes you in the following way:
    Our tests show that it is safe for New Yorkers to go back 
to work in New York's Financial District.
    Now this release implied that you said this on the basis of 
the fact that some indoor tests in the Financial District 
buildings were, according to the EPA, negative for asbestos. 
But again, outdoor test results showed the 2.1 to 3.3 levels.
    Do you believe it is practical in a dust-saturated 
environment for workers to walk through debris with unsafe 
levels of asbestos without somehow breathing it in or getting 
it on their clothes or tracking it into the buildings?
    Mr. Henshaw. Mr. Congressman, tracking materials, you will 
see in that press release we talk about and caution about 
tracking it back into the buildings. That was a big concern of 
ours, and that's why the HEPA vacuum, as the Governor 
mentioned, and the cleaning of the streets of the Wall Street 
area was a significant event, to make sure that we maintain 
safe work environments.
    Now, our results--the results you are talking about are 
referring to percent in a bulk sample. And true, we found as 
high as 1.9 percent in bulk. This was a chunk on top of a 
patrol car. That was the highest percentage we found of 
asbestos. What we found in the workplace in the air, which is 
the critical piece, if it's in a bulk, it's not going to be 
hazardous unless it gets in the air and people breathe it. We 
spent--starting on the 13th, our data began to measure and 
monitor exposures throughout the entire Wall Street area; in 
fact, from Canal Street down, and collected over the period of 
time 204 samples. All of those samples showed we were well 
below--we barely detected any asbestos or any fibers in the 
air.
    And let me clarify this, we did find fibers in the air 
using our base contrast microscopy. When we used TEM, we found 
out those were not asbestos. Keep in mind, there's two towers 
loaded with carbon material, with fabric from wall covers, from 
the cubicles, from the ceiling tiles to the curtains. There 
were a lot of fibers. And when you see results as you saw in 
the NYCOSH data that talks about fibers, not speciating as to 
whether it is asbestos or not. And that's the confusion, Mr. 
Chairman. And that's why somebody needs to coordinate this 
whole effort, to make sure that we have a constant message. 
Because showing samples that is using the PCM method that we 
have a lot of fibers doesn't mean it's asbestos.
    And so, Congressman, the answer to your question directly, 
we did find some fibers in tests but they were not asbestos. 
And therefore, we believed it was appropriate to open up Wall 
Street, as long as we put in the right precautions, that we do 
what we can to minimize the tracking and reentrainment when you 
kick on ventilation systems, reentrainment of whatever dust may 
be in those systems. It was safe for people to go back to work.
    Chairman Conyers. Well, it was safe to go back to work if 
you could get through the pollution to get to work. I mean, 
what we are talking about here, sir, are the outdoor tests as 
compared to the safety that you claim was on the inside. The 
outdoor tests showed there was great danger of very potent----
--
    Mr. Henshaw. And while our issues are workplace 
environments, we knew workers were going to walk to and from 
their workplace. We monitored, and we had OSHA inspectors 
walking the streets of New York City on the 14th, 15th and 
16th, and we did that following the 17th when we opened up Wall 
Street, to see what exposures the people who are walking to and 
from work might be exposed to. And sir, we did not find them 
being exposed above any kind of acceptable standard, or 
unacceptable standard in respect to workplace standards.
    Mr. Conyers. You didn't find--you didn't know that the 
outdoor test results showed that there were 2.1 to 3.3 levels 
existing in the outside atmosphere?
    Mr. Henshaw. When you say levels, I am not sure what you 
are talking about. But I did not know of any result. We did not 
find any result of fibrous per cc of air, is the units we use, 
to estimate or judge whether in fact a workplace is an issue. 
We did not find those concentrations. If you are talking about 
a bulk sample, which represents the percent of asbestos in that 
by weight of that substance or that chunk, that's a different 
story, and we did find percentages. At the highest we had was 
1.9 percent.
    But again, Congressman, if I may interrupt, the key really 
is what's in the air. That's------
    Mr. Conyers. That's what I am saying. What is in the air. 
In the air, let me just read------
    Mr. Nadler. The gentleman's time has expired. You can ask 
just this question.
    Mr. Conyers. All right. Let me just follow this out. And I 
thank you, Mr. Chairman. Here is EPA, Environmental Protection 
Agency response to September 11. And this is dated September 
16. In the fifth paragraph, air samples taken on September 13 
inside buildings in New York's Financial District were negative 
for asbestos. Debris samples collected outside buildings on 
cars and other surfaces contained small percentages of 
asbestos, ranging from 2.1 to 3.3. That's where I get that--
that's where I get it.
    Mr. Henshaw. That, sir, is------
    Mr. Conyers. That is what was outside. So all I am raising 
is that to get inside where you claim it was safe, you had to 
work--you had to walk through an environment that was highly, 
highly infested with the kinds of materials that are harmful to 
human beings, right?
    Mr. Henshaw. Not--no, sir.
    Mr. Conyers. I am not right. Well, is this statement 
incorrect in the EPA release of September 16, 2001? Would you 
like to take a look at it?
    Mr. Henshaw. You are saying the EPA release?
    Mr. Conyers. Yes, sir.
    Mr. Henshaw. Well, I will be glad--but all I can--you are 
referring to bulk samples, which is sediment, dust on a 
surface, and one of the reasons why we recommended on Friday 
that we clean Wall Street, and that's with the HEPA vacuums and 
that's with the washing down of the streets where a lot of that 
debris was removed.
    Mr. Conyers. So you are suggesting we shouldn't pay any 
attention to this asbestos ranging from 2.1 to 3.3 in the 
release, that wasn't relative to any------
    Mr. Nadler. The gentleman's time has expired. The witness 
may answer the question.
    Mr. Henshaw. Certainly bulk concentrations of an asbestos 
above 1 percent is something that we need to pay attention to. 
No doubt about it. And what's important is, we want to make 
sure that doesn't get reentrained in the air where people are 
exposed to it. And so that's why we continue to monitor. We 
monitored before Wall Street was open, and we monitored after 
to make sure that nothing was getting in the air. And 
Congressman, we didn't find anything getting in the air.
    Mr. Nadler. Thank you. Thank you. We've now been joined by 
the Ranking Republican Member of the Committee, of the 
Subcommittee rather, Mr. Franks, and I will now recognize him 
for an opening statement because I promised I would before.
    Mr. Franks. Thank you, Mr. Chairman, and I thank Governor 
Whitman and Mr. Henshaw for being here. I apologize, and no one 
tried to get here sooner. With that in mind, Mr. Chairman, this 
oversight hearing is ostensibly to explore the legal issues 
that are currently being examined in ongoing litigation 
specific to the case of Lombardi v. Whitman. Initially this 
case was unanimously decided by a three-judge appellate panel, 
including Robert D. Sack, a Clinton appointee, but the decision 
by that panel is not the final step in the litigation process, 
as there will be appeals to the full Second Circuit for an en 
banc decision by all of its judges and a possible appeal to the 
U.S. Supreme Court after that. And while I look forward to an 
exploration of some of the legal issues raised in this case, I 
am concerned that our hearing today will be seen as a 
constitutionally questionable or inappropriate congressional 
attempt to second-guess the judiciary decision before the 
appeals process has made the final determination on the merits.
    The claims involve whether the EPA's public statements 
regarding the quality of the air at the World Trade Center 
cleanup site were entirely accurate with the benefit of 20/20 
hindsight. The court determined that the EPA took substantial 
measures to warn the public of environmental dangers. The court 
resolved the claims as follows, stating:
    Government action resulting in bodily harm is not a 
substantive due process violation unless the government action 
was so egregious, so outrageous that it may be fairly said to 
shock the contemporary conscience. In order to shock the 
conscience and trigger a violation of substantive due process, 
official conduct must be outrageous and egregious under the 
circumstances. It must be, quote, truly brutal and offensive to 
human dignity, closed quote. The OIG report shows that the 
defendants were required to make decisions using rapidly 
changing information about the ramifications of unprecedented 
events in coordination with multiple Federal agencies and local 
agencies and governments. If anything, the importance of the 
EPA's mission counsels against broad constitutional liability 
in this situation. The risk of such liability will tend to 
inhibit EPA officials in making difficult decisions about how 
to disseminate information to the public in an environmental 
emergency. Knowing that lawsuits alleging intentional 
misconduct could result from the disclosure of incomplete, 
confusingly comprehensive or mistakenly inaccurate information, 
officials might default in silence or default to silence in the 
face of the public's urgent need for information.
    In essence, the Second Circuit held that it would not be 
lawful to hold the Federal Government responsible for harm 
suffered by rescue workers who may have relied upon information 
issued by the Federal Government in circumstances in which the 
Federal Government was, quote, required to make decisions using 
rapidly changing information about the ramifications of, once 
again, unprecedented events in coordination with multiple 
Federal agencies and local agencies and governments, closed 
quote. As the OIG report stated, responding to this crisis 
required organizations from all levels of government to 
coordinate their response efforts and to make critical public 
health and safety decisions quickly and without all of the data 
that the decision makers themselves would normally desire. To 
impose liability in such circumstances would actually risk even 
greater harm in the future because fear of liability might 
deter the government from saying anything about an emergency 
situation. And I hope we can all agree that nothing should be 
done to force the Federal Government to remain silent in the 
midst of a crisis.
    I understand that Chairman Nadler held a press conference 
to criticize State and local official efforts to provide for 
injured 911 rescue workers in which he said, quote, the 
villains are no longer the terrorists. The villains live in the 
White House and in the Gracie mansion and in the Governor's 
office, closed quote.
    Let us be clear, Mr. Chairman, the villains are the 
terrorists, the villains remain the terrorists. The terrorists 
caused the harm on 9/11. We must be very careful not to equate 
even unintentionally the good-faith efforts of government 
officials to dutifully respond to an emergency in strange 
circumstances with the vicious premeditated violence 
perpetrated by blood thirsty murderers who express desire to 
kill as many innocent people as possible.
    Mr. Conyers. Would the distinguished------
    Mr. Franks. Mr. Chairman, I look forward to the witness.
    Mr. Conyers. Would the distinguished gentleman yield to me?
    Mr. Franks. Certainly.
    Mr. Conyers. I thank you, Mr. Franks. As the Ranking 
Member, we appreciate your presence very much. What I wanted to 
just make sure that we all agree on, that we're in no way 
attempting to intervene with the court procedures or what's 
going on in the court, and that we're not trying to obfuscate 
or in any way discredit anything that is going on at this 
present time in the Federal courts under the legal procedure. I 
think we're all in agreement that that is not our goal here, to 
interfere or even to instruct the courts. We're holding the 
hearing pursuant to our responsibilities as Members of the one 
Committee in the Congress that can inquire into these matters, 
and I just wanted to seek your assurance that that's why we're 
all here.
    Mr. Franks. Well, I understand, Mr. Chairman. And I accept 
that at face value. I guess I would just suggest that given the 
sensibilities of the issue here that it might be better for the 
courts to come to their conclusion before we begin to second-
guess them. And with that, I will yield back.
    Mr. Nadler. Thank you. Let me just say that I don't think 
that the Congress in the exercise of its legislative 
responsibilities can or should wait for courts to decide limit 
questions that are before the courts.
    Mr. Conyers. Yes.
    Mr. Nadler. There are at least three cases before the 
courts. Our purpose today is not to influence those cases in 
any way, but neither should we wait for them because we have 
responsibilities to undertake, and I must comment I did say 
what I was quoted as saying. And I think the terrorists--with 
the terrorists, they were the villains who did what they did. 
But insofar, insofar as government, as government officials in 
bad faith, if they were in bad faith, acted in such a way as to 
inflict bodily harm or to subject people to bodily harm in the 
United States, then they also are guilty if that is the case 
that happened.
    I'm not saying that now. That happens to be my personal 
opinion. But that's not before the Committee now. But that was 
the--what I was saying there, I was not equating them with the 
terrorists. The terrorists did what they did, which was 
obviously heinous. But that doesn't eliminate the logical 
possibility that other people compounded the damage, which I 
believed to be the case. And that--and that it may be incumbent 
on us as Congress to take remedial action, which is what we 
have to examine.
    Mr. Conyers. Would the gentleman yield?
    Mr. Nadler. Yes.
    Mr. Conyers. I just wanted to get the assurances and the 
continued cooperation of the distinguished Ranking Member of 
this Committee that I hope that he has no objection to us 
moving forward with the inquiry. No one has mentioned the 
courts until now. And we don't intend to invade their 
jurisdiction, nor do we intend to describe or limit or instruct 
them as to how they should proceed. And so we would like to 
continue the comity that we've enjoyed in this Committee so far 
and get your assent to the continuation of these hearings as 
we're proceeding. We've got distinguished witnesses here, and 
we would like this to be a bipartisan inquiry.
    Does that meet with the objections of the gentleman.
    Mr. Franks. Mr. Chairman, I would just say I look forward 
to the hearing and what the witnesses have to say and do so 
with an open heart.
    Mr. Conyers. Wonderful. Now one point though. Could you 
call for me our distinguished friends, Mr. Pence and Mr. Issa 
and Steve King and Jim Jordan, to invite them if they are here, 
to please join these proceedings because this isn't a party, a 
partisan inquiry. And I don't want anybody to think that it is. 
It's a bipartisan point of view in which they are entitled to 
express any opinions that they hold about this proceeding. And 
I don't think that the Committee serves its fullest purpose 
without all of our colleagues here.
    Mr. Franks. Mr. Chairman, if I could just respond to that 
just extremely briefly.
    Mr. Nadler. Briefly, yes.
    Mr. Franks. The meeting being held--in all due deference to 
the Chairman--at 1 on a Monday has been difficult for some of 
our Members. As you know, I had to make great effort to be here 
personally and I know all of you are here, so that leaves us 
without excuse. But I do suggest to you that the particular 
timing of the hearing made it------
    Mr. Conyers. And I'm sorry that you were inconvenienced, 
your Members, not you, but those that may not have been able to 
be here.
    Mr. Nadler. Let me just say, the meeting was scheduled for 
1 on a Monday because that was the only time that some of the 
witnesses could make it. With that, I will yield for 5 minutes 
of questioning to the distinguished gentleman from Minnesota, 
Mr. Ellison.
    Mr. Ellison. Ms. Whitman, on September 14, the EPA had its 
own workplace tested in Manhattan and found asbestos. Without 
even waiting for the results, the EPA had its building 
professionally cleaned. How could you say that there were, 
quote, no significant levels of asbestos, unquote, in your 
September 16 press release when significant amounts of taxpayer 
dollars were spent to clean your own building at 290 Broadway?
    Ms. Whitman. Congressman, we advised everyone who was going 
to reoccupy buildings that they should be appropriately 
cleaned. There was no extraordinary cleaning undertaken at our 
buildings, but clearly every building in that area where people 
were going to be occupying should have been cleaned. And what 
we said at the time was, while we recommended professional 
cleaners, if individuals couldn't afford that or didn't have 
access to them, that HEPA vacs and wet wipes were the 
procedures that they should undertake. But we absolutely 
recommended that everybody clean the buildings. And I would 
repeat that nothing extraordinary occurred with our building, 
but surely it was important to get the men and women back 
within who were responding in a very direct way and were 
responsible for a lot of the analysis of the information and 
the data on which the public so depended back into their 
building, which was literally four blocks away.
    Mr. Ellison. Governor Whitman, did the EPA issue a press 
release and also state on its Website that residents should 
clean their residences and workplace with a wet rag or a wet 
mop?
    Ms. Whitman. I don't recall EPA ever saying wet rag or wet 
mop. EPA said professional cleaners if possible and HEPA vac 
and wet wipes together. Vacuum cleaner with a special HEPA 
filter and wet wipes. It is my understanding that in subsequent 
retesting that those who followed those procedures, they were 
found to have very low, if any, incident of remaining asbestos. 
We also recommended that if people had shag carpets------
    Mr. Ellison. I'm sorry, Ms. Whitman. I have limited time. 
Thank you, Governor Whitman. On September 16 the EPA told New 
York Newsday that its highest recorded asbestos rating for 
contamination was about 4.5 percent. New York Newsday quoted 
you, Ms. Whitman, as saying, quote, there is no reason for 
concern. Why did say there's no reason for concern when EPA's 
official own position since 1986 has been that there's no safe 
level of asbestos?
    Ms. Whitman. Well, as Mr. Henshaw indicated, the concern 
that we had for the general public was in asbestos getting into 
the air into their lungs. What we found in dust--in bulk 
samples was different. Nobody wants asbestos anywhere. There's 
no------
    Mr. Ellison. Excuse me. Could I just say that you'd agree 
with me that in the aftermath, the immediate aftermath of this 
tragedy, people were scared?
    Ms. Whitman. Of course people were scared.
    Mr. Ellison. People were panicked, right?
    Ms. Whitman. Of course.
    Mr. Ellison. People wanted to know what should they do and 
they wanted to know from you, that is right?
    Ms. Whitman. That is correct.
    Mr. Ellison. You gave them reassurances about the quality 
of the water and the quality of the air being okay. Today you 
come and say okay, we're talking about bulk or this or that. 
But the fact is that on the September 18 press release, you 
said that we're very encouraged by the results of the------
    Ms. Whitman. We were.
    Mr. Ellison. You gave the assurances to people. Let me ask 
you this, do you agree that after those planes collided with 
the towers that it caused immediately dangerous toxic levels 
for people of air quality, dust and water?
    Ms. Whitman. We were enormously concerned when those towers 
came down.
    Mr. Ellison. Right. And do you also agree today even 
looking back in hindsight that the language that you used gave 
people a false sense of safety?
    Ms. Whitman. No, I do not agree it gave them a false sense 
of safety. We were talking about air quality, the general 
ambient air quality in Lower Manhattan and the impact on long-
term health. And I'm sorry if that was not what people now 
looking back on see, but that was what the scientists------
    Mr. Ellison. I'm sorry, Governor. I only have 5 minutes. I 
would never interrupt you under normal circumstances, but I 
only have 5 minutes. This is a quote from the September 18 EPA 
response: Given the scope of tragedy from last week I am glad 
to reassure the people of New York and Washington, D.C. that 
their air is safe to breathe and the water's safe to drink. Now 
that is a fairly sweeping statement about reassurance.
    Do you now feel that you spoke a little bit too broadly and 
a little bit too soon about the actual quality of the air and 
the water?
    Ms. Whitman. Every test that we have------
    Mr. Ellison. Excuse me, Governor.
    Ms. Whitman. Congressman, you know, it's fine to go through 
the yes and noes. But I think it's important for people to 
understand that these were not whims, these were not decisions 
by a politician. Everything I said was based on what I was 
hearing from professionals. My son was in Building 7 on that 
day, Congressman. And I almost lost him. This is as personal to 
me as it is to anyone.
    Mr. Ellison. Governor, excuse me. I'm not going to allow 
you to turn this into a personal thing. It's personal for the 
people out here too, Governor.
    Ms. Whitman. It's personal to everyone.
    Mr. Ellison. I'm not going to stand here and allow you to 
try to obfuscate the questions that I am asking.
    Ms. Whitman. I'm not obfuscating, Congressman. I am asking. 
I have been called a liar. I have been called a liar even in 
this room today. My actions were not criminal. With all due 
respect, you are sitting on a panel with people------
    Mr. Nadler. The time of the gentleman has expired.
    Mr. Ellison. With permission
    Mr. Nadler. Without objection, the gentleman has 1 minute.
    Mr. Ellison. On September 27, the USDA gave the EPA test 
results that found WTC dust to be highly toxic. The WSGS--
excuse me, the USGS concluded that the ph level of the WTC dust 
was as toxic as drain cleaner. Why didn't the EPA issue a 
single press release about the USGS findings?
    Ms. Whitman. The reference in, as I understand it again, 
looking--to the best of my recollection looking back 6 years, 
that statement was relative to the dust, the contaminants found 
on the pile of Ground Zero, and that is where EPA was 
constantly reminding all those involved that Ground Zero, the 
air quality on Ground Zero on the pile was different than in 
Lower Manhattan, and that those responders should wear 
respirators, should wear HAZMAT suits, should take--wear eye 
protective and that's--eye protection and that's why we even 
set up wash stations.
    Mr. Ellison. My time has expired.
    Mr. Nadler. The gentleman's time has expired. The gentleman 
from Arizona, Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman. And thank you again, 
Mr. Henshaw and Governor Whitman, for being here. Governor 
Whitman, I read in the IG report that the IG, quote, found no 
evidence that EPA attempted to conceal data results from the 
public, closed quote. That's pretty straightforward. Is that 
your understanding? How do you answer critics who claim that 
the EPA misled the public about the data results?
    Ms. Whitman. Well, again in that instance I would 
absolutely agree with the IG's finding there because we were 
providing--we had a Website up within 10 days. We had data that 
was being collected by 13 different entities to synthesize. We 
tried to ensure that those in the public who--and the 
scientists and the public and in other parts of government at 
all levels had the opportunity to look at the data that we were 
looking at to be able to compare apples to apples and make 
their own decisions, were we telling them the truth, was it 
safe or not. So they could see what was happening in that area.
    Mr. Franks. Governor, you know that the same report states 
again, quote, that EPA provided public access to its monitoring 
data through its public Website. I am assuming this is the one 
you just mentioned.
    Ms. Whitman. Yes, sir.
    Mr. Franks. Which included interactive maps that could be 
used to identify monitoring results. Am I reading this 
correctly, that the EPA provided public access to all of its 
data?
    Ms. Whitman. We put everything up on the Website as fast as 
we could get that.
    Mr. Franks. Why did you do that?
    Ms. Whitman. Because I thought transparency was of the 
utmost importance. People needed to see what we were seeing, 
how we were coming to the conclusions that we were, to make the 
statements that we were. It was important because in science 
you are always going to get second-guessed and we need people 
to be able to see all the data.
    Mr. Franks. Sometimes you get 10 scientists in the room and 
you get 20 opinions. Up here you get 10 of us and you get 150 
opinions. These scientists could have come to a different 
conclusion looking at the same data about whether the air was 
safe in your mind?
    Ms. Whitman. Scientists certainly could. It's a little bit 
like climate change. There are a number of scientists who don't 
feel that that is occurring, yet the bulk of the scientists 
believe that it is. It is sort of the same kind of situation.
    Mr. Franks. I'm confused, as some of us, that Mars is also 
increasing there, and we wonder how that's greenhouse gases.
    Governor, I keep reporting, keep referencing this IG 
report. But let me just reference one more. The conclusions 
from the EPA draft risk evaluation completed over a year after 
the 9/11 attacks have tended to support EPA's statement about 
long-term health effects when all the necessary qualifications 
are considered.
    Do you think this means that the EPA has found no evidence 
of a long-term health effect from the air in New York beyond 
the Ground Zero sites?
    Ms. Whitman. Congressman, there are ongoing studies on 
which EPA is--in which EPA is participating to monitor the 
health of the responders and those who live at Ground Zero. And 
I would have to respect whatever those--those studies find. But 
as yet, I have not seen any final peer review scientific 
conclusion from any of those studies, those long-term studies. 
But the agency I gather is part of those. I know they are 
continuing to go along with those and I would bow to whatever 
those studies ultimately conclude.
    Mr. Franks. Well, the IG report also noted that the IG 
consulted with environmental and medical expert--or medical 
external experts who confirmed that such exposure to the 
general public was not likely to present a risk of long-term 
health risks.
    Were you aware of the external experts that they had 
reached these kind of conclusions?
    Ms. Whitman. I was aware of what I was getting every day on 
the calls, sometimes three times a day early on, from the 
scientists who were analyzing the data. And sometimes it may 
not seem intuitive to those of us standing around that what 
they were finding was real. But I will believe the scientists. 
When they tell me that they examined the data and what is safe 
for humans to breathe, I will believe them. And in this 
instance, I did. And I think they have been proven to be 
correct in large measure, to the best of my knowledge.
    Mr. Franks. Well, we've heard a lot about the White House 
and its involvement in this hearing. Why was the White House 
involved in crafting the press release?
    Ms. Whitman. Congressman, my experience as a Governor, I 
always found that in the time of a crisis you need to speak 
with one voice. You need to have someone who is collating the 
information and is communicating it in a reasoned way that the 
public can understand, especially when you have a number of 
different agencies under your purview that have responsibility 
for that kind of response. In this instance, obviously you had 
EPA, you had OSHA, you had CDC, you had the FBI, you had CIA. 
ATSDR, you had a number of different organizations looking at a 
variety of data. And it was important that that be synthesized 
and communicated in a way that was coherent and that the public 
could use, and I thought it was entirely appropriate to have 
the White House perform that function.
    Mr. Franks. If I can get under the line here, I would like 
to ask, there's a letter from Mr. Bruce Sprigg, which is EPA's 
chief of Response and Prevention Branch, to Mr. Kelly R. 
McKinney. And that's Associate Commissioner of the Bureau of 
Regulatory and Environmental Health Services of the City of New 
York. It's dated October 5, 2001, which states, quote, the EPA 
has recommended and continues to recommend that workers at the 
site wear respiratory protection, closed quote.
    Were you aware that the EPA made these recommendations to 
New York City shortly after the 9/11 attacks?
    Ms. Whitman. Yes, I was.
    Mr. Franks. Well, my time has expired, but thank you, 
Governor. Mr. Henshaw, I'm sorry I left you out.
    Mr. Nadler. Thank you. I now recognize for the purpose of 
asking questions for 5 minutes the gentleman from Virginia, Mr. 
Scott.
    Mr. Scott. Thank you, Mr. Chairman. I thank our witnesses 
for being with us today. Mr. Henshaw, you mentioned the fact 
that asbestos was detected and was over a certain level. Are 
there safe levels of asbestos?
    Mr. Henshaw. Yes, sir, there are safe levels of asbestos. 
We have an Occupational Safety and Health--what we call 
permissible exposure limit, which is 0.5 fibers per cc for an 
8-hour average. That is our current standard with respect to 
asbestos.
    Mr. Scott. And you consider that safe?
    Mr. Henshaw. Yes, sir, I do.
    Mr. Scott. I understand that the EPA office was 
professionally cleaned. Was there a recommendation that people 
cleaning their own apartments use professional cleaning? 
    Ms. Whitman. Yes, there was.
    Mr. Scott. There was?
    Ms. Whitman. Yes, there was, sir.
    Mr. Scott. Was that in your press release?
    Ms. Whitman. It was in a number of our press releases, in 
statements, and I believe that the City of New York had assumed 
the responsibility for indoor air cleaning. They had asked us 
not to participate in that but we worked together collegially 
to help them with it, but they were doing it. And we referred 
them, anyone who had questions, to New York City, as well to 
their health office and they had a series of recommendations. I 
also believe I included the recommendation to use professional 
cleaners wherever they could.
    Mr. Scott. Okay. And there was one press release that was a 
legal exchange. One of the reports we have, it's Document 15, 
paragraph 35. It says that the OIG representative read a 
statement that the Wall Street Journal attributed to EPA's 
Region 2 administrator. We have said from the very beginning, 
the departments need to be professionally cleaned. The OIG 
representative asked, did your office consider advising the 
public through a press release that they need to obtain 
professional cleaning for their indoor spaces? Ms. Kreisher 
replied that, quote, it was in a press release. It was removed 
by Sam.
    Ms. Whitman. That was one press release, and that's 
absolutely correct. It was the only time in fact when the press 
releases--that I was ever made aware of a substantive 
difference between the White House and EPA on what should be 
communicated to the public. We had been saying prior to that 
time professional cleaners. We said after that time 
professional cleaners. When it was brought to my attention 
that, in fact, it was recommended that this sentence be 
removed, the phrase be removed, at that point in time there had 
been apparently quite a bit of discussion back and forth on the 
use of this sentence. It was in the afternoon, and I don't 
remember, Congressman, what else was in that press release, but 
I do remember thinking--there was information there that needed 
to be communicated to the public. So I made the determination 
rather than continue the fight, battle over that particular 
phrase, to let the press release go out as it was because I 
knew I was going to be appearing on, I believe it was CNBC, but 
again going back in time, I don't remember which particular 
media outlet I was going to be on. And I said I will use that 
phrase. It appeared in every subsequent press release. But in 
that one press release, that was the only time that I remember 
anything of substance being taken out. The information may not 
have been the exact order wording that the EPA sent over, but 
it conveyed all the relevant information that the public 
needed.
    Mr. Scott. Do you believe there are safe levels of asbestos 
exposure?
    Ms. Whitman. Well, in general the EPA doesn't like to see 
asbestos anywhere. But yes, there are standards that represent 
safe levels of exposure.
    Mr. Scott. And do you know what that safe level is?
    Ms. Whitman. I bow to Mr. Henshaw's analysis of that. He's 
the expert.
    Mr. Scott. Now you mentioned Ground Zero and people were 
going back--Mr. Henshaw, Ground Zero people were going back to 
Ground Zero. Were they wearing the appropriate respirators?
    Mr. Henshaw. Were all the folks wearing appropriate 
respirators? Obviously, sir, no. That was our dilemma. How do 
you get people to wear proper personal------
    Mr. Scott. Do you communicate to them in such a way that 
they were risking their lives by not using the respirators?
    Mr. Henshaw. Constantly. That's why that is why we did 24/7 
inspections.
    Mr. Scott. Do you have any enforcement powers when people 
are violating OSHA regulations?
    Mr. Henshaw. As you know, we do not have jurisdiction over 
the firefighters and police. So we couldn't tell them that they 
should do that.
    Mr. Scott. But you were aware that they were endangering 
their lives.
    Mr. Henshaw. That's precisely, sir, why we put together on 
October 15 the partnership, which included the firefighters and 
police, we put down in writing, they will follow our OSHA 
standards. I can't guarantee they follow them always. This was 
something that we had not done before. And we did it because 
these circumstances required extraordinary efforts.
    Mr. Conyers. And do you have any evidence to contradict 
what I've heard that 70 percent of the first responders are 
already having symptoms of asbestos and other problems?
    Mr. Henshaw. Sir, as the Governor had mentioned earlier, 
clearly the exposures right after the collapse of the tower 
were immense. No doubt about it. Unfortunately we did not 
measure, but that was, in my mind, an extraordinary amount of 
exposure. When it clouded out the sky, when you couldn't see 
the sun, that was--I've been an industrial hygienist almost all 
my life. I keep saying, I'm not done yet. But that was an 
immense concentration. And clearly those folks were exposed to 
all sorts of things, even the caustic environment that was 
mentioned earlier. And clearly--we just don't--we can't 
quantify what that was but that clearly was an extreme 
exposure.
    Mr. Nadler. The gentleman's time------
    Mr. Henshaw. That was the effect of the terrorist attacks, 
not because of the response.
    Mr. Nadler. The gentleman's time has expired. The gentleman 
from Tennessee, Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chairman.
    Governor Whitman, according to the Inspector General, your 
Chief of Staff, Ms. McGinnis, I understood that Sam Thernstrom 
provided press releases to other government officials but she 
didn't know who those officials were. Do you know who in the 
White House these other government officials were that the 
crafted press releases were given to?
    Ms. Whitman. No, sir, I don't.
    Mr. Cohen. You don't know who the ultimate White House 
decision-maker was on press releases?
    Ms. Whitman. I assumed it was the Council on Environmental 
Quality.
    Mr. Cohen. The Council on Environmental Quality changed 
quite a few of the releases from what your office had 
suggested. And I think it's summarizing them, your office acted 
as a scientist health-based group, I guess, and had 
precautionary press releases. The changes were uniformly made 
by the White House or the environmental quality group to less 
precautionary and more reassuring. More political, so to speak.
    Was that appropriate, do you believe from your perspective? 
I know as a Governor you see a common--it should be a common 
voice. We saw in Jaws that the sheriff told everybody it's safe 
to go back in the sea, you know, we know it wasn't. Was that 
appropriate for the White House to take that pro-environment, 
economic, everybody come and have a nice time at the beach and 
don't worry about the sharks approach?
    Ms. Whitman. Congressman, with all due respect I don't 
think that was ever even implied in any of the press releases. 
No kind of levity, no kind of------
    Mr. Cohen. I know they weren't.
    Ms. Whitman. Dismissive of the threats and the concerns 
that everybody had. To the best of my knowledge, as I indicated 
in a previous response, the only time that there was anything 
substantive that I felt was important that the public know was 
in the one press release where the phrase ``use professional 
cleaners when possible'' was omitted. Beyond that, as I 
indicated earlier, press--what happened--we'd sit down, we'd 
talk to those on-scene, we had talked to those who were 
analyzing the data, we being a group at headquarters, myself, 
the deputy chief of staff, the head of emergency response, the 
head of the press office, we would determine what was the 
appropriate message. After that, it was left to--it became a 
process that was coordinated by the White House to bring some 
kind of agreement of all the various agencies responding so 
that how it was--how the ultimate--my concern was that the 
information get out.
    Mr. Cohen. Let me ask you this, Governor, the White House's 
first concern was to see that the markets were open the next 
day. Their first concern was that everybody could go shopping. 
Don't you think that you as the EPA Administrator should have 
taken a higher--you were held to a higher duty and a higher 
standard and should have implored somebody in the White House 
that having the market open, having MSNBC active, having 
everybody feel reassured was not as important as a 
precautionary note, which we now know that the precautionary 
note was correct? Don't you think you had a higher 
responsibility than commerce?
    Ms. Whitman. Congressman, I couldn't disagree with you more 
with what you just said about what the White House wanted. 
Yeah, did I get a call? I reported it before. I got a call from 
the White House a day after from the Office of the Economic 
Advisers, which is not surprising, they're concerned about the 
economy of the country saying, reminding me of the importance 
of Wall Street, of opening the stock market. I indicated that 
until that building was cleaned, until it was safe it would be 
inappropriate, and that's the last I heard of that. It was 
cleaned, it was safe, as you have heard from Mr. Henshaw, for 
them to go back in, and they were allowed back in. Was it wrong 
to try to get the city back on its feet as quickly as possible 
in the safest way possible? Absolutely not. Safety was first 
and foremost, but we wouldn't let the terrorists win.
    Mr. Cohen. Please. I'll take care of that. I appreciate 
your help. I mean, the terrorists, you talk about a uniform 
voice. I have heard the terrorists twice. We have got a uniform 
voice here. The original EPA language stated that dust samples 
showed levels of asbestos ranging from 2.1 percent to 3.3 
percent. EPA views 1 percent of asbestos as containing material 
to be dangerous. This language was deleted and the White House 
added, our tests show it's safe for New Yorkers to go back to 
work in New York's Financial District. Isn't that a big change 
from 200 to 300 percent higher than what EPA recommends to 
``it's safe to go back to work''?
    Ms. Whitman. Congressman, I can't tell you, again, I'm not 
looking at the press release, I don't know what it said. I know 
that when contacted by the White House and asked if it wouldn't 
be safe for reoccupation of the building by the Friday after 
the Tuesday after the attacks, we indicated that until the 
buildings were safe and had been cleaned and were safe that it 
wouldn't be appropriate, and as Mr. Henshaw has indicated, 
cleaning took place, testing was done, and it was safe. It 
would have been inappropriate to say you can't go back if it is 
in fact safe. Safety is first and foremost.
    Mr. Cohen. Are you submitting, with all you know today, 
that it was safe to be back in that area other than on the 
pile?
    Mr. Nadler. The gentleman's time has expired. The witness 
may answer the question.
    Ms. Whitman. I said yes.
    Mr. Nadler. Thank you. The gentleman from New Jersey, Mr. 
Pascrell.
    Mr. Pascrell. Thank you. Governor, there's no one in this 
room that believes--I don't believe--knowing what I know about 
you, that you feel any less or are any less sensitive to the 
workers and the folks that came from New Jersey, many of them, 
and the first responders. That's not the issue. The issue is 
this, that you said there was no conspiracy, you said there was 
no White House interference. Yet let me simply repeat what your 
own IG stated, your own. Quote, the White House Council on 
Environmental Quality influenced the information that EPA 
communicated to the public through its early press releases 
when it convinced EPA to add reassuring statements and delete 
cautionary ones. Tables II-4 and tables II-5 in the IG's report 
is very clear about that. And a letter that we sent in 2003, 
and another letter we sent in 2006 to the Attorney General, we 
never got really a response on. I don't remember a response. Do 
you?
    Mr. Nadler. None.
    Mr. Pascrell. The Associate Administrator Kreisher, K-R-E-
I-S-H-E-R, told the IG there was a conscious effort, quote, to 
reassure people, and that came from the Administrator and the 
White House, unquote. She told the IG that, quote, felt extreme 
pressure from the White House. You are stating today again that 
there was no extreme pressure from the White House, Governor 
Whitman. Is that correct?
    Ms. Whitman. Congressman, I'm saying that I felt no extreme 
pressure from the White House. And I think if you'll go 
further------
    Mr. Pascrell. Why does the Associate Administrator feel 
that way? Why does Kreisher feel differently than you?
    Ms. Whitman. You will have an opportunity to ask her that 
in a minute. She is on the next panel.
    Mr. Pascrell. I certainly will. We're talking here about 
credibility and accountability. Let me ask you this question, 
do you think the City of New York acted responsibly?
    Ms. Whitman. I think the City of New York did absolutely 
everything in its power to do what was right by the citizens of 
New York.
    Mr. Pascrell. So now we're in a different stage since------
    Mr. Nadler. I would remind people. The gentleman will 
suspend. I would remind people again no demonstrations. 
Continue.
    Mr. Pascrell. Mr. Chairman, I don't lose time, do I?
    Mr. Nadler. No, no, no.
    Mr. Pascrell. I had the honor to serve on the Homeland 
Security Committee for 4 years. We went into this certainly not 
in the depth that this Committee's going to go into it. And 
Chairman at that time it was Peter King. It just didn't seem 
right, what was going on and what we were hearing. If you've 
read the reports from Mount Sinai, two, a couple of reports--by 
the way, did you read the reports from Mount Sinai about those 
people who worked------
    Ms. Whitman. I have not read the reports.
    Mr. Pascrell. Let me recommend them to you. I say that in 
all sincerity. Because I conclude after reading the two reports 
that I read, it might have been more, that the people are not 
making these stories up. The people are not claiming that their 
illnesses or sicknesses are coming from something other than 
they felt their work in the area. That's very dangerous, and I 
think you'd agree with that, very serious, and we have a 
responsibility in the government to protect and to prevent 
things from happening. If these people are correct that they 
suffered these things, then I don't care what reports you tell 
us about. I don't care what evidence you present. The evidence 
is that people I'm convinced are not lying, that they are sick, 
that they have had very difficult situations in breathing, 
pulmonary problems. I've talked to these people myself, 
Governor. They're not making this stuff up.
    Ms. Whitman. Congressman, I would never say they were 
making it up. And I have talked to them as well.
    Mr. Pascrell. Well, good. Now that we agree------
    Ms. Whitman. That's one of the reasons why we continue to 
say that those working on the pile should wear respirators.
    Mr. Pascrell. But they all didn't. And the judge who 
handled the case--and in conclusion, I want to make this point 
very clear. The judge who handled the case that was brought 
against you and against the EPA was very clear. He said this:
    ``Whitman's deliberate and misleading statements made to 
the press, where she reassured the public that the air was safe 
to breathe around Lower Manhattan and Brooklyn, that there 
would be no health risk presented to those returning to those 
areas shocked the conscience.'' That's what he said. I didn't 
say that. Nadler didn't say that. King didn't say that. That's 
what he said. He also said, ``no reasonable person would have 
thought that telling thousands of people that it was safe to 
return to Lower Manhattan while knowing such return could pose 
long-term risks and other dire consequences was conduct 
sanctioned by our laws.''
    And let me tell you, something, Governor, very clearly. 
There is a reason, there is a reason for this happening. And 
there's a reason for why this judge said what he did. And let 
me tell you also, you know that this Administration that you 
worked for has very little credibility and accountability. So 
you wonder, you don't wonder why we ask questions about what 
they were--what was coming out. We wanted one voice. Give me a 
break. We're talking about people here. We're talking about 
families. We're talking about human faces. And you know that 
just as well as I do. I ask you, come clear, clear the air so 
that we can all go forward.
    Mr. Nadler. The gentleman's time has expired. The witness 
may answer the question.
    Ms. Whitman. Thank you. First of all, I would just like to 
correct, it was a she, that particular judge, and there was 
another judge in the Southern District Court on the same day--
----
    Mr. Pascrell. I apologize for that, Governor.
    Ms. Whitman. Congressman, there was a judge in the Southern 
District Court on the same day looking at the basic same fact 
pattern came to a very different conclusion. She did not look 
at fact. I think you are a lawyer, Congressman?
    Mr. Pascrell. No, I'm not. No, I'm not.
    Ms. Whitman. I'm not either. That's one of the few things 
we share, Congressman. Neither one of us are.
    Mr. Pascrell. I have two sons who are lawyers. I don't hold 
it against them.
    Ms. Whitman. One of the things that a judge must take as 
fact in that kind of the proceeding are the allegations by the 
plaintiffs. They don't look at fact. They don't hear testimony 
on it. They have to take that as fact and she was adjudicating 
whether or not------
    Mr. Pascrell. Well, I'm glad someone from the 
Administration, past and present, believes that we should rely 
on science. That's what we will do.
    Mr. Nadler. The gentleman's time has expired. The 
gentlelady from Florida's recognized for 5 minutes.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Mr. Henshaw 
and Governor Whitman, I in my other role serve as the Chair of 
the Legislative Branch Appropriations Subcommittee and I say 
that because we have just been through a process by which we 
are having to make sure that we can now take care of tunnel 
workers who were exposed to very high levels of asbestos in our 
tunnels while working on the Capitol Visitor Center site as 
well as the site leading to the Capitol power plant. And for 
years we battled the Architect of the Capitol, who refused to 
do anything about it or acknowledge that there's a problem, and 
now we know that we have tunnel workers who were exposed. And 
we're going to have to deal with that to the tune of hundreds 
of millions of dollars, both to clean up the site and make sure 
we can take care of those workers. So I have spent a little bit 
of time on this and I wanted to lay that out in that context.
    Mr. Henshaw, at the Pentagon my understanding is that OSHA 
enforced regulations requiring the use of respirators and then 
no one became sick. But at the World Trade Center site OSHA 
regulations were not enforced and 70 percent of the first 
responders are now sick. So why did OSHA not enforce the law in 
New York with respect to the non-city or State employees on the 
site despite repeated requests from, what I understand from the 
city to do so? And given the fact that thousands of people are 
now sick, do you now believe that OSHA's nonenforcement of the 
respiratory protection standard at Ground Zero was the correct 
course of action?
    Mr. Henshaw. Congresswoman, you probably missed my opening 
statement. But Virginia has a State program, and the State 
program also has authority to enforce with firefighters and 
police. We in the Federal system do not have the authority to 
enforce with firefighters and police. The municipal employees, 
public sector are now covered under the OSHA Act, as you know.
    Number two------
    Ms. Wasserman Schultz. The EPA did have the ability to take 
over the site at the point that they felt that--and that is 
under Presidential Decision Directive 62, Emergency Support 
Function 10, and the National Contingency Plan under CERCLA, 
EPA could have taken over control of the site from the city as 
the lead agency if they felt that the city was not properly 
protecting their workers. So they certainly had the ability to 
do it, and you chose not to. So if you are saying that the law 
wasn't structured in New York to allow you to do that, then why 
didn't EPA step in and take over?
    Mr. Henshaw. First, I can't speak to why EPA didn't step 
in. And if you want------
    Ms. Wasserman Schultz. I will have Governor Whitman answer 
then.
    Mr. Henshaw. If I can complete the other part of your 
question, previous question, in respect to enforcing, even with 
the nongovernment employees or nonpublic sector employees, 
which were the contractors, the four primary contractors, that 
were at the site. We met with them the day after. They produced 
safety and health plans. We coordinated those safety and health 
plans. We got an agreement up front that we were going to 
follow one safety and health plan which has required the use of 
respiratory protection.
    That plan was put in place and signed by all parties 
eventually on October 15. Yes, Congressman, it was signed by 
the 15th. That plan, the contractors were the ones that were 
putting that together. We did not enforce--and that's why we 
had 70 people on the ground for 24/7 for that 10-month period 
when we saw--when we did inspection and found they weren't 
wearing respiratory protection, we told them to put it on and 
we also got a few of them removed from the site because they 
weren't wearing respiratory protection.
    Again this was the contractors. We had an agreement up 
front.
    Now, sir, I'm not a lawyer either and I don't want to 
employ any more lawyers. And as you know if we go through 
enforcement, we have to develop the evidence, we have to 
present it, issue the citations, they have 15 days to contest 
the citations. And then it goes through the administrative law 
judge and ultimately possibly to the review commission. That 
could take years. And we did not have seconds. I was there, and 
I agree 150 percent, this was the best approach to make sure we 
had immediate compliance. And that's why we put 1,100 people on 
the ground to make sure that they were complying.
    Now, in the earlier days it was very, very difficult 
because there were a lot of issues.
    Ms. Wasserman Schultz. Mr. Henshaw, when you are talking 
about exposure to that type of environment, you don't have the 
luxury of letting that type of time pass. The more time passes, 
the more people are exposed, and the more likely they are to 
get sick down the road. So even a lapse of a few weeks made a 
significant difference in people's health. And Governor, I 
would like to ask you, because I don't think it has been 
covered before I got here, why is it that EPA didn't take in 
and step over and use your legal authority to make sure these 
things were taken care of? Because that is a great concern to 
me.
    Ms. Whitman. Congresswoman, under--as you know, the EPA 
would have under certain circumstances had the authority to 
take over the site. What had to be proven in order to invoke 
the CERCLA, the Superfund Act, substantive--substantial and 
imminent danger, and the readings that we were getting 
relative--and this was relative to the overall air, I'm talking 
more about outside of the pile, were not indicating that. And 
we were working in a collegial fashion with the City of New 
York.
    Again, as far as the workers on the pile, what our--we were 
tasked by OSHA to do the--I mean, excuse me, by FEMA to do the 
health and safety monitoring, to monitor the air. And we did 
that, and then we provided respirators.
    Ms. Wasserman Schultz. When it comes to imminent--
substantial and imminent danger, are you talking about 
immediate death, horrible sickness within weeks? Because 
mesothelioma, the cancer that is the result of exposure to 
asbestos, does not manifest itself substantially or 
immediately. It could be years, but it's almost certain. So how 
is it that you didn't step in and exercise your authority given 
that knowledge, which has been known for years?
    Mr. Nadler. The gentlelady's time has expired. The witness 
may answer the question.
    Ms. Whitman. Congresswoman, that was based on what the 
interpretation of what our legal ability was to act by--in 
consultation with counsel at the time. We did have 
conversations about invoking Superfund and determined that 
frankly, the other part of it was, even if we had it, given the 
fact that we were trying to work in a collegial way with New 
York, I'm not sure the public would have stood with my taking 
New York to court to take Federal control of the site. But I 
can't speak to that because that would be supposition on my 
part.
    We did look at it and didn't feel the legal basis for 
exerting that existed. That's what I was told.
    Mr. Nadler. Thank you.
    Thank you. We will start the second round of questions and 
I yield myself--well, we won't start the second round of 
questions. I recognize the distinguished gentleman from Iowa.
    Mr. King. I thank the Chairman, the distinguished gentleman 
from New York. I want to make my short confession here in that 
and I just arrived on the scene and there are many pieces, 
details, of this that I haven't had an opportunity to 
accumulate and sort in as rational an approach that I would 
like to. I didn't want to pass up this opportunity, Mr. 
Chairman. What I'd like to do is, if I could just direct a 
question to Governor Whitman.
    The narrowness of the questions that have been asked at 
this point: Is there something you would like to address that 
you haven't had an opportunity to speak to?
    Ms. Whitman. What has always been frustrating is that I 
believe that the men and women of the Environmental Protection 
Agency were heroes as much as everyone in the way they acted 
after that and the kind of work they did, going down. They were 
on the pile, as far as I can recollect, on an almost daily 
basis. We had people on the site wearing monitors, trying to 
convey the best information. We tend to forget, looking back 
almost 6 years, the chaotic and emotional nature of this event. 
It was unprecedented. We were doing the very best we could, 
putting out information as fast as we could get it to the 
public, with the best interpretation of scientists who were not 
neophytes at this.
    While we had never faced something of the magnitude of the 
Twin Towers coming down, the professional men and women of the 
Environmental Protection Agency have responded to crises all 
around the world, and they were in Oklahoma City when the 
buildings came down. They know the kinds of things to look for, 
they make appropriate scientific-based assumptions based on 
what they know and the readings they are getting. To me, it is 
really sad that their reputation is being so undermined and so 
questioned when I believe they did an extraordinary job.
    Mr. King. Governor, I thank you for those comments and I 
reflect upon a number of other incidents across the country 
where in the aftermath firemen charged the fire. And we know 
how many of them lost their lives because of their selfless 
dedication to their duty, without question about measuring the 
risk.
    I've seen it happen on a smaller scale in the district that 
I represent and this is the aftermath I understand, but also 
there have been many Monday mornings since then that have 
passed to get to this point. It is my view that we should 
measure the circumstances in the time that it took place and 
also measure the dedication of the people who made those 
decisions and question what they had to work with at the time 
and the political climate that we were in, well as the 
emergency situation that was there.
    How could anyone--I pose this question to you, Governor: 
How could anyone argue that we shouldn't have engaged in the 
recovery operations until we had a definitive response, 
definitive understanding of all of the implications that might 
have unfolded?
    Ms. Whitman. Congressman, I don't think anybody would. 
Obviously nobody did. The men and women who went in to respond 
to that--and many of them were people who were there because 
they worked for the Port Authority of New York and New Jersey, 
and I have had the opportunity to work with them and they 
didn't come back out of those buildings. They were true heroes 
and we owe them a debt of gratitude. And for those who did come 
out, but spent then months on that pile, this was a response 
where I believe every level of government did their very best.
    To say that anyone is perfect, that's not within the 
purview of mankind. But to then say that because there might 
not--to say that no one, not everyone is perfect in every 
instance, although I think we did an outstanding job, to say 
therefore it was malicious and with forethought and intent to 
mislead is an extreme--well, I think it is dangerous and it is 
going to be hard for people, if we should ever suffer another 
attack, for people to trust their government.
    Mr. King. I leave with you that conclusion, Governor. I 
appreciate your testimony; yours also, Mr. Henshaw, and I yield 
back the balance of my time.
    Mr. Nadler. I thank the gentleman.
    I'll now begin the second round of questioning. I yield 
myself 5 minutes.
    First of all, let me make a couple of comments on what was 
said before I get into my questions. Mr. Henshaw, you talked 
about 70 percent of the victims and you talked about people 
caught in the plume and it was the terrorists' fault. But the 
70 percent was not of people caught in the plume, the 70 
percent of people who are sick are 70 percent of the first 
responders who were not caught in the plume. They are sick 
because they worked in the pile for 40 and 50 days without 
proper protection, so that is not the same thing. The people 
who were caught in the plume lots of them are sick, but the 70 
percent of the first responders who were not caught in the 
plume, who did not inhale anything toxic on 9/11, but who 
worked there 40 and 50 days later, they are now sick because 
they worked without proper protection from OSHA or EPA or other 
agencies of government.
    Second of all, I must comment on Ms. Whitman's claims that 
EPA constantly told people to get a professional cleaning of 
their homes. There were no such recommendations in any EPA 
press release or on the 24-hour hot line or in any statements 
that we could identify before November 26th of '01.
    EPA region II Acting Administrator Kathleen Callahan 
testified at a New York City council hearing on November 1, 
'01, only about the New York City instructions to clean up, 
that people should clean up their apartments and their places 
of business with a wet rag and a wet mop, and made no 
distinctions in her testimony about levels of dust.
    In response to January 2002 Freedom of Information Act 
request, EPA could not produce any publicly disseminated 
document that either assumed the dust to contain asbestos or 
told people that they should use professional contractors if 
there is more than minimal dust. So unless you can provide to 
this Committee something dating before November 26th, 2001, I 
would hope you would not repeat the untruth that EPA was 
constantly telling people to get professional help. They were 
certainly not doing so in anything that we have been able to 
identify before November 26th.
    Ms. Whitman. Congressman, I will attempt to get you the 
tape of October 26, an MSNBC interview that I gave that talks 
about that. I'll get it to you.
    Mr. Nadler. And October 26, if you said that on October 26, 
that's a month and a half after you'd given the wrong 
information.
    Now, EPA press releases at its Website referred residents 
and employers returning to their homes and workplaces to New 
York City Department of Health guidelines that advised people 
to remove dust from their homes and workplaces using a wet mop 
or a wet rag.
    Now, Mr. Henshaw, on January 31, 2002 you wrote a letter to 
President Peterson of Local 78 of the Asbestos Workers Union 
and you said the following: In that the materials' referral to 
dust--he had asked whether dust found in people's homes should 
be considered asbestos containing material. You wrote the 
following: In that the materials containing asbestos were used 
in the construction of the Twin Towers, the settled dust from 
their collapse must be presumed to contain asbestos. Therefore, 
you concluded, the dust contained asbestos must be removed by a 
competent person and be disposed of properly.
    Now, Mrs. Whitman, the IG report, as was noted before, said 
that a recommendation to obtain professional cleaning was 
deleted from an EPA press release by a White House official. We 
will get into that in Panel II. The EPA Website was constantly 
referring people to the New York City Department of Health 
recommendation to clean up their apartments with a wet mop and 
wet rag.
    Now, Mrs. Whitman, isn't it a fact that EPA prosecutes 
people all the time for illegal removal and disposal of 
asbestos?
    Ms. Whitman. Yes, yes.
    Mr. Nadler. If the EPA saw removal crews dumping asbestos-
containing material in the trash, wouldn't the EPA prosecute 
them?
    Ms. Whitman. I would presume they would.
    Mr. Nadler. Then given that Mr. Henshaw's letter properly 
stated that all World Trade Center dust must be presumed to be 
asbestos-containing material, and that therefore all asbestos 
regulations apply, and since EPA's own 1986 regulations state 
that there is no safe levels of asbestos, how could EPA urge 
people, how could they permit the City Department of Health to 
urge people to illegally dump asbestos-containing material in 
the trash and to illegally clean it up without being licensed 
to do so or without being properly protected?
    Isn't that illegal advice for which you would prosecute 
people in the normal course of events?
    Ms. Whitman. Congressman, no, I am not a lawyer so I can't 
tell you whether counsel would have advised under those 
circumstances to bring charges against anyone who was trying to 
dispose of the dust.
    Mr. Nadler. Let's rephrase the question. Isn't it clearly 
illegal for people who are not licensed to do so, and are not 
properly protected, to remove asbestos-containing material and 
throw it in the garbage?
    Ms. Whitman. Congressman, I actually cannot answer that 
question. I am not a lawyer.
    Mr. Nadler. Mr. Henshaw, can you answer that question?
    Mr. Henshaw. I don't know if I can answer that exact 
question, except that letter was in response to invoking what 
the standards are required for hazardous waste. And that wasn't 
the case under these circumstances.
    Mr. Nadler. What wasn't the case?
    Mr. Henshaw. That this was a hazardous waste site.
    Mr. Nadler. It certainly was.
    Mr. Henshaw. It was hazardous, but it wasn't declared to be 
a hazardous waste site.
    Mr. Nadler. It wasn't declared to be hazardous site, but 
nonetheless your letter stated that since there was asbestos in 
the World Trade Center, you must presume that the dust from it 
contained asbestos. And the law would simply operate to say if 
it is asbestos-containing material, you must dispose of it 
according to the law.
    We will get to that in Panel II, though. But my conclusion 
is this: That was illegal advice, not to mention unsafe. My 
time is expired, but I permit you to answer the question.
    Mr. Henshaw. Thank you very much. We were operating under 
1926, which is construction standard for asbestos, those are--
that's the standard which we were operating under during the 
World Trade Center events.
    I would also like------
    Mr. Nadler. And, therefore, what------
    Mr. Henshaw. And that required based on the assessment, 
based on exposure assessment, and our assessment was we did not 
find asbestos concentrations in those workplaces. And therefore 
the appropriate--we had in the cleanup operation scope A and 
scope B. If you read further in the discussions, you will hear 
scope A and scope B. If there was scope A, what was visible 
dust, then we would recommend respiratory protection. If it was 
scope B, which is nonvisible dust, then we didn't require it.
    I'd like to go back------
    Mr. Nadler. My time is expired.
    Mr. Henshaw. But during your time you raised the issue 
about 70 percent.
    Mr. Nadler. I'll have to get to that later. My time is well 
over-expired.
    Mr. Franks? Mr. Franks is recognized for 5 minutes.
    Mr. Franks. Thank you, Mr. Chairman.
    Let me just start the second round here by saying that I 
know that anyone who's gotten sick as a result of this tragedy 
is an ancillary part of it. I don't want it ever to be thought 
or assumed that there's not a great concern on my part and, I 
am convinced, as well as those members of the panel here today. 
But I think what is disturbing me is that somehow, Governor, as 
you put it earlier, that there is being attached to this 
tragedy some malicious part, malicious motivation on the part 
of the EPA to somehow either not care or just deliberately do 
things that would harm people in the aftermath of this tragedy.
    I've heard things as outrageously ridiculous as that 9/11 
was orchestrated by the American Federal Government. You hear 
things that are stupid beyond degree, and yet it seems that 
there are those in certain quarters willing to say them with 
great conviction.
    So I just--I want to register my disgust with people that 
would deliberately attach a malicious attitude on the part of 
government officials that were trying, trying to respond to a 
tragedy that beggars the description of all of us.
    With that said, I am particularly concerned about some of 
the things related to the White House involvement and press 
releases. The 9/11 Commission Report at note 13 on page 555 
already examined this issue and they concluded as follows: All 
the White House-reviewed process resulted in some editorial 
changes to the press releases. These changes were consistent 
with what the EPA had already been saying about the White House 
clearance. There were disputes between EPA's communication 
person and the White House coordinator regarding those press 
releases. But the White House coordinator, however, told us--
this is the 9/11 Commission--that these disputes were solely 
concerned with process, not the actual substance of the press 
releases. Former EPA Administrator, Christine Whitman, agreed 
that the White House coordinator--agreed with the White House 
coordinator, the document supports this claim. We found no 
evidence of pressure on the EPA to say the air was safe in 
order to permit the markets to reopen.
    So I guess, Governor Whitman, I would ask you, hasn't the 
9/11 Commission already looked into this and concluded that 
there was no wrongdoing?
    Ms. Whitman. Congressman, the 9/11 Commission did a very 
thorough investigation of the entire tragedy. I have read that 
word for word, been through the entire 9/11 report, and I think 
they were very accurate in their portrayal of the response of 
the Environmental Protection Agency and the other levels of 
government to this unprecedented attack and tragedy.
    Mr. Franks. Did anyone within the EPA ever complain to you 
that they believed that EPA's public statements about the test 
data were false and misleading.
    Ms. Whitman. To the best of my recollection, I don't 
remember anyone ever coming to me within the Agency and saying 
that. To the best of my recollection.
    Mr. Franks. Related to the lawsuits, isn't it true that two 
of the lawsuits filed against the EPA and you personally, one 
of them has been thrown out of court and the other one is on 
appeal with the same court that threw out the first one?
    Ms. Whitman. Yes, it is.
    Mr. Franks. Let me just conclude here with a quote from the 
IG's statement and New York Times: ``We looked at a lot of 
things and we only came up with those very few things that we 
talked about, and what that says is that the EPA did a really 
good job. I don't think you can read five pages in that report 
without us talking about the fact that it was an unprecedented 
thing.
    Also an official from the New York City Department of 
Design and Construction said about the EPA's response to 9/11 
that it was ``phenomenal'' and that the EPA's response crews 
were on top of every issue under EPA's mandate. And you, 
Governor, led this agency through those tough times and, for 
whatever it is worth to you, I would like to try to applaud 
your conduct.
    Ms. Whitman. Thank you, Congressman. Could I do one follow-
up response to the Chairman?
    Mr. Franks. Certainly.
    Ms. Whitman. When you indicated that we were misleading and 
not providing the information to the public on the cleanup, I 
would refer you to a 9/16/01 statement where we did refer 
people to the New York City Department of Health, they were the 
ones who were leading for New York City, where they 
specifically called for a professional cleaning of the 
buildings. New York City did do that. They had that on their 
Website. We were deferring to them. I just want to make sure 
that you understood the full picture there, that New York City 
was doing this as early as 9/16.
    Mr. Nadler. Time for the gentleman has expired.
    The gentleman from Michigan, Mr. Conyers, Chairman of the 
full Committee is recognized for 5 minutes.
    Mr. Conyers. Thank you, Mr. Chairman.
    We are trying as best we can as a congressional Committee, 
to recreate as accurately as we can recall, the circumstances--
and in some ways they are complicated--about what happened 
following this disastrous tragic attack upon our country in New 
York.
    Governor Whitman, you said that New York City was not 
properly protecting its workers; is that accurate?
    Ms. Whitman. I don't recall ever making a quote to that 
effect, no. Not using those words. New York was the primary 
responder; I did say that, yes, because that was how the 
emergency response works out, that's how it happens, that they 
are the primary responder. But I don't think I ever blamed--and 
Congressman, I can understand how you might be misinformed on 
that, because the press is dying for a fight here.
    Mr. Conyers. Well, I am dying to get Katie Couric and your 
conversation on 60 Minutes------
    Ms. Whitman. Certainly.
    Mr. Conyers.--on September 2006 accurately interpreted. Let 
me review that with you.
    Couric: The Environmental Protection Agency is to protect 
people from the environment.
    Ms. Whitman: Right.
    Couric: Did you really do it?
    Ms. Whitman: We did everything we could to protect people 
from that environment and we did it in the best way that we 
could, which was to communicate with those people who had the 
responsibility for enforcing what we were telling, saying 
should be done. We didn't have the authority to do that 
enforcement, but we communicated that to the people who did.
    Couric: But who had the ultimate authority over the site?
    Ms. Whitman: Really it was the city; it was the primary 
responder.
    Do you recall that?
    Ms. Whitman. Yes, I do.
    Mr. Conyers. Okay.
    Couric: Did your people do enough to call the people who 
were overseeing the site, i.e. Mayor Guliani and city 
officials, and say, damn it, we have got to protect these 
people?
    Ms. Whitman: Oh, EPA was very firm in what it communicated, 
and it did communicate up and down the line.
    Couric: In no uncertain terms?
    Ms. Whitman, no uncertain terms.
    So if this were the case, does it not appear that it was 
the city that was not properly protecting its workers?
    Ms. Whitman. Congressman, my response is, those are all 
accurate, to the best of my knowledge; that the city was the 
primary responder, and as I indicated, that's--we conveyed the 
information about the importance of wearing protective gear on 
a regular basis to those who had the most direct oversight of 
the responders on the pile. There were mornings it's my 
understanding up in Region II with everyone.
    Again, this was a highly emotional time and I fully 
appreciate your sentiment of wanting to see how we do better, 
and I hope that one of the things that will come out of a 
Committee like this is whether they want to call it a line item 
or whatever, but a real focus on how do we make respirators 
that don't clog, that aren't cumbersome, so responders will 
wear them without worrying about it.
    These were people who were trying to save their brothers 
and sisters. These respirators inhibited communications. They 
did clog. They were hot. Those were warm days in the September, 
early October days. There were reasons.
    Nobody--again, we all seem to want to always find blame, 
somebody to blame--that's the terrorists over and over again--
but there are some very good things we can do: Get HAZMAT suits 
that are not cumbersome, that allow them to do their job and 
that are safe. Those are the kinds of things that we ought to 
be looking at.
    Mr. Conyers. Well, did you------
    Mr. Nadler. The time for the gentleman is expired.
    Mr. Conyers. Could I get an additional minute?
    Mr. Nadler. By unanimous consent, without objection, the 
gentleman is yielded 1 additional minute.
    Mr. Conyers. I have got a number of minutes, but here is 
what Mayor Guliani said on September 12, 2006. And I am not 
trying to be provocative, but if we don't straighten it out 
with you, I don't know who to go to except for Katie Couric 
herself. But Guliani also lashed out at the former 
Environmental Protection Agency Administrator for trying to 
blame him. That's what he said.
    ``What I remember from Cristine Whitman is her saying that 
the air was fine,'' he said, ``and her saying that quite 
prominently over and over again, and insisting on it.''
    Now, that's why I raised the question in the way that I 
did. I wasn't trying to put words in your mouth.
    Can you help me with that response before--the Chairman is 
raising his gavel again.
    Ms. Whitman. I would be happy to.
    Mr. Nadler. The gentleman's time is expired, but the 
witness may answer the question.
    Ms. Whitman. I would be happy to, Congressman, once again. 
There are two different things we are talking about, the pile 
and ambient air quality in Manhattan in general. One of the 
things that I learned, as I am sure you have, is not to respond 
to purported allegations given to me by reporters and the 
press, because usually we find that those are taken somewhat 
out of context, and we find that people weren't really blaming 
other people in the way that is implicated or implied by the 
way the question might be asked. So I don't think the mayor is 
blaming me. I am certainly not blaming the mayor. I don't think 
that that is a fruitful thing in which to engage.
    Mr. Conyers. In other words, you don't think he said it.
    Ms. Whitman. I don't think he said it relative to the pile, 
certainly relative to the ambient air quality in Lower 
Manhattan in general, because that's what I said.
    Mr. Nadler. The gentleman's time is expired. The gentleman 
from Iowa is recognized for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. I think most of us on 
this Committee have looked upon that tragic smoking pile of 
rubble and, later, into that smoking hole of rubble. I can't 
imagine anyone not thinking it was a war zone, that it was a 
war zone. I can't imagine anyone not thinking that did not put 
us at war right then, at that moment of impact, on that day.
    As I look down into that smoking hole, I think back across 
our history and what did it mean? The first word when I found 
out about the first plane--actually the second plane that hit 
the Twin Towers, the first one was, ``oh my God, what's 
happened to a passenger plane?'' The second one was my 
passenger who was with me said ``Pearl Harbor.'' The scope of 
the whole thing rolled into his head instantaneously.
    I spent my Father's Day weekend down to the Civil War 
battlefields at Manassas. And the first Battle of Manassas as 
it is known up on the south side of the Mason-Dixon line and, 
as I learned, the Battle of Bull Run, there was a momentous 
time in history and a lot of people think that the Civil War 
might have been over within months instead of years, at the 
cost of thousands of lives rather than hundreds of thousands of 
lives, if the battery that protected the right flank of the 
Union had simply received the order to fire on the charging 
regimen of, I believe, the 32nd Virginia. That order was 
apparently never issued, but no one really knows because every 
one who defended that battery was killed within a 10-minute 
period of time. The Union line was overrun and the first Battle 
of Bull Run was won by the Confederates and we launched 
ourselves on a tragic path of American history.
    What's interesting about that is Congress held hearings on 
that battle and they held hearings on why the order wasn't 
given. If it was given for that battery of cannon-to-fire-rate-
shot, how it might have turned history if it had just done 
something different.
    I read that history down there, and I think how could 
Congress go back and be a Monday morning quarterback and even 
put themselves into the circumstances of the troops who lost 
their lives that day or those who survived the battle. And it 
is different when you are at war, it is different when 
decisions have to be made on the spot, and it is different in 
the aftermath. And this Nation had needs.
    And I am trying to imagine what it would be like, with a 
city that covered with ash, to file charges against someone for 
not doing a proper EPA cleanup when they maybe lost their wife 
or husband in the Twin Towers? How could you bring that kind of 
enforcement from the EPA? And I guess that's really where my 
question is. I ask you that question, Governor Whitman, because 
I'd ask you again: Can you set the scene, how would that have 
been, if you would have followed the path that seems to be 
recommended here by some of the members of the panel, what do 
you think would have been the reaction of the public, of the 
President, of the Congress? Do you think you would have been 
called before hearings before this Congress if you had punished 
people who maybe didn't follow all of the letters of the 
regulations of the EPA and the cleanup in the aftermath, 
especially in the first couple of months afterwards?
    Ms. Whitman. Again, Congressman, it is so hard to speculate 
about what might have happened or might not have happened. But 
given today's atmosphere I would have to say, yes, I would have 
been probably brought to Congress long before this.
    Mr. King. Governor, that's my speculation too. It strikes 
me that the circumstances that you found yourself in, that 
history called you to, were a no-win situation. Whichever side 
of the argument that might have come down, there were going to 
be a lot of questions, a lot of recriminations.
    And what is different about this era than the Civil War 
era, is we're a litigious society. Nobody was going to file a 
lawsuit at the beginning of the Civil War or in the aftermath, 
but today we have a lot of litigation that goes on. We have 
people that are looking for these kind of opportunities, people 
that advertise for these kind of opportunities. And the 
financial incentive that's there is part of the equation.
    And I am not impugning anyone's integrity here, we know, it 
is part of the equation. We deal with that debate in this 
Committee. We have every year since I have been here. So I 
think we need to put this in a proper perspective, being that 
we were at war, we still are at war, and decisions had to be 
made on the spot. And to go back and, by the way, engage 
ourselves in a hearing here that may well affect the results of 
litigation, I think is something that we have refrained from in 
this Committee, but it is happening here today.
    I would ask Mr. Henshaw if he'd comment on that.
    Mr. Henshaw. Congressman, I agree 100 percent. I came to 
New York on Thursday after driving all night from Wisconsin, 
and I had a really deep appreciation of what some of those 
folks were going through. Incidentally, Congressman, Mr. 
Chairman, your people in New York were outstanding individuals. 
I went to some of the candlelight vigils. I have the utmost 
respect from New Yorkers. I grew up in Delaware and on the east 
cost, but I have the utmost respect for New Yorkers. When I 
arrived, we're trying to get a sense of how we can add value 
and save lives and reduce injuries and illnesses. Quite 
frankly, one of the purposes behind this ought to be how can we 
move forward.
    We had firefighters tell us, we don't need civilians to 
tell us how to do our job. And it's not because--I went through 
fire school------
    Mr. Nadler. Could the witness please------
    Mr. Henshaw. I am wrapping up.
    My point is I have the utmost respect for those 
individuals. We did not train them on wearing negative pressure 
respirators, and during an emergency you are not going to add a 
new element to their training. You just don't do that. And so 
the fallacy here is we did not prepare them adequately to deal 
with those kinds of conditions.
    And so the future ought to be how can we train them to put 
on the negative pressure respirators because we did not train 
them prior to that, and that's where we need to focus on. I 
yield back.
    Mr. Nadler. I thank the gentleman, I now recognize the 
gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Governor Whitman, you indicated that the 9/11 Commission 
had exonerated the EPA.
    Ms. Whitman. No, I don't believe I used the word 
``exonerated,'' Congressman. I think I said they had done a 
very thorough report on what happened.
    Mr. Scott. Okay. There is one statement in a footnote that 
said we did not have the expertise to examine the scientific 
accuracy of the EPA pronouncements in the press releases. Is 
that in their report?
    Ms. Whitman. Yes, that's in the footnotes as you allude to, 
as I recall. I don't recall every footnote.
    Mr. Scott. Mr. Henshaw, just to get a couple of things on 
the record for clarification. I understand you say that you 
knew when the workers were at Ground Zero, working without 
respirators, that you were aware that they were in eminent 
danger for health problems; is that right?
    Mr. Henshaw. No, sir, I did not say that. In fact, what our 
requirements were to wear respiratory protection. And to answer 
the question of the Congresswoman about citation, we did not 
find many samples above our standard able to cite.
    Mr. Scott. You knew they were working at Ground Zero 
without respirators.
    Mr. Henshaw. Our requirement was to wear respirators and 
when we saw one not wearing it, we in fact told them put it on, 
and they did. And we also had a few people dismissed because 
they weren't.
    Mr. Scott. So you were not aware of anyone working without 
a respirator that you didn't take immediate action to correct?
    Mr. Henshaw. I am not aware of any that we did not take 
immediate action to correct.
    Mr. Scott. And in response to the gentleman from New York, 
the Chairman's comment, you indicated that one of the problems 
with exposure was exposure was immediate, and so a lot of the 
illness could not have possibly been prevented because the 
exposure was right there at the explosion.
    Is it your testimony that people were not exposed after the 
initial 9/11 and subjected to significant health problems?
    Mr. Henshaw. Congressman, certainly during the collapse of 
the building there was an immense exposure, no doubt about it. 
There is a picture right here to see the kind of environment 
that individuals were in.
    During the cleanup and recovery and as soon as we began to 
take samples, we began to characterize what those exposures 
were. And we found very few above our permissible exposure 
levels. But regardless, the requirement was to wear respiratory 
protection when you are on the pile.
    Mr. Scott. While you are talking about acceptable levels, 
can you remind me what you said the acceptable level for 
asbestos exposure was?
    Mr. Henshaw. On an 8-hour time-weighted average, it is 0.15 
fibers per cc.
    Mr. Scott. There are some that think that any exposure to 
asbestos is hazardous; you would disagree with them?
    Mr. Henshaw. I disagree with them.
    Mr. Scott. Okay.
    Mr. Nadler. Would the gentleman yield for a second?
    Mr. Scott. I yield.
    Mr. Nadler. I would point out that the Federal Register of 
April 25th, 1986, the official EPA regulations state available 
evidence support the conclusion there is no safe level of 
exposure to asbestos. I yield back to the gentleman.
    Mr. Scott. Reclaiming my time. I am aware of that, I just 
wanted to make sure I didn't misunderstand the gentleman's 
testimony.
    Mr. Henshaw. That's based on a 1980's risk assessment that 
was based on some old information. We have new information 
today.
    Mr. Scott. Governor Whitman, you indicated in response to 
the Chairman's inquiries on the question of whether the places 
ought to be professionally cleaned, you have knowledge that the 
White House changed the press release, that was a substantive 
change, but that was the only time that you failed to mention 
the places ought to be professionally cleaned?
    Ms. Whitman. To the best of my--no, what I said, to the 
best of my knowledge, that was the only time that something 
substantive had been changed in a press release, that did not 
convey all of the information that we felt should be conveyed. 
Again, I am surprised to hear the Congressman say there weren't 
other press releases that indicated the need for professional 
cleaning. I know that I have said it on numerous occasions, and 
I am surely happy to go back and find tapes, although we------
    Mr. Scott. We know now that evidence was there that we 
should have known better than to send people back into some of 
those situations. If we don't know whether it is safe or not, 
should we say that it's safe or should we say that it's not 
safe if we don't have firm evidence one way or the other?
    Ms. Whitman. Congressman, we were basing everything--there 
were tests that were done on air quality. Again, it is not the 
usual prerogative or responsibility of the Agency to do indoor 
air. However, this was clearly a need, and we were working with 
the city of New York that took the lead on indoor air, and we 
were following their lead. They were the primary responders----
--
    Mr. Scott. We know now that it was not safe, so obviously 
we didn't------
    Ms. Whitman. No, it was a question of the readings as to 
whether they were high enough where they exceeded levels, and 
to the best of my knowledge in going back and talking to people 
about 5-1/2 years ago and what we were finding, that they were 
not finding levels in the air that were--when they did go into 
apartments--that were problematic. But that's my recollection 
looking back. That was run out of Region II and again it was 
New York City who was the primary responder.
    Mr. Nadler. The gentleman's time is expired. The gentleman 
from Tennessee, Mr. Cohen. I'm sorry, did I skip Mr. Ellison? I 
am sorry. The gentleman from Minnesota, Mr. Ellison.
    Mr. Ellison. Thank you, Mr. Chair.
    Governor, I just want to tell you I appreciate you being 
here. I know we had an exchange last time. Nothing here is 
intended to be personally offensive to you. I'm just trying to 
get some information.
    Do you agree that people were made sick because of the 
exposure to toxins that were in the environment in the 
aftermath of 9/11?
    Ms. Whitman. Congressman, I can't make that kind of 
finding. That has to be based on the scientific data and the 
studies.
    Mr. Ellison. Okay. Based on the scientific data and the 
studies, do you believe people were made sick by toxins that 
were in the environment after 9/11?
    Ms. Whitman. If they come to those conclusions I would have 
to agree. But waiting for those conclusions------
    Mr. Ellison. But, Governor------
    Ms. Whitman. No. Clearly we were concerned, Congressman. 
Obviously we were concerned or we wouldn't have recommended 
time and again that those working on the pile wear appropriate 
safety protections.
    Mr. Ellison. So can we safely say that you do agree that 
the illnesses that people have suffered as a result of their 
work of recovery, post 9/11, are related to their illnesses? 
You------
    Ms. Whitman. That's something that will be proven by all 
those studies, including the Mount Sinai one.
    Mr. Ellison. So are you saying yes, no, or you just don't 
know?
    Ms. Whitman. I don't know. I am not a scientist. I am not a 
doctor.
    Mr. Ellison. I know, I've read your bio. What does your 
common sense tell you?
    Ms. Whitman. Excuse me?
    Mr. Ellison. What does your common sense tell you?
    Ms. Whitman. My common sense tells me that we were 
concerned about possible health ramifications from workers who 
were not adequately protected; otherwise we would not have 
repeated over and over again that they should wear protection.
    Mr. Ellison. So you have testified already today about how 
the toxins that you tested for were within limits in terms of 
the studies that you relied on.
    If you--do you doubt the testing--do you doubt any of those 
tests that you found that were within the acceptable limits for 
exposure for people?
    Ms. Whitman. Do I doubt the quality of the tests?
    Mr. Ellison. Yeah.
    Ms. Whitman. I have no reason to doubt the quality of the 
tests. Again, the men and women at the Environmental Protection 
Agency, the scientists--and they weren't just the Environmental 
Protection Agency scientists who were looking at this data, it 
was OSHA, CDC, ATSDR, a number--as well as hospitals, the city 
and the State. There was a lot of instantaneous peer review, if 
you will, going on. So it as not just EPA.
    Mr. Ellison. Well, here's the thing, Governor. We have a 
lot of people who are sick, many of them are here today. And 
yet we have you saying, hey, we tested it and it was within 
acceptable; levels, that's why we told the public that--we 
reassured the public that it was safe.
    How do you account for what looks to me like a discrepancy?
    Ms. Whitman. Congressman, again, I think we are talking 
about two different things. On the pile there were concerns, 
and clearly, as Mr. Henshaw has indicated, when those towers 
came down, anybody that was engulfed in that dust you have to 
believe there was enormous amount of contamination that took 
place then, but that as it was happening nobody was out there 
taking readings; everybody was trying to figure out what to do. 
Our offices in fact were very near that site and had to be 
evacuated and people had to go immediately to the Emergency 
Response Center. But in the ambient air quality in Lower 
Manhattan in general, after setting aside the moment when those 
buildings came down, after that, when we started taking tests 
and data--the scientists were telling me that they didn't see 
anything that indicated long-term health problems for the 
general public.
    And, of course, remember that Lower Manhattan was closed to 
the general public, to most of the general public for quite 
some time afterwards as well. It wasn't a complete kind of a 
closeout, but there were pretty strict police patrols. But 
that's aside--we were just dealing with what we were hearing 
from the scientists, to the best of my knowledge.
    Mr. Ellison. Well, let me--are you saying that the people 
who have contracted illnesses--well, who I believe contracted 
illnesses as a result of the exposure were people who were 
only--who were exposed later and not as a result of the on-the-
scene--at the time of the attack that were engulfed in that big 
pile? You are saying that the illnesses are folks who--the 
people who are sick are people who got exposed outside of the 
initial attack?
    Ms. Whitman. I couldn't even begin to speculate on that, 
which is why the Environmental Protection Agency is part of the 
ongoing health registry and examinations that are being 
conducted to follow people to find out exactly what kind of 
exposure, whether these are--whether they can make that kind of 
correlation. I couldn't speculate on that, sir.
    Mr. Ellison. One last question, Mr. Chair.
    Earlier on, a member of our panel sort of raised a question 
about why would we go through an exercise of asking questions 
post hoc about what happened here. My question--my point would 
be because we want to do better next time.
    My question to you is in that light, going forward, do you 
think that you would give reassurances about safety of the air 
and the water and the toxic exposure after a catastrophe the 
way you did this time, if we were to, heaven forbid, to have 
another kind of catastrophe like this?
    Ms. Whitman. Going forward, I think it is the absolute 
responsibility of the Agency to communicate to the public the 
information and conclusions being drawn by the scientists who 
are looking at the data and making that analysis, not to inject 
any kind of a personal presumption into it, but to communicate 
what they are getting, based on what the scientists and 
professionals who are trained in this are finding.
    Mr. Nadler. Gentleman's time is expired. The gentleman--now 
we'll get to the gentleman from Tennessee, Mr. Cohen.
    Mr. Cohen. Governor Whitman, were the scientists involved 
in the issuing of the--given the information that were used in 
the press releases at the EPA issued?
    Ms. Whitman. Were there scientists involved? As I explained 
at the beginning, Congressman, when we would have the meetings 
in the morning, our scientists, the head scientist was 
generally present at headquarters, but also on the other end at 
Region II, their Acting Administrator who was overseeing things 
was there, he had scientists there. Scientists were very much a 
part of the discussions; yes, sir.
    Mr. Cohen. And when the press releases were changed, were 
the folks in the White House--do you know if scientists were 
involved in that office?
    Ms. Whitman. I don't know that, sir.
    Mr. Cohen. Well, being that you don't know if there were 
scientists involved on that end and there were on your end, and 
you state, which is accurate and correct, that the scientists 
are the people who should be making these decisions, why did 
you never object once, with the changing of the press releases 
to an ``all is safe and clear'' from a precautionary note? The 
scientists were precautionary, the politicians weren't. Why did 
you never once be precautionary?
    Ms. Whitman. Congressman, as I indicated earlier, the thing 
of concern was to ensure that all of the information that the 
public needed to make intelligent choices was it contained in 
these press releases and there was--as far as the actual 
wordsmithing went, I left that to people who were trying to get 
consensus from the various agencies. And I have to presume that 
scientists were involved from other agencies as well.
    Mr. Cohen. You presume, but you don't know.
    Ms. Whitman. No, I don't know.
    Mr. Cohen. And you never questioned one time, you didn't 
think your position was to speak truth to power, even if they 
refused and overruled you, that at least you would have 
rested--your conscience would have felt good about raising an 
issue.
    Ms. Whitman. All the relevant data was communicated in 
those press releases to the best of my remembrance and looking 
at them. I know, I feel assured, because in one instance where 
we felt that all the data wasn't getting out, it was brought to 
my attention. So again we talked in the morning about what 
information we knew, what the scientists and professionals felt 
was acceptable to communicate to the public. That was 
communicated to the communications office that went through 
this process------
    Mr. Cohen. But you looked at the differences. The 
differences are very dramatic from, you know--there's a 
problem, and asbestos is never a safe substance and it is 200 
to 300 percent higher to------
    Ms. Whitman. Well, I would disagree with your 
characterization of the changes and I think you could go 
through and argue back and forth. But also remember,
    Congressman, that press releases were not the only way we 
were communicating information and data. In fact, I find that 
they were probably the least effective way because most of the 
people that needed the information, particularly those on the 
pile, didn't have time to sit and read press releases, which is 
why we communicated, too, verbally and a whole lot of different 
levels as well.
    Mr. Cohen. How do you define ``the pile?'' What's the 
dimensions of the pile, the parameters?
    Ms. Whitman. I can get it for you, I don't have it here, 
but there was actually a blue line drawn around it--or green 
line I guess it was--a green line that indicated the parameters 
of the highest exposure where people were working on. It was 
basically those areas where the buildings collapsed.
    Mr. Cohen. And so was it out to the fence?
    Ms. Whitman. Which fence?
    Mr. Cohen. When I was there, this is what I was given about 
3 weeks afterwards. I was out around the fence. Was that the 
pile? Or was the pile--did the pile stop?
    Ms. Whitman. Actually our area, you'd probably get a better 
answer with the next panel, Congressman. Off the top of my 
head, I can't tell you what the parameters were, but again, 
that's a matter of record.
    Mr. Cohen. There were differences in how the folks who 
worked at the Pentagon were allowed to work and the ones at the 
Twin Towers. You waived some standards, did you not, at the 
Twin Towers that weren't waived as far as using respirators or 
conditions?
    Ms. Whitman. Are you addressing me or Mr. Henshaw?
    Mr. Cohen. Either one that can give me a proper answer.
    Mr. Henshaw. No standards were waived.
    Mr. Cohen. But everybody at the Pentagon wore the 
respirators, did they not?
    Mr. Henshaw. I don't know that for sure.
    Mr. Cohen. The information I have says they were and that 
there were different standards. You don't know anything about 
that.
    Mr. Henshaw. They were not different standards. We enforced 
the same standard, but just in a different way.
    Mr. Cohen. In a different way.
    Mr. Henshaw. Well, I know there was a snicker behind me. 
This is as serious to me as it is to them.
    We applied a different enforcement policy or strategy on 
the pile because we did not have enforcement authority. And 
circumstances require a little different standard in respect to 
enforcement, as I said earlier, than happened at the Pentagon. 
Under the circumstances, we had to deploy a partnership 
requiring people to follow those standards because we did not 
have authority for the firefighters and the police.
    Now, was every one of them wearing a respirator? Obviously, 
I see photographs of people not wearing respirators, or they 
are hanging around their chin. I'm an industrial hygienist, and 
I know the only way it is going to work is if it is on your 
face properly and you are fitted properly. So you are asking 
me, did everybody wear it the same way? No. You're asking me, 
did people wear it always at the Pentagon? I don't know for 
sure. In workplaces all around this country people are supposed 
to wear it, and sometimes they are not, so I don't know.
    Mr. Nadler. Thank you. The time of the gentleman is 
expired. The gentleman from New Jersey, Mr. Pascrell.
    Mr. Pascrell. No one is suggesting that the EPA or OSHA 
doesn't care about human life. The bottom line is we have to 
find out whether you did your job or not, and we are going to 
do that, believe me.
    Governor Whitman, I have a question for you. I want to know 
who was the highest-ranking White House official you ever spoke 
to about air quality at the site we are discussing today?
    Ms. Whitman. Congressman, they were regular Cabinet 
meetings that we have, and in the course of those Cabinet 
meetings, I reported to the President.
    Mr. Pascrell. So you spoke to the President about the air 
quality at the site.
    Ms. Whitman. At least one Cabinet meeting it was mentioned 
what was happening.
    Mr. Pascrell. Was any official at the White House involved 
in the decision not to use your authority to take over the site 
cleanup to protect workers?
    Ms. Whitman. No.
    Mr. Pascrell. You don't remember anything like that?
    Ms. Whitman. Never had a conversation with anyone at the 
White House on that issue.
    Mr. Pascrell. What about your authority at the site?
    Ms. Whitman. No, we were operating within the authority as 
invoked when the President issued the emergency declaration 
required under the law.
    Mr. Pascrell. I can only conclude from what you are saying, 
Governor, that you wouldn't have changed one darn thing if, God 
forbid, this heinous act happened again. I listened very 
carefully to your answers from both sides of the aisle, and I 
don't think you would have responded much differently. That 
disturbs me because a lot of people are hurting. I know you 
don't want to hurt people--but the results of your actions.
    I have another question to ask you.
    Ms. Whitman. Could I respond to that? I would refer you to 
the lessons learned plan here. The Environmental Protection 
Agency was the first Agency of the Federal Government to take a 
look at what happened after 9/11 and to come up with a number 
of ways that we could have improved our performance, and those 
things I endorse.
    Mr. Pascrell. Governor Whitman, you have a habit of quoting 
what you want from the documents. If you go back to 9/11, since 
you brought it up, the quoting from 9/11 that totally 
exonerates you--do you want me to read what else they said in 
this report?
    Ms. Whitman. Excuse me, but I don't believe I ever said it 
totally exonerates.
    Mr. Pascrell. Then we should open up and clear the air. I 
have a question to ask you, because if I repeat on the record 
for the first time what else the 9/11 report said, it isn't as 
clear as you pretend it to be. And you know what I am talking 
about.
    Ms. Whitman. No, Congressman, I honestly don't.
    Mr. Pascrell. If you want me to read it to you?
    Ms. Whitman. If you want to read, Congressman, I have 
learned in dealing with you in the past, if you want to read 
it, you will read it. That's up to you.
    Mr. Pascrell. Before I read it, I want to ask you a 
question. Why did you shut down the EPA Ombudsman Office when 
they were------
    Ms. Whitman. The EPA--certainly.
    Mr. Pascrell. I didn't finish the question.
    --when they were investigating two major areas, plus how 9/
11. What did the 9/11 response encounter? Why did you shut the 
office down?
    Ms. Whitman. Congressman, the office wasn't shut down. The 
functions of the office were moved to the Inspector General's 
offices, a more appropriate place to place it, frankly, because 
we were concerned. There had been numerous times where the 
ombudsman office had conducted hearings at Superfund sites, 
raised very serious questions about EPA's response in those 
Superfund sites, and yet not issued a report on them. In order 
for EPA to change its behavior and to make a difference we 
needed to have those reports. It started under Carol Browner.
    Mr. Nadler. Would you yield for a moment?
    Mr. Pascrell. Sure.
    Mr. Nadler. I would like to ask Governor Whitman, in 
February and March of '02 the EPA Ombudsman's Office held 
hearings in New York on this whole question. And you refused to 
attend those hearings. You sent a memo saying to other 
government agencies, saying they should refuse to attend those 
hearings, and you put out a press release in advance of the 
hearings saying it would be a Broadway production and a farce 
and that no one should attend the hearings. My information is 
that you had never done this for any previous ombudsman 
hearings. Why did you do that?
    Ms. Whitman. Congressman, I have to tell you, I have no 
recollection of doing that.
    Mr. Nadler. I was cochairing those hearings. I remember you 
doing it.
    Ms. Whitman. Well, okay. Well, fine.
    Mr. Nadler. There will be no comment from the audience, 
please. Governor?
    Ms. Whitman. Congressman, obviously I am taking your word 
for it. I am just saying I have no recollection of that.
    Mr. Nadler. Thank you, I yield back.
    Ms. Whitman. Okay.
    Mr. Pascrell. It says in the 9/11 report a lot of things, 
``Former EPA administrator, Cristie Whitman, Christine Whitman, 
agreed with the White House coordinator. Christine Whitman 
interviewed June 28th, 2004. The documentary evidence supports 
this claim, although Whitman told us she spoke with White House 
senior economic advisor Lawrence Lindsay regarding the need to 
get the financial markets open quickly. She denied you 
pressured her to declare the air was safe due to economic 
expediency. We found no evidence of pressure on the EPA to say 
the air was safe in order to permit the markets to reopen.
    The most controversial release that specifically declared 
the air safe to breathe was released after the markets had 
already reopened. The EPA did not have the health-based 
benchmarks needed to assess the extraordinary air-quality 
conditions in Lower Manhattan after 9/11. The EPA and the White 
House therefore improvised and applied standards developed for 
other circumstances in order to make pronouncements regarding 
air safety, advising workers at Ground Zero to use protective 
gear and advising the general population that the air was safe.
    The first questions that I asked you my first time around: 
Those standards--different standards when you respond to first 
responders at the site and compared to different standards when 
you talk about school kids and other workers in the area. Let's 
not confuse those two, because there were two judges involved 
here. One was a male and one was a female. I just want to make 
that clear.
    Mr. Nadler. The gentleman's time is expired. The witness 
may answer the question.
    Ms. Whitman. Congressman, there were no new standards 
applied. Frankly, I thought it would be a huge mistake to 
suddenly start imposing new standards in the middle of a 
crisis. We went by the standards that EPA has traditionally 
used when it has responded to emergencies. We did not change 
any of the criteria on the testing data, we didn't change any 
of the markers, we stayed with what EPA has used in the past. 
And I will go back again to say it is an extraordinarily 
professional Agency, with very smart scientists, who are a lot 
smarter than I am.
    Mr. Pascrell. Mr. Chairman, if I may conclude with this one 
point.
    Mr. Nadler. The gentleman is granted an additional 30 
seconds.
    Mr. Pascrell. I'm reading in the 9/11 report that everybody 
seems anxious to quote from.
    ``The White House efforts during the crisis were 
coordinated by the President's Working Group on Financial 
Markets.''
    Thank you, Mr. Chairman.
    Mr. Nadler. I thank the gentleman.
    That concludes the first panel of witnesses. The witnesses 
are excused, with our thanks. And we will go on to the second 
panel of witnesses. We will give a moment or two to change 
over.
    [Recess.]
    Mr. Nadler. The hearing will resume. I hope everyone can 
take their seats. Let me remind everybody of what I said prior 
to the first panel, that the rules of the House of 
Representatives do not permit demonstrations of any kind by the 
spectators. Given the emotions, I think everybody's pretty good 
about that, but please continue. We have the opportunity to get 
answers to questions, that many of us have been asking for 6 
years, today and we must proceed in an orderly manner. I know 
that those of you who have traveled so far to be here today 
agree with that.
    I would now like to introduce our second panel of 
witnesses. Our first witness, who I don't see there but who I 
saw earlier--our first witness is Samuel Thernstrom. He is 
managing editor of the AEI Press, which is a publisher of the 
American Enterprise Institute, and director of the AEI's W.H. 
Grady Program on Culture and Freedom. He was the associate 
director for communications for the White House Council for 
Environmental Equality from 2001 to 2003. He was also chief 
speechwriter for the U.S. Department of Labor, speechwriter for 
former Governor George Pataki of New York, and spokesman for 
the New York Department of Environmental Conservation. 
Previously he was an environmental studies fellow at the 
Pacific Research Institute for Public Policy, a research 
assistant to Aaron Rudofsky at the University of California at 
Berkeley, and a research fellow of the Political Economy 
Research Center.
    Our second witness is Tina Kreisher. Ms. Kreisher became 
director of communications of the U.S. Department of the 
Interior in 2004 where she had been a speechwriter and acting 
deputy communications director since 2002. She was associate 
administrator, Office of Communications, Education and Media 
Relations for the Environmental Protection Agency from 2001 to 
2002. Previously she was communications director for the U.S. 
Senate, Energy and Natural Resources Committee; deputy director 
of Governor Christine Todd Whitman's Washington Office, and 
special assistant to the Public Liaison Director for the 
Information Agency.
    Next, Witness David Newman who has served as a 
nongovernmental expert on the EPA World Trade Center Expert 
Technical Review Panel. He is an industrial hygienist with the 
New York Committee for Occupational Safety and Health and 
coordinates its World Trade Center Health and Safety Project. 
Mr. Newman serves on the Community Advisory Committee of the 
World Trade Center Environmental Health Center at Bellevue 
Hospital and on the Labor Advisory Committee of the New York 
City Department of Health and Mental Hygiene World Trade Center 
Registry. He served on the advisory board of Columbia 
University Mailman's School of Public Health World Trade Center 
Evacuation Study and on the Exposure Assessment Working Group 
of the World Trade Center Worker and volunteer medical 
screening program. Mr. Newman is a member of the American 
Industrial Hygiene Association, the American Conference of 
Governmental Industrial Hygienists, and the American Public 
Health Association.
    Our next witness is Ms. Eileen McGinnis. Ms. McGinnis 
served as chief of staff to the Administrator of the U.S. EPA. 
Ms. McGinnis also served in Governor Whitman's cabinet as chief 
of policy, where she was responsible for the government 
operations of 16 State departments. She also served in the 
administration of Governor Thomas Caine as director of the 
Office of Policy in the Department of Human Services.
    The next witness is Marianne Horinko who was named Acting 
Administrator of U.S. Environmental Protection Agency by 
President Bush on July 10th, 2003. She served in this position 
from July 14th, 2003 until November 5th, 2003. She then 
returned to her position as system administrator for the Office 
of Solid Waste and Emergency Response. Ms. Horinko has served 
as a system administrator since being confirmed by the Senate 
on October 1, 2001. Following the events of September 11, Ms. 
Horinko spent her first few months at EPA involved in 
environmental cleanup activities in Lower Manhattan, the 
Pentagon, Washington, D.C. And the U.S. Capitol during the 
crisis over anthrax contamination. During the first Bush 
administration, Ms. Horinko was attorney advisor to Don Clay, 
EPA's Assistant Administrator for Solid Waste and Emergency 
Response. In that capacity she was responsible for RCRA 
regulatory issues and Superfund reauthorization.
    Our final witness is Suzanne Mattei. Suzanne Mattei has 
worked in environmental policy analysis and advocacy for 25 
years. After graduating from Yale Law School in 1981, she 
became staff attorney and then director for the Connecticut 
Fund for the Environment, and environmental advisor to the New 
York City Comptroller from 1990 to 1993. In 1994, she became 
assistant deputy advocate to the Public Advocate. She then 
served as public policy director for the Access to Justice 
Campaign for the New York State Trial Lawyers. From 2003 to 
early 2007, she served as New York City executive for the 
National Sierra Club where she produced three in-depth reports 
on the health impacts of human exposure to pollution from the 
September 11 attacks and response at the World Trade Center, 
and failed environmental response at the World Trade Center and 
the Katrina Hurricane. She now serves as regional director for 
the New York State Department of Environmental Conservation, 
Region II. She is testifying not in her State capacity, but in 
her capacity as the former New York City Executive for the 
Sierra Club and author of its ``Pollution and Deception at 
Ground Zero'' series of reports. Her comments are her own and 
do not necessarily reflect the views of the New York State 
Department of Environmental Conservation. I am pleased to 
welcome all of you.
    As a reminder, each of your written statements will be made 
part of the record in its entirety. I would ask that you now 
summarize your testimony in 5 minutes or less.
    To help you stay within that time, there's a timing light 
at your table. When 1 minute remains, the light will switch 
from green to yellow and then red when the 5 minutes are up. As 
is customary, I ask the witnesses now to please stand and raise 
your right hand to take the oath.
    [Witnesses sworn.]
    Mr Nadler. Let the record reflect all of the witnesses 
responded in the affirmative.
    You may be seated.
    Mr Nadler. The first witness we'll invite to testify is Mr. 
Thernstrom.
    Mr. Thernstrom, you are recognized for 5 minutes.

                TESTIMONY OF SAMUEL THERNSTROM, 
                 AMERICAN ENTERPRISE INSTITUTE

    Mr. Thernstrom. Good afternoon. And thank you, Mr. 
Chairman, for the invitation to testify. This is an important 
opportunity to correct some widespread misconceptions about the 
environmental issues related to September 11. Prior 
investigations, including the bipartisan September 11 
Commission investigation, debunked those misconceptions and I 
hope the Committee will do so as well.
    As you know, the EPA Inspector General's report made a 
number of inflammatory claims regarding CEQ's interactions with 
EPA. As a White House employee, I was not at liberty to respond 
to the IG's questions, although I would have liked to. As a 
result, the IG's report was based on an incomplete and faulty 
assessment of the facts.
    Let me be clear. The White House had a legitimate role to 
play in reviewing EPA's public statement at this time of grave 
national emergency, and I am proud of my work. My goal was to 
ensure that EPA's statements were as clear and accurate as 
possible, providing the public with both the environmental 
testing data and EPA's best assessment of its significance.
    Every EPA staffer working on this issue shared that goal, 
and we worked together to achieve it. There was no disagreement 
between the White House and EPA about the degree of danger to 
the public. On that question, I deferred to the experts at EPA 
and OSHA, who had assessed the data, and I relied upon my 
counterparts at those agencies to consult with their colleagues 
to ensure that the press releases that they issued were 
accurate. This was a collaborative process involving dozens of 
agency staffers, and the actions we took reflected the broad 
consensus within the agencies about the data.
    It is true that I made many suggestions to EPA about ways 
to improve their press releases, and when EPA agreed with those 
suggestions, they accepted them. In instances where we revised 
EPA's drafts in ways that made them more reassuring, it was my 
belief that those changes accurately reflected EPA's assessment 
of those risks as repeatedly articulated in daily conference 
calls with and prior public statements by EPA officials. There 
was no meaningful dispute between EPA and the White House about 
how to characterize those risks.
    The IG's claim that the White House improperly influenced 
the substance of these press releases is simply false, as the 
documentary evidence clearly shows.
    Fortunately, a far more thorough and objective 
investigation of these claims was conducted by the bipartisan 
September 11 Commission. The Commission's findings were 
unambiguous. There was no improper White House influence. EPA's 
statements accurately reflected its assessment of the risks. 
The Commission was appropriately agnostic as to whether EPA's 
risk analysis was infallible, as indeed am I; but they were 
quite clear that my role in this process was not improper and 
indeed did not influence Administrator Whitman's decision to 
declare that the air in lower Manhattan was safe.
    As the Commission noted in its report, quote, ``We did 
examine whether the White House improperly influenced the 
content of the press releases so that they would intentionally 
mislead the public. The EPA press releases were coordinated 
with Samuel Thernstrom, Associate Director for Communications 
at the White House Council on Environmental Quality. Oral 
reports, interviews with EPA officials and materials on EPA's 
Website were not coordinated through the White House. Although 
the White House review process resulted in some editorial 
changes to the press releases, these changes were consistent 
with what the EPA had already been saying without White House 
clearance,'' closed quote.
    The Commission report then cites several examples of news 
stories published on September 14 and 16 in which Administrator 
Whitman reassured the public that there was no reason to be 
concerned about air quality in New York. The Commission report 
continues, quote, ``There were disputes between the EPA's 
communications person and the White House coordinator regarding 
the press releases. The White House coordinator, however, told 
us that these disputes were solely concerned with process, not 
the actual substance of the releases. Former EPA Administrator 
Christine Whitman agreed with the White House coordinator. The 
documentary evidence supports this claim. We found no evidence 
of pressure on EPA to say the air was safe in order to permit 
the financial markets to reopen. Moreover, the most 
controversial release that specifically declared the air safe 
to breathe was released after the markets had already 
reopened,'' closed quote.
    The Commission's findings are very clear, and I hope this 
Committee will give them proper consideration.
    In closing, I want to simply make clear that my statements 
here today have been and will be accurate to the best of my 
recollection. But almost 6 years have elapsed since September 
11, and I have not had access to my White House records while 
preparing for this testimony. A lot has happened in the 
intervening years, but I will do my best to answer your 
questions as completely and accurately as I can.
    Given the time limitations on my oral testimony, I will 
have to stop here. But my written testimony adds considerable 
additional detail to these points, and I encourage all of you 
to read it.
    Mr. Nadler. I thank the gentleman.
    [The prepared statement of Mr. Thernstron follows:]

                Prepared Statement of Samuel Thernstrom

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               ATTACHMENT

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr Nadler. I will now recognize Ms. Kreisher for 5 minutes.

   TESTIMONY OF TINA KREISHER, COMMUNICATIONS DIRECTOR, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Ms. Kreisher. Chairman Nadler, Ranking Member Franks and 
Members, my name is Tina Kreisher. I serve as Director of 
Communications at the Department of the Interior. I've been at 
Interior since February 2002 and have served two secretaries, 
Gale Norton and now Dirk Kempthorne.
    In September it will be a full 6 years since the events of 
9/11 and the time I worked at the Environmental Protection 
Agency. More than 3 months after that catastrophic event, I 
left EPA for extensive foot surgery and then moved to a new 
position at Interior. I left behind all of my files and have 
had only the August 2000 report--2003, excuse me--report by the 
EPA's Inspector General to refresh my memory. Excuse me.
    Much has been said about the adequacy of the processes 
being used by EPA to test for air quality after the monumental 
destruction of the terrorist attack. Yet the tests are the same 
as those used by the Clinton administration and for a few 
months by the Bush administration to test for daily air quality 
in the City of New York and elsewhere. It was the standard 
being used by EPA.
    As a political appointee, I was not and others were not 
scientists. We relied on the professionals to guide us through 
the testing procedures and processes. When we were told the 
test showed air quality within normal range, we accepted those 
findings. My memories are of our New York office located just 
blocks from Ground Zero and the stories of our staff members 
literally scooping up dust samples as they ran away from the 
maelstrom on that day, and of their returning to work there 
just a few short weeks after the attack.
    There seems to be a perception by some that we accepted 
these test results because we had a disregard for the people 
living in the city. There is no basis to that perception.
    I remember being in the office as Administrator Christine 
Todd Whitman heard from her son, who was in one of the 
buildings at the World Trade Center. He called, and she told 
him to get out of the building, which he did; but then it was 
agonizing hours before he called to tell her he was safe.
    My oldest daughter was an attorney in New York at the 
Cravath law firm, and she lived near the theater district. She 
was there on 9/11 and breathed the air for 2 years before she 
moved from the city.
    There was no disregard for the people who had suffered and 
were suffering either on a personal or on a professional level. 
Administrator Whitman wanted complete transparency for the test 
monitoring, and it was at her suggestion that we put the 
testing results online for the press and the public and other 
scientists to see and evaluate.
    She also wanted more press releases, which brings me to the 
section of the IG report that is critical of the press 
releases. I've been writing press releases in this town for 
more than 18 years, and it has always been a cumbersome 
process. In my experience, when the release has a Congressman's 
or Senator's name at the top, usually he or she has edited it. 
At Interior, we have an approval process that can sometimes 
take minutes if I can get to the Secretary, or hours and days 
for a detailed review process involving many people.
    The press release approval process that was set up after 9/
11 was taking days and sometimes a week. There were many 
considerations and many questions being asked, and debates 
swirled on conference calls set up, at least in part, by the 
Council on Environmental Quality under the auspices of the 
National Security Council.
    Questions were: Could EPA speak to health risks? Who was 
the lead for getting the information out? What was our 
statutory obligation? The IG's report, in fact, said, and I 
quote, ``These statutes and regulations do not obligate EPA to 
respond to a given emergency, allowing for local agencies to 
lead a response; and New York City, in fact, exercised a lead 
role regarding indoor air,'' unquote.
    We were told on conference calls that EPA should continue 
testing and let the Occupational Health and Safety 
Administration, the City and State of New York, the Department 
of Health and Human Services discuss human health. I understand 
that OSHA did provide guidance at Ground Zero.
    The point has been made many times that there are more 
effective ways to get information to the press than by press 
release. In fact, I rarely see the content of press releases in 
actual press reports. Reporters prefer to do their own 
reporting and not copy what is being given to everyone.
    Because of the cumbersome approval process, I opted to do 
fewer releases and, instead, spoke personally to almost every 
reporter who called during those days. This meant 20 to 30 
interviews a day just for information from me and then a number 
of requests for live interviews with Administrator Whitman. I 
think reporters would confirm that we were forthcoming with 
information during that period if we had the information to 
give them.
    I will add one other thing. In all of the years I've been 
writing press releases, I've never knowingly put false 
information into a release. While editing changes were made, 
based on recommendations by the Council on Environmental 
Quality, I believe those changes to be upsetting in some cases 
but not false.
    I still believe that to be true. The IG's report, in fact, 
had this to say, and I quote, ``We spoke to a number of experts 
in the field of environmental monitoring, including physicians, 
industrial hygienists and researchers. These experts generally 
agreed that the levels of airborne asbestos detected in the air 
outside the perimeter of Ground Zero in Lower Manhattan did not 
present a significant increase in the long-term health risks 
imposed on the public,'' end quote.
    I will be happy to take your questions.
    Mr. Nadler. I thank the witness.
    [The prepared statement of Ms. Kreisher follows:]
                  Prepared Statement of Tina Kreisher
    Chairman Nadler, Ranking Member Franks, members of the 
subcommittee, my name is Tina Kreisher and I serve as Director of 
Communications at the Department of the Interior. I have been at 
Interior since February, 2002 and have served two Secretaries, Gale 
Norton and now Dirk Kempthorne.
    In September, it will be a full six years since the events of 9/11 
and the time I worked at the Environmental Protection Agency. More than 
three months after the catastrophic event, I left EPA for extensive 
foot surgery and then moved to a new position at Interior. I left 
behind all of my files and have had only the August 2003 report by the 
EPA's inspector general to refresh my memory.
    Much has been said about the adequacy of the processes being used 
by EPA to test for air quality after the monumental destruction of the 
terrorist attack. Yet the tests are the same as those used by the 
Clinton administration and for a few months by the Bush administration 
to test for air quality in the city of New York and elsewhere. It was 
the standard being used by EPA. As a political appointee, I was not, 
and others were not, scientists. We relied on the professionals to 
guide us through the testing procedures and processes. When we were 
told the tests showed air quality within normal range, we accepted 
those findings.
    My memory is of our New York office, located just blocks from 
ground zero and the stories of staff members scooping up dust samples 
as they ran from the maelstrom on that day. And of their returning to 
work there just a few short weeks after the attack.
    There seems to be a perception by some that we accepted these test 
results because we had a disregard for the people living in the city. 
There is no basis to that perception. I remember being in the office as 
Administrator Christie Todd Whitman heard from her son, who was in one 
of the buildings at the World Trade Center. He called and she told him 
to get out of the building, which he did. But then it was agonizing 
hours before he called to tell her he was safe.
    My oldest daughter was an attorney in New York at the Cravath law 
firm and she lived near the theater district. She was there on 9/11 and 
breathed the air for two years before she moved from the city.
    There was no disregard for the people who had suffered and were 
suffering either on a personal or professional level.
    Administrator Whitman wanted complete transparency for the test 
monitoring, and it was at her suggestion that we put the testing 
results on line for the press and the public and other scientists to 
see and evaluate.
    She also wanted more press releases. That brings me to a section of 
the IG report that is critical of the press releases. I have been 
writing press releases in this town for more than 18 years and it has 
always been a cumbersome process. In my experience, when the release 
has a Congressman's or Senator's name at the top, usually he or she has 
edited it. At Interior, we have an approval process that sometimes 
takes minutes from the Secretary or hours from a detailed review 
process involving many people.
    The press release approval process that was set up after 9/11 was 
taking days and sometimes a week. There were many considerations and 
many questions being asked, and debate swirled on conference calls set 
up, at least in part, by the Council on Environmental Quality under the 
auspices of the National Security Council. Could EPA speak to health 
risks? Who was the lead for getting information out? What was our 
statutory obligation?
    The IG's report, in fact, said, ``These statutes and regulations do 
not obligate EPA to respond to a given emergency, allowing for local 
agencies to lead a response, and New York City in fact exercised a lead 
role regarding indoor air.''
    We were told on conference calls that EPA should continue testing 
and let the Occupational Health and Safety Administration, the city and 
state of New York, and the Department of Health and Human Services 
discuss human health. I understand that OSHA did provide guidance at 
ground zero.
    The point has been made many times that there are more effective 
ways to get information to the press than by press release. In fact, I 
rarely see the content of press releases in actual press reports. 
Reporters prefer to do their own reporting and not copy what is being 
given to everyone. Because of the cumbersome approval process, I opted 
to do fewer releases and instead spoke personally to almost every 
reporter who called. This meant 20 to 30 interviews a day for just 
information from me and then a number of requests for live interviews 
with Administrator Whitman.
    I think reporters would confirm that we were forthcoming with 
information during the period--if we had the information to give them.
    I will add one other thing. In all the years I have been writing 
press releases, I have never knowingly put false information into a 
release. While editing changes were made based on recommendations by 
the Council on Environmental Quality, I believed those changes to be 
upsetting in some cases, but not false. I still believe that to be 
true.
    The IG's report, in fact, had this to say: ``We spoke to a number 
of experts in the field of environmental monitoring, including 
physicians, industrial hygienists, and researchers. These experts 
generally agreed that the levels of airborne asbestos detected in the 
air outside the perimeter of Ground Zero in Lower Manhattan did not 
present a significant increase in long-term health risk to the 
public.''
    I will be happy to take your questions.

    Mr Nadler. We'll now recognize Mr. Newman for 5 minutes.

      TESTIMONY OF DAVID M. NEWMAN, NEW YORK COMMITTEE OF 
                 OCCUPATIONAL SAFETY AND HEALTH

    Mr. Newman. Good afternoon, Chairman Nadler, Ranking Member 
Franks and other Subcommittee Members.
    The attacks of September 11, 2001, produced not only an 
initial catastrophic loss of life, but also a lingering 
environmental disaster with adverse health consequences for 
responders as well as for area workers and residents. Toxic 
contaminants were dispersed at Ground Zero, throughout 
Manhattan, parts of Brooklyn and possibly beyond.
    Prior to and on 9/11 EPA and OSHA had credible data that 
indicated the presence at the World Trade Center site of an 
extensive list of toxic materials which, if released, could 
pose a risk to human health. Government databases documented 
reportable quantities of stored hazardous materials at the WTC 
site, including barium, lead, chloroform, chlordane, carbon 
tetrachloride, cadmium, chromium, mercury, hydrogen sulfide, 
arsenic, tetrachloroethylene, PCBs and ethane. The agencies 
were most assuredly also aware of the danger posed by the 
presence of several hundred thousand pounds of asbestos in 
World Trade Center fireproofing.
    EPA's and OSHA's public statements mischaracterized the 
available data. Sampling results obtained by EPA and OSHA after 
9/11 indicated the presence of toxic substances at levels of 
concern at Ground Zero and at other locations in Lower 
Manhattan, both outdoors and indoors.
    Asbestos was detected by EPA in 76 percent of 143 bulk 
samples collected outside the 16-acre collapsed site; 26 
percent of these samples contained 1.1 to 4.49 percent 
asbestos, that is, levels 110 to 449 percent of the level at 
which legal requirements for asbestos are triggered.
    At least 25 12-hour air samples obtained at 10 separate 
locations exceeded the clearance standard of the Asbestos 
Hazard Emergency Response Act, the benchmark EPA was using. 
Fifty-seven percent of personal air samples obtained in 
September 2001 by the U.S. Public Health Service exceeded the 
OSHA permissible exposure limit for asbestos. Sixty percent of 
asbestos air samples collected at Ground Zero by the operating 
engineers exceeded the EPA clearance standard. Twenty-seven 
percent of 177 bulk samples initially collected by EPA and OSHA 
at Ground Zero were greater than 1 percent asbestos.
    Independent air monitoring in two Lower Manhattan 
apartments found significantly elevated levels of asbestos, 
including results up to 151 times the EPA clearance level. The 
U.S. Geological Survey reported as early as September 18 that 
asbestos could be present in concentrations of 20 percent or 
more at distances greater than one-half mile from Ground Zero.
    EPA detected benzene at Ground Zero in 57 of 96 air samples 
at levels from 5 to 86 times the OSHA PEL. Benzene results as 
late as January were five times the PEL.
    EPA test results through November for dioxin several blocks 
from Ground Zero indicated that workers and residents who 
returned to areas reopened as safe were potentially exposed to 
concentrations of dioxin nearly six times the highest dioxin 
level ever recorded. Workers at Ground Zero were potentially 
exposed to dioxin levels 100 to 1,500 times higher than is 
typical in urban air. EPA did not release this information for 
more than a year.
    EPA's unsupported reassurances of lack of risk had the 
unfortunate effect of giving a green light to employers and 
workers not to use respiratory protection, and to landlords, 
employers and government agencies that cleanup was not 
necessary. Because EPA contended for 8 months that it had no 
legal responsibility for addressing indoor contaminants, 
sampling and remediation efforts occurred only on a limited, 
haphazard and ineffectual basis. EPA's indoor cleanup efforts, 
to date, exclude all 1,500 commercial and government buildings 
in Lower Manhattan and are of questionable scientific merit and 
technical effectiveness.
    Within days of the attacks, EPA declared Lower Manhattan's 
air safe to breathe. OSHA announced that it is safe for New 
Yorkers to go back to work. EPA maintained until fairly 
recently that, quote, ``There is little concern about any long-
term health effects,'' unquote. Unfortunately, there's 
considerable evidence to the contrary.
    It is now well established that a large and increasing 
number of people who were exposed to 9/11 contaminants, 
primarily rescue and recovery workers, but also area workers 
and area residents, are suffering serious and persistent 
adverse health outcomes. We now know that those caught in the 
dust cloud and/or those responding at the WTC site in the first 
hours and days have higher incidences and greater severities of 
health impacts. Presumably, the intensity and duration of 
exposure and the lack of respiratory protection were 
significant factors. These early exposures were unavoidable; 
however, the failure of OSHA to ensure the use of respiratory 
protection and the failure of OSHA to enforce legal standards 
subjected workers to unnecessary and avoidable exposures with 
the result that many are now experiencing persistent disabling 
respiratory illnesses, and some are dying.
    Similarly, the failure of EPA to provide, require or even 
encourage indoor environmental assessments and cleanup, where 
warranted in commercial and government buildings, coupled with 
EPA's inadequate sampling and cleanup in residences is likely 
to have subjected area workers and residents to additional 
unnecessary and avoidable exposures.
    Thank you very much for your concern on these issues.
    Mr. Nadler. I thank the gentleman.
    [The prepared statement of Mr. Newman follows:]

                 Prepared Statement of David M. Newman

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr Nadler. Ms. McGinnis is now recognized for 5 minutes.

 TESTIMONY OF EILEEN McGINNIS, SENIOR VICE PRESIDENT, WHITMAN 
                         STRATEGY GROUP

    Ms. McGinnis. Thank you, Mr. Chairman and Members of the 
Subcommittee. I appreciate the opportunity to appear before you 
this afternoon to share my thoughts and perspectives on the 
response of the USEPA to the terrorist attacks of September 11, 
2001. By way of introduction, I served as Chief of Staff to EPA 
Administrator Christine Todd Whitman from January 2001 to June 
of 2002. Prior to that, I served as Chief of the Governor's 
Office of Policy and Planning for 6 years. I have served most 
of my career in government service.
    Hours after the terrorist attacks on 9/11, I received a 
phone call from EPA's Regional Administrator in New York City, 
informing me that EPA employees were out in the field 
installing air monitors. I was proud, although they had just 
witnessed the horrors of the attacks a few blocks from their 
office, these very brave and courageous employees quickly put 
aside their personal and emotional reactions to the tragedy and 
were already on the job in pursuit of the Agency's mission to 
protect the environment and human health.
    On September 11, a dedicated team of EPA employees 
collected air samples for the presence of lead, asbestos and 
VOCs which were the contaminants of initial concern. Samples 
for other contaminants were added in the days and the weeks 
after the attack. In truly EPA fashion, experts from all over 
the country came together to help form a monitor network to 
assess the ambient air conditions in Lower Manhattan. EPA 
employees worked around the clock in makeshift offices since 
their offices in Lower Manhattan were closed as a result of the 
tragedy.
    The emphasis in those early days after the attack was to 
provide as much information as possible to the public and to 
make sure that information was as transparent as possible. Data 
from the air and water monitoring was put up on the EPA's 
Website for everyone to see and track.
    It is important to note today that the Inspector General's 
report being discussed at today's hearing verified the accuracy 
of the information posted and found no evidence the EPA 
attempted to conceal data from the public. In all, EPA took 
nearly 25,000 samples and conducted a quarter of a million 
measurements.
    Mr. Chairman, your press advisory about today's hearing 
states, quote, ``Now is the time for the truth,'' end quote. I 
believe the ultimate truth is that the leadership and staff of 
the EPA did the very best they could under very difficult 
circumstances to meet the Agency's obligation to help protect 
the lives and health of all those affected by the attacks. EPA, 
along with other agencies with whom we worked, acted to provide 
the best possible information based on available data and using 
our collective professional judgment under extraordinary 
circumstances.
    Looking back, one can always find things that could have 
been done better. That's why, within weeks of the terrorist 
attacks, we launched a comprehensive review of the actions we 
took in response. As a result, we developed clear 
recommendations as to how the agencies could better respond to 
any future attacks, should they occur.
    On the whole, however, I remain confident that we've 
discharged our duties with integrity, professionalism and 
commitment to our mission; and those EPA employees who were in 
the field in the hours, days and weeks following the tragedy, 
with courage and bravery.
    Thank you, and I would be glad to answer any questions.
    Mr. Nadler. I thank the gentlelady.
    Ms. Horinko is recognized for 5 minutes.

  TESTIMONY OF MARIANNE L. HORINKO, EXECUTIVE VICE PRESIDENT, 
           GLOBAL ENVIRONMENT & TECHNOLOGY FOUNDATION

    Ms. Horinko. Good afternoon, Mr. Chairman, distinguished 
Members of the Committee. I appreciate your invitation to be 
here this afternoon, because I am convinced the more the public 
understands about EPA's actions after September 11, 2001, the 
more everyone will understand what I know, that the women and 
men of EPA were then and are now an amazing group of 
professionals dedicated to protecting the health of every 
person in this country.
    In New York, in the weeks following September 11, it was 
not business as usual. EPA employees from all over the country 
rushed to New York to provide their assistance in cleaning up 
the aftermath of the terrorist attack and to gather and analyze 
the data required to answer questions that everyone who lived 
and worked in Manhattan were asking.
    We had to find creative ways to place monitors and to 
gather the data, since there was little monitoring 
infrastructure and, for quite some time, no electricity. EPA 
employees had difficulty getting permission to get near Ground 
Zero in the areas where monitoring was most critical. But 
somehow the monitors went up.
    Once we started gathering data and consistent with our 
overall mission as an agency, we were determined to share 
information with the public as quickly as we could and in a 
manner that was easily accessible. Public officials and 
citizens were clamoring for information. We felt we owed them a 
duty to get the data out as fast as we could. We posted the 
data from our monitors on the Internet, accessible to anyone. 
Anyone who wanted to look at the same data we were reviewing 
could.
    We gathered the experts of the Agency and in other agencies 
to review this data to help determine potential impacts to 
residents and workers in New York. We provided our best 
information as frequently as we could to the public.
    We also worried a lot about the first responders and all 
the people who worked at Ground Zero. We told the workers in 
every way we could imagine to do it that they needed to protect 
themselves even while they were trying to save others. We gave 
them equipment and taught them how to use it. We even set up 
tents with food to encourage the workers to come in and 
decontaminate their clothing and ensure that their protective 
equipment was functioning properly.
    Did we learn some lessons from this experience? Of course 
we did. Within a matter of weeks, we worked to memorialize 
those lessons so that our next response to any significant 
disaster would be better.
    I find it very affirming to know that the Inspector 
General, looking dispassionately at our actions with the 
benefit of hindsight, concluded that we acted responsibly and 
that our statements to the public reflected the facts as we 
knew them then and as we still know them today.
    To suggest that anyone at EPA was ever motivated by 
anything less than a complete focus on protecting the public 
does those individuals a terrible disservice. Governor Whitman, 
whom I admire greatly, sought out the opinions of experts and 
listened to what they had to say. She kept the Agency on course 
when it would have been easy to lose direction.
    EPA has an important mission in responding to any disaster 
like the collapse of the World Trade Center. But EPA was never 
intended to do everything for everyone. In this case, we worked 
effectively with all the other agencies that also had expertise 
and an important role to play, including OSHA, the Centers for 
Disease Control, ATSDR and the City of New York. That is the 
way the system is designed, and I feel comfortable that it 
worked as planned. As I said at the beginning, I thank you for 
inviting me here and I will be happy to answer any questions.
    Mr. Nadler. I thank the gentlelady.
    Ms. Mattei is recognized for 5 minutes.

                 TESTIMONY OF SUZANNE Y. MATTEI

    Ms. Mattei. Good afternoon. My name is Suzanne Mattei. I am 
the former Sierra Club, New York City, executive and author of 
its Pollution and Deception at Ground Zero report on our 
Federal Government's failure to provide a proper response to 
the 9/11 pollution. The report also warns that our Federal 
Government's new disaster policies perpetuate its failures at 
Ground Zero.
    Most Americans know more about Paris Hilton than about what 
happened in New York City after September 11. They don't 
realize that the community district that included the Towers 
was home to over 2,700 children under age 10 at the time of the 
attack. Most Americans also don't realize how long Ground Zero 
burned. The fires were not declared out until 3 months after 
the attack, and even after that as debris removal opened up new 
areas the site emitted smoke for at least 6 months after the 
attack. The exposures were much more extensive and prolonged 
than most Americans know.
    In the aftermath of the attack, our government should have 
warned people against exposure and reduced exposure through 
proper cleanup. Instead, it did the opposite. It encouraged 
people to ignore their own common sense.
    The air looked bad and smelled bad. Many people would have 
guessed that the air was unsafe for themselves and their 
children, but EPA's broad, unsupported assurances of safety 
interfered with that commonsense reaction. I recall people 
saying, It smells awful, but EPA says it's not really that bad. 
The sad irony is that if EPA had said nothing at all, the 
public probably would have been better off because more people 
probably would have used their own common sense.
    While the September 11 attack was unprecedented, there was 
no excuse for failure to warn about known hazards. The event's 
physical effects on the environment were not completely without 
precedent. Planes have crashed and burned before. Buildings 
have caught fire before. Buildings have even collapsed before. 
We actually know quite a bit about what happens when 
uncontrolled fires burn mixed materials and when buildings 
collapse.
    EPA's been studying the products of uncontrolled 
incineration for decades, and is knowledgeable about demolition 
as well. It did not have to take a single test to know that the 
9/11 cloud of dust was harmful. It should have issued a health 
warning right away.
    Even if dust contains no toxic chemicals, it's a 
respiratory hazard. EPA had the expertise to know that people 
with asthma and respiratory conditions needed to avoid 
exposure. EPA knew the Towers contained not only asbestos but 
also thousands of computers, plastics and electrical equipment, 
all of which would emit toxic chemicals when burned.
    Think of your own computer on your desk. If that caught 
fire, would you want to breathe in those fumes? Our Federal 
experts knew all these things before taking a single test.
    There can be no excuse for issuing broad assurances of 
safety when two 110-story office towers burn and collapse. So 
the concern is not just the EPA lacked the test results to 
justify its early assurances of safety, it's worse. Our 
government issued those safety assurances even though EPA's own 
vast body of knowledge built up over three decades of research 
indicated that the pollution would be harmful.
    EPA also should have changed its assurances when new 
information on health risk emerged. It didn't do so when tests 
showed the presence of toxic hazards. It didn't do so when it 
became apparent that people were getting sick. The Federal 
administration failed to issue a press release, for example, 
when the U.S. Geological Survey shared with other agencies on 
September 27 its proof that the 9/11 dust was highly caustic. 
The public didn't hear about this until over 4 months later 
from a St. Louis Post Dispatch article. That's not how we 
should find things out.
    Among those expressing surprise were some of the leading 
doctors treating the already ailing Ground Zero workers.
    EPA's responses to the disclosure of hazards tended to be 
defensive, not corrective. When environmental attorney Joel 
Kupferman's research published by Daily News journalist Juan 
Gonzalez revealed that an air sample at the pile surface showed 
a high level of benzene, a cancer-causing chemical, EPA argued 
there were lower levels in what it called the breathing zone, 5 
to 7 feet above the debris pile. The Ground Zero workers were 
reaching in and pulling out debris and human remains by hand. 
Their breathing zone was not 5 or 7 feet above the pile.
    Our Federal Government's stonewalling continued as study 
after study documented health impacts not only among workers 
from the pit but also area cleanup workers, building cleanup 
workers and residents. I want to recognize Alex Sanchez and 
Manuel Checo, who are here today, building cleanup workers 
suffering severe health effects from their exposures.
    Six years later, denial is still the order of the day. The 
assurances of safety have never been retracted, and this has 
had consequences.
    Consider the government's weak response to 9/11 health 
impacts which Jonathan Sferazo, a Ground Zero iron worker and 
founder of the Unsung Heroes Helping Heroes, calls an 
``epidemic.'' The Government Accountability Office's report on 
the government's slipshod work to assess those impacts reveals 
that the Federal Government didn't really bother to find out 
how many people were sick. They don't know, perhaps because 
these people are not supposed to exist.
    They do exist.
    Five years later, only limited Federal money for treatment; 
it's inadequate, it doesn't begin to touch the devastating 
economic impacts that many of these hard-working people and 
their families now face.
    This hearing is a historic step to investigate what 
happened after the attack. We need action to right at least 
some of the wrongs that occurred and to ensure that these 
missed steps don't ever happen again.
    Unfortunately, our Federal Government hasn't learned from 
this debacle. Under its national response plan, OSHA will not 
enforce worker health and safety standards in national 
disasters. The plan centralizes press statements, as occurred 
after 9/11, without a strong precautionary policy to err on the 
side of protecting human health when full data is missing.
    Finally, the Department of Homeland Security's new guidance 
document on cleanup after a dirty bomb or other terrorist 
nuclear attack encourages consideration of economic factors, 
even impacts on tourism in managing the public health risks.
    Some people may be suffering from media fatigue, tired of 
hearing about Ground Zero. They may wonder why New York City 
residents don't just get closure and move on. The answer is, we 
can't. We still live with the toxic aftermath of the attack. We 
still haven't had a proper cleanup. Until our government does 
the right thing, we will never be able to have closure.
    And until our government takes action to make sure that the 
failed response at Ground Zero never happens again in any 
future disaster, no American can truly have closure.
    [The prepared statement of Ms. Mattei follows:]
                Prepared Statement of Suzanne Y. Mattei
    Good afternoon. My name is Suzanne Mattei. I am the former Sierra 
Club New York City Executive and author of its Pollution and Deception 
at Ground Zero series of reports on the harmful impacts of the 9/11 
pollution and our federal government's failure to warn the public and 
provide a proper response. The reports also urge that our federal 
government's new disaster response policies perpetuate its failures at 
Ground Zero.
    Most Americans know more about Paris Hilton than about what 
happened in New York City after the terrorist attack of September 11, 
2001. They do not understand that it happened in a residential area. 
Lower Manhattan looks like a commercial zone, but people live there. 
The community district that includes the World Trade Center was home to 
over 2,700 children under age 10 at the time of the attack. Most 
Americans also do not understand how long Ground Zero burned. The fires 
were not officially declared out until three months after the attack. 
And even after that, as debris removal opened up new areas, the site 
emitted smoke. One resident living nearby recalls the weekend of St. 
Patrick's Day, in 2002, when she looked out the window and saw smoke 
from the pit--half a year after the attack.
    So the exposures were much more extensive and prolonged than most 
Americans realize.
    The deaths on September 11th were devastating, but our government 
could have and should have done much more to control the lingering 
harm. It should have warned people against exposure and reduced the 
duration of exposure through proper cleanup.
    Instead, it did the opposite. It encouraged people to ignore their 
own common sense. The air looked bad and smelled bad. Using common 
sense, many people would have guessed that the air was unsafe for 
themselves and their children. But EPA's broad, unsupported assurances 
of safety interfered with that common sense reaction. I recall people 
saying, ``It smells awful, but EPA says it's not really that bad.'' The 
sad irony is that if EPA had said nothing at all, the public probably 
would have been better off, because more people probably would have 
heeded their own common sense.
    Calling the September 11th attack ``unprecedented'' can be 
misleading. There was no excuse for failure to warn about known 
hazards. Yes, the terrorist attack itself, causing widespread 
destruction on American soil, was unprecedented. But the event's 
physical results on the environment were not truly without precedent. 
Planes have crashed and burned before. Buildings have caught fire 
before. Buildings have even collapsed before. We actually know quite a 
bit about what happens when uncontrolled fires burn mixed materials, 
and when buildings collapse.
    EPA has been studying the products of uncontrolled incineration for 
decades and is very knowledgeable about demolition as well. It did not 
have to take a single test to know that the massive amount of dust 
released by the towers was harmful. It should have issued a health 
warning right away.

        <bullet>  Even if dust contains no toxic chemicals at all, it 
        irritates the human respiratory system. EPA should have 
        immediately warned the public--especially people with asthma 
        and respiratory conditions--to avoid exposure, before any test 
        results for toxic chemicals came back.

        <bullet>  EPA knew that the towers contained asbestos--this had 
        become widely known after the first attack on the World Trade 
        Center in 1993.

        <bullet>  EPA knew that the towers contained thousands of 
        computers, plastics and electrical equipment, all of which 
        would emit toxic chemicals when burned. It did not have to 
        consult any existing database on storage hazardous materials at 
        the site to take cognizance of this.

    Our federal experts knew all these things before taking a single 
test. There can be no excuse for issuing broad assurances of safety 
when two massive office towers burn and collapse.
    So the concern is not just that EPA lacked the test results to 
justify its early assurances of safety--as noted in the Inspector 
General's 2003 report. It is worse than that. Our government issued 
those safety assurances even though EPA's own vast body of knowledge, 
built up over three decades of research, indicated that the pollution 
would be harmful.
    Also, EPA should have changed its safety assurances when new 
information on health risks emerged. It did not do so. It did not do so 
when tests showed the presence of toxic hazards, and it did not do so 
even when it became apparent that people were getting sick.
    The first Pollution and Deception at Ground Zero report contains a 
table entitled, ``What Was Known, What Was Said.'' The table documents 
at least a dozen instances in which EPA had information indicating 
health risks yet failed to correct its assurances of safety. Despite 
early dust tests indicating the presence of asbestos, for example, a 
sentence stating concern for workers who might be returning to their 
offices on or near an area with asbestos-containing dust was deleted 
from EPA's September 14 draft press release. Also, the federal 
administration failed to issue a press release when the U.S. Geological 
Survey sent test results to its sister agencies on September 27, 2001, 
documenting that the 9/11 dust was highly caustic. The public did not 
hear anything about this until over four months later, when the St. 
Louis Post Dispatch released an article about the data. Among those 
expressing surprise at the time was one of the leading medical doctors 
who had been screening the already ailing Ground Zero workers.
    EPA's responses to the revelation of hazards tended to be defensive 
rather than corrective. Perhaps the worst example is its response to a 
disclosure of benzene pollution on the pile. Research by environmental 
attorney Joel Kupferman, published in the Daily News by journalist Juan 
Gonzalez, revealed tests showing elevated levels of certain pollutants 
from Ground Zero. One of them was benzene, a known human carcinogen 
that can cause leukemia. EPA argued that while a benzene sample at the 
surface of the pile had a high reading, EPA had found lower levels in 
what it called the ``breathing zone,'' five to seven feet above the 
debris pile. The rescue and recovery workers were reaching in and 
pulling out debris and human remains by hand. Their breathing zone was 
not between five and seven feet above the debris pile.
    Our federal government's inaction in the face of new information 
continued as study after study documented health impacts not only among 
workers from the pile but also area clean-up workers and even 
residents. Today, over five and a half years later, denial is still the 
order of the day. The assurances of safety have never been retracted, 
and this has had consequences.
    Consider the federal government's weak response to the health 
impacts from 9/11 pollution, which Jonathan Sferazo, a Ground Zero 
ironworker and President of the Unsung Heroes Helping Heroes, calls an 
``epidemic.'' The General Accounting Office issued a report on the 
government's slipshod approach to assessing those health impacts. In 
plain language, the conclusion is this: The federal government has not 
even bothered to find out how many people are sick. Why? Perhaps 
because these people are not supposed to exist. But they do exist, and 
they are suffering. Only now, five years later, are we beginning to see 
some federal money for medical treatment, but it is terribly inadequate 
and does not begin to touch the demoralizing economic impacts that many 
of these hard-working people and their families now face.
    This hearing is a historic step to investigate what really happened 
after the September 11th attack. We cannot control everything, but our 
federal government certainly could have controlled this attack's toxic 
consequences far better than it did. We need action, to right at least 
some of the wrongs that have occurred. Also, we must prevent such harms 
from happening in future disasters.
    Unfortunately, our federal government has not learned from its 
Ground Zero debacle. Under its National Response Plan, worker health 
and safety standards will not be enforced in national disasters. Also, 
the Plan centralizes and controls the release of information, which can 
facilitate politicization of health warnings, as occurred after 9/11, 
without a strong precautionary policy to err on the side of protecting 
human health in the absence of full information. Finally, the 
Department of Homeland Security's new guidance document on radiological 
cleanup would encourage consideration of economic factors, even impacts 
on tourism, in determining public health risks from a dirty bomb or 
other terrorist-wielded nuclear device.
    Some people may be suffering from media fatigue. They may be tired 
of hearing about Ground Zero. They may wonder why New York City 
residents don't just ``get closure'' and ``move on.'' The answer is, we 
cannot. We are still living with the toxic aftermath of the attack. 
Until our government does the right thing, we will never be able to 
have ``closure.'' And until our government takes the proper steps to 
make sure that the failed response at Ground Zero never happens again, 
in any future national disaster, no American can truly have 
``closure.''

    Mr. Nadler. I thank the witnesses. I will begin the--
please, we're not supposed to have any demonstrations. It's 
against the rules of the House, even approval. It may not seem 
political, but that's the rules of the House.
    I will begin the question period--oh, I should say. I will 
begin the questioning by yielding myself 5 minutes.
    Mr. Thernstrom, who designated you to be the conduit or 
communications liaison between the EPA and NSC?
    Mr. Thernstrom. Honestly, I believe that system was set up 
by Deputy Chief of Staff Josh Bolten, but I couldn't say for 
sure. I was told to assume that responsibility by my boss, 
Chairman------
    Mr. Nadler. Who at the NSC did you report to on EPA 
communications clearance activities?
    Mr. Thernstrom. I don't frankly remember the NSC press 
person who------
    Mr. Nadler. You don't remember who you reported to?
    Mr. Thernstrom. I reported to Chairman Connaughton. I sent 
the press releases over to the NSC and received approval for 
them. But, no, I don't actually remember the name of the person 
I was dealing with there.
    Mr. Nadler. Who at the NSC did you send those papers to?
    Mr. Thernstrom. I sent them to a fax number that was 
assigned. I don't know who was reviewing them at the NSC. It 
was 6 years ago.
    Mr. Nadler. I understand that.
    Who made the decision to have the NSC approve all the EPA 
statements? Do you know that?
    Mr. Thernstrom. I don't know.
    Mr. Nadler. Who at the White House did you speak to about 
EPA's public statements?
    Mr. Thernstrom. Chairman Connaughton in my office was my 
primary contact. I also consulted occasionally with perhaps 
another staffer on the CEQ staff.
    Mr. Nadler. No one above Chairman Connaughton in the 
organization?
    Mr. Thernstrom. No, sir.
    Mr. Nadler. Did you ever speak with Ms. Whitman about EPA's 
public statements?
    Mr. Thernstrom. I don't believe that I had any direct 
personal conversation with Ms. Whitman. I participated in daily 
conference calls with Ms. Whitman. But I don't think we had any 
one-on-one conversations about these things.
    Mr. Nadler. Now, Ms. Kreisher told the Inspector General 
that you worked directly with the NSC Press Secretary on 
clearance for EPA communications. That is Condoleezza Rice's 
Press Secretary. She was head of NSC at the time; is that 
correct?
    Mr. Thernstrom. Like I said, I sent them to the NSC and I 
assumed that, yes, it was the Press Secretary. I don't actually 
recall.
    Mr. Nadler. You didn't work with that person?
    Mr. Thernstrom. I do remember speaking to that person at 
one point. Like I said, I don't even recall her name. This was 
a------
    Mr. Nadler. Now, EPA Chief of Staff McGinnis, who is 
sitting here, was asked by the EPA IG whether she could claim 
ownership of EPA's early WTC, World Trade Center, press 
releases. She replied that she was not able to do so, quote, 
``because the ownership was joint between the EPA and the White 
House,'' unquote, and that, quote, ``final approval came from 
the White House,'' unquote.
    She also told the IG, quote, ``If Sam''--that is you, sir--
``If Sam okayed it, then it was issued.'' The IG also noted 
that Ms. McGinnis, quote, ``understood that Sam Thernstrom 
provided draft press releases to other government officials, 
but she does not know who these other government officials 
were.''
    Were you, sir, the final decision maker for the public 
statements?
    Mr. Thernstrom. No. I wouldn't put it that way.
    Mr. Nadler. If not, who had the final approval in the NSC 
for EPA public statements?
    Mr. Thernstrom. Like I said, I sent them to the NSC and I 
received approval from the NSC.
    Mr. Nadler. Someone you were dealing with in the NSC had 
final approval, but you don't know who it was?
    Mr. Thernstrom. Six years after the fact, I honestly do not 
remember the name of the person I dealt with.
    Mr. Nadler. Okay.
    Ms. McGinnis, Ms. Kreisher told the IG that all press 
releases pertaining to the World Trade Center disaster were 
always approved by the Administrator's Chief of Staff, Eileen 
McGinnis. Now you have said that you never approved the press 
releases either verbally or in writing.
    Did you have the final okay on EPA 9/11-related 
communications within EPA?
    Ms. McGinnis. Tina would keep me informed throughout the 
day on the interagency process that was going on and the types 
of discussions that were going on. But as I said in my 
testimony, the CEQ, as our conduit to NSC, had the final sign-
off on------
    Mr. Nadler. They had the final sign-off. But within EPA you 
were the final sign-off?
    Ms. McGinnis. Yes.
    Mr. Nadler. Okay. Thank you.
    Now, you received an e-mail on 9/12, that is, on September 
12, from EPA Deputy Administrator's Chief of Staff Claudia 
McMurray, stating that all statements to the media should be 
cleared through the NSC before they were released.
    You stated you cleared all statements through the NSC.
    Ms. McGinnis. I did not, sir. CEQ was our conduit to the 
NSC. I had no contact------
    Mr. Nadler. They were all sent to the CEQ and then the NSC?
    Ms. McGinnis. Correct.
    Mr. Nadler. Okay. Did you tell Ms. Whitman to clear all 
statements with the NSC.
    Ms. McGinnis. I recall a memo coming over to all agency 
heads.
    Mr. Nadler. That would have been the Claudia McMurray memo?
    Ms. McGinnis. No. I think it was from Andy Card.
    Mr. Nadler. From whom? Andrew Card?
    Ms. McGinnis. Andrew Card. I recall them saying that all 
communication needed to be reviewed by NSC, and then that was 
followed by the e-mail that was in the IG's report by the 
Deputy Administrator.
    Mr. Nadler. Okay. What expertise does the National Security 
Council have that the EPA doesn't have with respect to the 
risks from environmental contamination on public health?
    Ms. McGinnis. I can't answer that question about what 
excuse they have. I have never been in contact with NSC. I 
stated in my testimony to the IG that I thought the White House 
played an appropriate coordinating role, given the national 
emergency.
    Mr. Nadler. And do you know who made the decision to have 
the NSC approve all EPA statements?
    Ms. McGinnis. I do not.
    Mr. Nadler. Do you know who would know that?
    Ms. McGinnis. I do not.
    Mr. Nadler. Okay.
    Well, final question, when you were asked by the EPA IG 
whether you could claim ownership of EPA's early World Trade 
Center press releases, you replied you couldn't do so ``because 
the ownership was joint between EPA and the White House'' and 
then ``final approval came from the White House.'' You also 
told the IG, ``If Sam okayed it, it was issued.''
    The IG also noted that you understand that Sam Thernstrom 
provided draft press releases to other government officials, 
but she doesn't know who those other government officials were, 
as you just said.
    Was it your understanding that Mr. Thernstrom was the final 
decision maker for EPA public statements within the White 
House?
    Ms. McGinnis. I really did not know what happened--who Sam 
communicated with at the White House.
    Mr. Nadler. So you don't know who the final decision-making 
authority------
    Ms. McGinnis. I do not.
    Mr. Nadler. Okay. Thank you very much.
    My time has expired, and I yield 5 minutes to the gentleman 
from Arizona.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Chairman, it seems to me that the main question that is 
being asked here today is if, indeed, there was a deliberate 
attempt on the part of the EPA to conspire with the White House 
to send people, to convince people to go into an unsafe 
environment. And, you know, the motivations to that end elude 
me completely.
    But, Ms. McGinnis, I would like to ask you, do you think 
that there was a deliberate conspiracy within the White House 
and the EPA to convince people to go into an unsafe 
environment?
    Ms. McGinnis. I do not, sir.
    Mr. Franks. What was the main--the Agency's goal as far as 
the press releases that you sent? What was your main goal? What 
was your desire?
    Ms. McGinnis. The public was very hungry for information, 
and our desire was to produce information as soon as possible 
with--emphasizing quality and timeliness.
    Mr. Franks. Was it appropriate in your mind for the NSC and 
CEQ to have the final sign-off on these press releases?
    Ms. McGinnis. Yes, given the national emergency that had 
just occurred.
    Mr. Franks. Were press releases your only form of 
communication? Was it your main form of communication? What----
--
    Ms. McGinnis. As Governor Whitman and Ms. Kreisher have 
testified, I have supervised over the years many press offices, 
both on the State and in the Federal level. Press releases, I 
think, have become increasingly less important, and other forms 
of communication have become more important.
    Mr. Franks. All right. Thank you, Ms. McGinnis. Mr. 
Thernstrom, the Office of the Inspector General report stated, 
quote, ``Responding to this crisis required organizations from 
all levels of government to coordinate their responses and 
their efforts, and to make critical public health and safety 
decision quickly and without all the data the decision makers 
would normally desire,'' unquote.
    Do you agree that in this case the EPA had to make 
statements regarding its judgment in emergency circumstances in 
which it could not possibly have had perfect information?
    Mr. Thernstrom. Absolutely, Congressman. In fact, I was 
quite struck by the fact that when the EPA Inspector General 
was interviewed by, I believe it was MSNBC, after her report 
was issued and she was asked whether she believed that the air 
after 9/11 was safe, she said that even 2 years after the fact, 
she wasn't certain what the answer to that was.
    Now, I don't think it's the appropriate response for the 
Federal Government to tell the people of New York, Gee, we're 
taking all the tests, but we don't really know. Hold your 
breath and just--you know, we'll get back to you in a couple of 
years if we have an answer then.
    I think the best response of the Federal Government, who 
employs the Nation's best experts on these questions, was to 
assess the data as best it could, make its best judgment about 
the significance of that data and speak to the public in this 
time of terrible national emergency. And I think EPA did that 
very responsibly.
    Mr. Franks. You don't think there was any hint of 
conspiracy between EPA and the White House to convince people 
to go into an unsafe area?
    Mr. Thernstrom. I think nothing could be further from the 
truth, Congressman.
    We were very concerned about the potential environmental 
hazards related to September 11, and we were very reassured by 
the information that we saw. And as Governor Whitman said, we 
spoke--we had a thrice daily conference call originally, later 
twice daily, speaking with all of the staffers who were working 
on this issue. They were looking at the data.
    The things that Governor Whitman said, the things that Ms. 
Kreisher and I put in the press releases that were issued were 
based strictly upon what we were told by all of the scientists, 
who reviewed the data, was the correct way to characterize 
those risks.
    I can't say that their assessment was infallible, but I am 
quite confident they were doing the best job they could under 
the circumstances, and we were listening to them very 
carefully.
    Mr. Franks. Mr. Chairman, I guess I can only add that, you 
know, there is no way to overstate the tragedy that this 9/11 
incident caused America and so many people both on that day and 
in subsequent days and some of the ancillary areas that have 
occurred since. And I don't know that anyone in this room would 
ever want to minimize that tragedy, anyone.
    And I guess I just would suggest that this Committee's 
energies might be better spent trying to make things better for 
those victims that were in 9/11, and doing what we can to have 
policies that would prevent such a tragedy from occurring 
again.
    And deliberately trying to somehow insinuate that there was 
a conspiracy between the EPA and the White House to convince 
people to go into unsafe areas, that's a preposterous notion; 
and I think the Committee's energy is ill spent in this regard, 
and I think we have to work toward making this never happen 
again. I thank the panel members.
    Mr. Nadler. The gentleman's time has expired.
    The gentleman from Virginia, Mr. Scott------
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Nadler.--is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, we're inquiring whether or not there are any 
failures in government processes that might have unnecessarily 
exposed people to health risks. Just because we're doing that, 
that doesn't suggest necessarily that we are trying to find a 
conspiracy to intentionally endanger people. We're trying to 
see if government worked or it didn't work. And I think there's 
plenty of evidence here that people have been exposed to toxic 
materials unnecessarily. Now, let me ask a couple of questions.
    Mr. Thernstrom, you were doing press releases? You were 
doing press releases in the White House at the time?
    Mr. Thernstrom. I was the Associate Director of 
Communications for the CEQ, yes, and I worked closely with Ms. 
Kreisher and other EPA staffers on these press issues.
    Mr. Scott. Did you make any changes in these press releases 
that were presented to you that made a substantive difference 
in the science? One that was suggested is, you took 
professional cleaning--it's been suggested that you took quote, 
``professional cleaning,'' as a recommendation out. Is that 
true?
    Mr. Thernstrom. That is correct, Congressman. That was not 
based upon a difference in the science, though--however. That 
was a jurisdictional question involving which agency had 
responsibility for providing New Yorkers with guidance on that 
issue. That was not based upon my reading of the science so--
whatsoever.
    Mr. Scott. Well, the EPA Director suggested that that was a 
substantive difference. Were there any other changes that were 
made that constituted a substantive difference?
    Mr. Thernstrom. I can say--you know, ``substantive 
difference'' is in the eye of the beholder, Congressman. But I 
can say every change I made was a matter of consensus between 
me and the EPA staffers who I worked with. There was no 
disagreement about the substance of them and that, in fact, the 
changes I made were based upon my daily conversations with all 
of the EPA staffers.
    So we all worked together in this very fast-moving, very 
chaotic, dynamic environment to try to understand all of the 
information that was coming in, to listen to the staff that we 
were talking to and to correctly reflect what they were telling 
us.
    Mr. Scott. Thank you.
    Ms. Kreisher, did you feel any political pressure in the 
way press releases should be written?
    Ms. Kreisher. I didn't feel political pressure. Mr. 
Thernstrom and I sometimes disagreed, and that's reflected in 
some of the edits we see in the press releases. I would agree 
with Governor Whitman that the only substantive change had to 
do with the cleaning. And as Sam just said, that press release 
referred you to the City of New York.
    Mr. Scott. The question was, did you feel any political 
question to write press releases in a certain way?
    Ms. Kreisher. No.
    Mr. Scott. Mr. Newman, I've got two versions of an answer 
to a question I asked Mr. Henshaw, about what was going on at 
Ground Zero. The first go-around was that people were there not 
wearing respiratory equipment and there was nothing he could do 
about it because it was New York City's problem.
    The second time he answered the same question, he said that 
any time they notice someone not wearing the equipment, they 
were down there on the spot and corrected it right then and 
there.
    Can you tell me what you thought was going on in terms of 
OSHA enforcement? People are obviously in a dangerous situation 
involving the equipment they should be wearing.
    Mr. Newman. Thank you for that question. There was no OSHA 
enforcement at Ground Zero. That was a deliberate, conscious 
policy. That policy was done on--was implemented at that point 
in time on a discretionary basis.
    It has since then been incorporated into OSHA policy 
officially, and OSHA's official policy as of 2003, going 
forward, is automatic nonenforcement in disaster response 
situations, which of course I disagree with that policy. I 
think it's an incorrect policy.
    The contention that OSHA had no authority to enforce, I 
think is also fallacious. There is absolutely nothing, at least 
insofar as I'm aware, in either the National Contingency Plan 
or Presidential Decision Directive 62 which addresses the issue 
of OSHA enforcement; and OSHA not only is free to enforce, but 
is obligated to enforce in my opinion.
    Mr. Scott. What was going on at Ground Zero? Were the 
people wearing the equipment or not?
    Mr. Newman. Well, the answer to that is ``no.'' There was 
no enforcement, and people were not wearing their equipment. 
Whatever policy OSHA adopted, whether it was enforcement or 
nonenforcement, that policy was ineffectual.
    Mr. Scott. Was there any question that the people not 
wearing the appropriate equipment were in danger?
    Mr. Newman. Well, I don't think there was any question 
among the regulatory agencies or among the people in the 
industrial hygiene or public health communities.
    There was certainly some question among responders 
themselves, given the lack of clarity and reassurances from EPA 
and OSHA that the air was safe to breathe.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Nadler. I thank you. I now recognize for 5 minutes the 
gentleman from New Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman. In the 9/11 report, 
since, Mr. Thernstrom, you are such an expert on 9/11, there's 
a statement by the Committee that says, we do not have the 
expertise to examine the scientific accuracy of the 
pronouncements in the press releases. The issue is the subject 
of pending civil litigation.
    How do you interpret that?
    Mr. Thernstrom. I'm not quite sure how to answer the 
question, Congressman. It seems it's a self-evident statement--
----
    Mr. Pascrell. What does it mean to you?
    Mr. Thernstrom.--in its entirety.
    Mr. Pascrell. What does it mean to you, Mr. Thernstrom? 
What does it mean to you?
    Mr. Thernstrom. Simply that there are complex scientific 
questions involved which are hotly disputed and that that was 
not an issue that the 9/11 Commission had the expertise to 
examine, nor was it an issue that I feel I have any expertise 
to comment upon.
    Mr. Pascrell. So, therefore, we can't make a conclusion or 
a judgment that the 9/11 Commission cleared anybody, because 
they didn't have the scientific evidence, because they weren't 
tuned to that. Is that an accurate statement?
    Mr. Thernstrom. Congressman, the 9/11 Commission looked at 
one question specifically, which was whether or not------
    Mr. Pascrell. It is only a short period within that report; 
is that correct? It is about 12 footnotes.
    Mr. Thernstrom. The question the 9/11 Commission was 
looking at was whether or not the White House influence upon 
EPA's press releases was improper. And on that question, their 
answer was unambiguous; its answer was ``no.''
    Mr. Pascrell. It's not a conclusion. It's not a conclusion 
if you read this report.
    But I want to ask another question.
    Mr. Thernstrom. But I don't understand that.
    Mr. Pascrell. I would like to ask another question.
    Mr. Thernstrom. Sure.
    Mr. Pascrell. What you call ``preposterous,'' you said that 
would be so preposterous in your answer to the question. Why 
would it be so preposterous?
    This is an Administration that paid journalists to clear 
the air. They also had the chief procurement officer out of the 
White House so he couldn't be arrested in there, first time an 
employee--why would it be so preposterous to change--excuse me, 
sir. I'm not finished.
    Why would it be so preposterous to change the words within 
a press release so that people's fears could be assuaged?
    Mr. Thernstrom. Congressman, I don't believe I used the 
word ``preposterous.''
    Mr. Pascrell. You used the word ``preposterous.''
    Mr. Thernstrom. I believe Congressman Franks------
    Mr. Franks. Actually I, did, sir.
    Mr. Pascrell. Well, you used it then. There's no 
difference. There's no difference because this is--you know, 
how did Andy Card show up in the middle of this thing? How did 
Andy Card show up in the middle of this thing?
    Ms. Mattei, I want to ask you a question.
    Ms. Mattei. Yes.
    Mr. Pascrell. What are the shortcomings of the various 
indoor cleanup plans that the EPA has conducted so far? What 
should they have done? What should be done now?
    And my final question to you is this: Has the EPA ever 
called for an examination, a physical examination, of those 
people who were in the zone long beyond which they shouldn't 
have been in that zone? Had they ever asked you or anybody 
else, first responders, to definitely get a physical 
examination to see what might affect you and you personally? 
Have they ever done that?
    Ms. Mattei. I certainly did not experience that. And I'm 
not aware of them ever having done that. I didn't see anybody 
monitoring the air on the street where I worked. And I can tell 
you that I smelled Ground Zero for months, and I was about 
seven blocks away. This ``on-the-pile'' versus ``off-the-pile'' 
thing is a little bit of nonsense. There was no glass bubble 
over Ground Zero. The air blew that stuff into the------
    Mr. Pascrell. All over the place.
    Ms. Mattei.--into the surrounding community. It definitely 
did. And while there may have been some dissolution, there were 
a lot of toxic chemicals for which there is no safe level of 
exposure.
    Mr. Pascrell. Speak the truth.
    Ms. Mattei. And the nonsense about--well, the high levels 
were in the dust, not in the air, that's just out of touch with 
reality. People coming back to their homes, people coming back 
to their work sites, there was dust. And what did people do? 
They cleaned up the dust. Small business people cleaned up 
their own businesses. People cleaned up their own offices.
    Have you ever dusted a book shelf?
    Mr. Pascrell. That's a good idea.
    Ms. Mattei. Where was your nose? Where was your nose when 
you dusted that book shelf?
    Thank you.
    Mr. Pascrell. I just have one more question. I want to ask 
that question to Ms. Kreisher.
    Ms. Kreisher, you told the Inspector General that you felt 
extreme pressure when the White House was changing your drafts 
of the EPA press releases. And you said in your testimony today 
that those changes were upsetting in some cases. Who upset you?
    Ms. Kreisher. As I said, Sam and I didn't always agree. The 
pressure was from Sam. A lot of times tempers flew.
    Mr. Pascrell. Was he applying pressure to you?
    Ms. Kreisher. I wouldn't call it ``pressure.'' Any point, 
Sam would always say, this is your press release.
    Mr. Pascrell. So your statement to the Inspector General 
wasn't really what you felt?
    Ms. Kreisher. Well------
    Mr. Pascrell. You used the term--correct me if I'm wrong--
``extreme pressure.''
    Ms. Kreisher. I was referring words--to the wordsmithing, 
not some big policy somewhere.
    You've got to put this back in context. The IG inspector 
came to see me. I was at Interior. I was being asked about what 
my press releases looked like and whether the words in the 
press release were all mine.
    Mr. Pascrell. So the pressure--the pressure was basically 
whether we should use a comma or colon--I'm exaggerating right 
now; I'm using hyperbole right now--and not really whether or 
not we were communicating to the folks out there what was 
really going on? That wasn't ever a question in your mind, 
right?
    Mr. Nadler. The gentleman's time has expired.
    Ms. Kreisher. Of course it was a question.
    Mr. Pascrell. It was a question in your mind?
    Mr. Nadler. The gentleman's time has expired.
    The witness may answer the question.
    Ms. Kreisher. We always cared what the content was. And as 
I said, we had a lot of conference calls. We had a lot of 
discussion before these press releases were ever issued. And we 
usually came to consensus before that happened.
    Mr. Scott. Mr. Chairman.
    Mr. Nadler. Yes, sir.
    Mr. Scott. I don't mean any harm, but I thought I asked the 
same witness if she was receiving any political pressure, and 
she told me ``no.''
    Mr. Nadler. I will yield the gentleman, with unanimous 
consent, 1 minute; and the witness may answer the question.
    Ms. Kreisher. Okay. To me, political pressure is, here is 
the message. You will make sure that this is the message that 
goes out, crafted accordingly. It was not done like that. The 
scientists gave us the message. We always listened to the 
scientists.
    Mr. Nadler. If the gentleman would yield, so what pressure 
were you referring to?
    Ms. Kreisher. Sam and I didn't always agree. And there was 
pressure between us on, you know, was this the right wording? 
Was this the right wording?
    I got a lot of pressure from------
    Mr. Nadler. So it was interpersonal pressure, not political 
pressure?
    Ms. Kreisher. Yes.
    Mr. Nadler. Thank you.
    The gentleman from Tennessee is recognized for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chairman. Well, I was with some 
folks in the back, and I hate to go over------
    First thing, all politics is personal. My protection on 
October-something in 2001. The EPA document labeled Attachment 
4 and produced by Ms. Whitman says that paper filament masks 
would provide sufficient protection under minimal exposure 
conditions.
    Mr. Newman, this mask--is this a paper filament mask?
    Mr. Newman. I'm sorry. I can't see it from here. Does it 
say NIOSH on the front?
    Mr. Cohen.  It sure does.
    Mr. Newman. Does it say N95?
    Mr. Cohen. It says N95.
    Mr. Newman. Well, that's not the paper mask that is being 
referred to in this case.
    Mr. Cohen. What would this one be? Is this better or worse?
    Mr. Newman. That is not--despite the fact that that's not 
the paper dust mask to which you were referring, that mask is 
not acceptable under OSHA legal standards for exposure to 
asbestos.
    Mr. Cohen. This one isn't.
    Mr. Newman. You need a halfface air purifying respirator 
with screw-in HEPA particulate filters, which that is not.
    Mr. Cohen. So when I was on that location, right down there 
somewhere around this fence, or right down inside the--just 
outside the pile, this was show business?
    Mr. Newman. That would be a fashion accessory, yes.
    Mr. Cohen. You do know I was wearing--how about the paper 
filament masks; they were not sufficient either?
    Mr. Newman. Paper dust masks provide zero protection under 
any circumstances, zero health protection, that is.
    Mr. Cohen. Was there any reason why the people at the Twin 
Towers should have been allowed to--should the EPA have 
enforced their regulations that those folks use their 
respirators, as apparently they did at the Department of 
Defense?
    Mr. Newman. That's directed to me?
    Mr. Cohen. Yes, sir.
    Mr. Newman. Neither EPA or OSHA enforced their regulations, 
as we know, at Ground Zero. I think that was absolutely 
inappropriate and possibly criminal.
    I'm shocked to hear here that we're talking about an 
extraordinary--we're talking about extraordinary circumstances 
as though EPA did not have, frankly, quite a stellar--in 
general, stellar track record, the expertise, the staffing, the 
funding and the track record to respond to incidents like this.
    Yes, the scope of this was somewhat unusual. However, there 
was nothing unusual here. I mean, what's unusual is the lack of 
enforcement of applicable standards. That's the most unusual 
thing in this case.
    What's unusual is not the hazards to which people were 
potentially exposed. The issue was that we didn't protect 
people against those hazards. That was the unusual part here.
    Mr. Cohen. Is there anybody on the panel that would like to 
respond to that? Nobody wants to respond to that? Do you all 
agree with that? Everybody agrees?
    Ah, a volunteer.
    Ms. Horinko. I will, because I feel that the agencies, 
working collectively, used their best judgment to get the 
responders to wear their gear as quickly as we could. There was 
discussion with the city and OSHA of how, daily, to get the 
responders to wear their gear.
    EPA, the first weekend, at OSHA and FEMA's behest, 
provided, I believe, thousands of respirators and cartridges 
and set up washing stations, and eventually set up the food 
stations to get the--a condition of which was to decontaminate 
and make sure your gear was working properly.
    There was discussion about whether the city or OSHA should 
step in and start fining the responders and take them to court. 
It seemed inconceivable that we would do so while they were 
trying to still save fallen comrades. So given the situation at 
the time------
    Mr. Nadler. Would the gentleman yield for a moment on that 
point?
    Mr. Cohen. Yes.
    Mr. Nadler. Everybody who was going to be saved was saved 
by the third day. After that it was simply a recovery 
operation. So why was it inconceivable in the next 50 or 60 
days?
    Ms. Horinko. In the next 50 or 60 days we didn't have to 
because by then people were wearing their gear.
    Mr. Nadler. It's your testimony everybody, almost 
everybody, wore their protective gear after the first 3 three 
or 4 days?
    Ms. Horinko. Not after the first 4 or 4 days but certainly 
50 or 60 days.
    Mr. Nadler. I yield back.
    Mr. Cohen. Ms. Kreisher, if you have answered this, let me 
know, but Mr. Thernstrom said your work quality wasn't good, or 
something to that effect.
    Ms. Kreisher. I don't recall him saying that. We had our 
differences but we did respect one another.
    Mr. Cohen. In Mr. Thernstrom's written testimony he stated 
that his job was to make it clear and to the point, and stated 
because--in his words--the complete conflict between you and he 
was only about your work quality.
    Ms. Kreisher. Well, the wordsmithing that went on, we 
disagreed on some of the------
    Mr. Cohen. Work quality is wordsmithing?
    Ms. Kreisher. In a press release, sir.
    Mr. Cohen. I guess it is.
    Mr. Thernstrom. Since you're characterizing my words here, 
I did not say the conflict with Ms. Kreisher was about our work 
quality, I did say that we sometimes--I worked to try to 
improve the press releases because I had concerns about the 
quality of them. I thought they were sometimes vague and 
incomplete. Where I said that they conflict with Ms. Kreisher 
was in fact about process questions involving the clearance 
procedures with the NFC. I thought it was important that the 
NFC have an opportunity to sign off on everything that went out 
the door before it went out the door, and Ms. Kreisher 
understandably was frustrated with the clearance process. It 
wasn't something she was accustomed to. That, to the best of my 
recollection, was the source of conflict between us.
    Mr. Cohen. Thank you.
    Mr. Pascrell. Mr. Chairman, can I have 1 minute?
    Mr. Nadler. The gentleman from New Jersey is recognized for 
1 minute.
    Mr. Pascrell. Let's look at exactly what was changed in the 
September 14th draft release. The original statement was this. 
This is the sentence before it gets to our friends. ``the 
concern raised by these samples would be for the workers at the 
cleanup site and for those workers who might be returning to 
their offices on or near Water Street on Monday, September 17th 
2001.''
    The samples that were taken they are talking about here. 
That sentence was deleted. It goes away. Instead the release 
quotes OSHA saying this: Our tests show that it is safe for New 
Yorkers to go back to work in New York's financial district.
    Let me tell you something, Ms. Kreisher, I don't see a 
technical change in the sentences, I see--I can only tell you 
what I see and you tell me what you see, although you change 
your mind but that's okay, you can change your mind around 
here--you trying to convince me and the panel that the sentence 
that was replacing the original sentence, the former sentence 
that I read, there is some technical changes? That is night and 
day.
    Ms. Kreisher. Congressman, Sam has gotten kind of a heavy 
rap here as being the only editor of these press releases. As 
we explained we were on conference calls with OSHA, CEQ, with 
sometimes the State of New York, with a lot of different people 
who had input into this. The thought was that OSHA had better 
and more complete data at that point than the------
    Mr. Pascrell. So you let it go through your hands that the 
air is really clear and forget about the original statement 
that would have gone in there.
    Mr. Nadler. The gentleman's time has expired.
    Mr. Pascrell. Give us a break.
    Mr. Nadler. We will now begin the second round of 
questions. I will pick up where Mr. Pascrell was leaving off.
    Mr. Thernstrom, you have stated in your testimony that your 
basic job is to make--or one of your jobs is to make EPA's 
written statements clear and to the point. Now the IG details 
in its report, tables 2.4 and 2.5 over there, changes you made 
to several press releases. On September 13 you took out the 
statement: ``even at low levels EPA considers asbestos 
hazardous.'' You substituted for that warning a quote from Mrs. 
Whitman: ``EPA is greatly relieved to have learned that there 
appears to be no significant levels of asbestos dust in the air 
in New York City.'' Do you consider that simply making 
something clear and to the point or isn't that clearly changing 
the meaning from a warning to a reassurance?
    Mr. Thernstrom. Congressman, as Ms. Kreisher just 
explained, we had------
    Mr. Nadler. Is this changing only stylistic or changing a 
warning to reassurance?
    Mr. Thernstrom. Congressman, that change reflected our 
conversations.
    Mr. Nadler. I'm not asking that.
    Mr. Thernstrom. It accurately reflected it.
    Mr. Nadler. It accurately reflected what you thought, but 
does it change EPA'S original suggestion of a warning to a 
reassurance; yes or no?
    Mr. Thernstrom. I don't believe that EPA was originally 
trying to warn the public.
    Mr. Nadler. Even at low levels EPA considers asbestos 
hazardous is not a warning?
    Mr. Thernstrom. You opened this hearing by showing a video 
clip on the monitors of Governor Whitman telling the people of 
New York that she believed the air was safe. I think that the 
revisions that we made to the press releases were in light of 
that, Governor Whitman's assessment.
    Mr. Nadler. Going to the next one, you change the original 
EPA language stating dust samples showed levels of asbestos 
ranging from 2.1 to 3.3 percent. EPA views 1 percent levels of 
asbestos as a definition of asbestos- containing material, to 
final language deleting reference to 1 percent level being 
dangerous and characterizing sample results 200 to 300 percent 
over the 1 percent level as, quote, ``slightly above the 1 
percent level.''
    I have the same question. Don't you think that is slightly 
misleading, to characterize something 200 to 300 percent above 
a level as slightly above?
    Mr. Thernstrom. Congressman, all I can tell you, the 
language in those press releases was considered accurate by the 
scientists who reviewed them.
    Mr. Nadler. Ms. Kreisher told the IG that there was a 
conscious effort to reassure the public and that it came from 
the White House and the Administration; do you agree?
    Mr. Thernstrom. We all, including EPA and at the White 
House, found that the data we were looking at was reassuring; 
and so we felt it was appropriate to reassure the public. That 
was what the scientists who reviewed the data told us and we 
were greatly relieved to hear that.
    Mr. Nadler. Finally, Mr. Thernstrom--Ms. Kreisher, rather--
Mr. Thernstrom e-mailed you on the 25th of September '01 about 
your desire to put raw monitoring results on the EPA Website. 
He wrote that raw, quote, ``raw data alone is easily 
misunderstood and mischaracterized by political candidates in a 
city who have an ax to grind. I think you will leave yourself 
more open to their attacks by giving them more ammunition,'' 
close quote.
    Do you agree that denying the public the right to see raw 
testing data is an appropriate approach to communicating risk, 
Ms. Kreisher?
    Ms. Kreisher. I agreed with Governor Whitman that that data 
needed to be out there as quickly as possible. The discussion 
came in, if you have no context for the data, does it make 
sense to the public, and at that point the raw data was just 
that, raw data.
    Mr. Nadler. Mr. Newman, was there--did this seem to be a 
pattern of EPA not posting relevant data on its Website for 
months at a time?
    Mr. Newman. There was certainly delays and omissions in 
what we saw posted on the EPA Website. Additionally, there was 
information of the sort that I believe Ms. Kreisher is 
referring to, that is characterization of the data as 
distinguished from the raw data, and it is my opinion that the 
characterization of the data was used at times to obfuscate or 
to hide the raw data. Specifically, as an example, are the 
dioxin data.
    Mr. Nadler. Ms. McGinnis, earlier in your testimony you 
mentioned Andrew Card's name. I think you mentioned Andrew 
Card, Josh Bolton.
    Ms. McGinnis. Andrew Card.
    Mr. Nadler. Is there anyone else at this level, and did you 
say that he was involved in issuing or approving statements 
about the World Trade Center?
    Ms. McGinnis. I didn't say that. I raised his name in the 
context of I believe on September 12 a memo came over from Andy 
Card to all agency heads, the whole Cabinet, mentioning the 
need to coordinate communications. I think it was like a two- 
or three-sentence memo.
    Mr. Nadler. Okay. Mr. Thernstrom, did you ever speak to 
Andy Card about any of these statements?
    Mr. Thernstrom. No, sir.
    Mr. Nadler. Or anybody in his office?
    Mr. Thernstrom. No, sir. Not to the best of my 
recollection.
    Mr. Nadler. Very good. Okay. The time of the Chairman has 
expired. I now recognize the Ranking Member Mr. Franks for 5 
minutes.
    Mr. Franks. Thank you again, Mr. Chairman. Thank all of you 
again for being here.
    Ms. Horinko, I know that many times we are asking questions 
on subjective statements here today. When you say ``safe,'' I'm 
not sure this hearing room is entirely safe. There's a lot of 
subjective statements.
    But let me just ask you, has there been any scientific 
showing that any long-term health risks have been presented by 
contamination to the residents of lower Manhattan?
    Ms. Horinko. No, Congressman, I'm not aware of any peer-
reviewed studies where scientific experts have found any long-
term risks to the public.
    Mr. Franks. So essentially we're dealing with kind of the 
individual reports and things of that nature and not able--when 
we talk about science here, that has been mentioned several 
times--we don't really at this point have any science that 
indicates even specifically, much less incontrovertibly; 
correct?
    Ms. Horinko. Not that I am aware of, Congressman.
    Mr. Franks. There has also been some criticism regarding 
uneven enforcements of procedures used in the debris removal. 
Didn't the IG report find it was New York City that was 
responsible for the debris removal as well as the demolition of 
that debris?
    Ms. Horinko. That I am not specifically aware of, 
Congressman.
    Mr. Franks. Do you know if the IG found that FEMA agreed to 
fund indoor cleanup programs, something that FEMA normally does 
not do, because the EPA provided FEMA with justification for 
such a program, and could you elaborate if you know anything 
about that?
    Ms. Horinko. Yes, indeed, Congressman, I know a bit, 
although I was not involved a whole lot. But I do recall the 
region II folks coming to me saying that they needed some help 
with FEMA Headquarters securing funding. In fact, I believe 
they went over to the White House and met with some staff who 
were very helpful with FEMA.
    Mr. Franks. Isn't it also true that the IG has found 
contemporaneous documents showing that New York City told EPA 
it did not want EPA's assistance with the indoor cleanup 
program?
    Ms. Horinko. I believe that was the case in the beginning, 
but they came to agree that that would be a good way.
    Mr. Franks. So why didn't EPA simply push New York City 
aside and take charge of the indoor cleanup program themselves?
    Ms. Horinko. We enjoyed a very collaborative relationship 
with the city. Within the national response plan EPA works 
under FEMA's direction, under the city's leadership, and so we 
wanted to make sure that we followed the established procedures 
in any disaster.
    Mr. Franks. So I might ask you, Ms. Horinko, before my time 
is up here, a question that I have asked a couple of other 
panel members. Do you know or believe that there was ever any 
conspiracy between EPA and the White House to deliberately 
convince people to go into unsafe areas?
    Ms. Horinko. No.
    Mr. Franks. Mr. Chairman, I guess I'll yield back what time 
I have.
    Mr. Nadler. Thank the gentleman. Mr. Scott is recognized 
for 5 minutes.
    Mr. Scott. Thank you. Ms. Mattei, if you had gotten better 
information, what could the public have done different?
    Ms. Mattei. I think people could have done a lot to avoid 
exposure, people could have had professional cleanings of their 
home, they might not have had to fight with their insurance 
companies over that. I work in my office, but if I had to work 
at home for a while, I could. We're living in the 21st century 
and there are many alternative ways to get things done. So 
people could have protected themselves quite a bit.
    If I could just take a moment, I'd also like to point out 
that there have been peer-reviewed scientific studies on health 
impacts from the Ground Zero contamination, both a survey that 
was published in the American Journal of Epidemiology about 
residents, 43.7 percent of 2,362 surveyed residents had new 
onset upper respiratory systems that persisted a year after the 
attack. There have been studies on newborns of women who were 
exposed to the dust cloud, smaller birth weight than normal. 
And also a very disturbing study about genetic mutations, 
procarcinogenic DNA level at a higher level in women who were 
exposed to the dust cloud and also in their newborns.
    So I think there is some peer-reviewed information out 
there now about health risks from the 9/11 contamination to the 
residents in the area.
    Mr. Scott. Do any of those studies speak to the allowable 
exposure risk of asbestos?
    Ms. Mattei. I have been hearing today that there are safe 
levels of exposure to asbestos. I have to say that's kind of 
news to me. If you float around on EPA's Website you'll find 
statements that there's no safe level of exposure to asbestos, 
and there is new information that's come out that asbestos not 
only causes cancer but also can wreak havoc to the immune 
system.
    So I'm finding those statements very questionable today.
    Mr. Scott. Thank you.
    Mr. Newman, you served on the EPA World Trade Center Expert 
Technical Review Panel. Can you give us information about what 
you did on that panel and what the conclusions were?
    Mr. Newman. The panel was charged with assessing the 
extent, if any, of residual indoor contamination from 9/11, 
with identifying and proposing methods for addressing unmet 
public health needs stemming from 9/11. We engaged in extensive 
discussion on some of these issues, particularly an attempt to 
devise a sampling and cleanup plan for Lower Manhattan 
residences and workplaces over the course of a year and a half 
or so. Ultimately with regard to that issue, EPA chose to 
ignore or reject all of the panel's proposals, recommendations, 
and concerns and disbanded the panel.
    In regard to our attempt to address issues of broader--
issues of public health, as we were mandated to do at the 
implementation of the panel, those attempts to engage in those 
broader discussions were largely thwarted by EPA.
    Mr. Scott. Who were the members of the panel and how did 
they get appointed?
    Mr. Newman. It was a rather unique construction for the 
panel. At least initially there was equal representation from 
government agencies such as OSHA, EPA, FEMA and New York City 
Department of Health, New York City Department of Environmental 
Protection, Coast Guard Strike Force, et cetera, along with 
academics and technical experts, including nongovernment 
technical experts, including myself.
    Mr. Scott. Were the conclusions a consensus? I mean were 
there differences of opinion?
    Mr. Newman. There were continual differences of opinion. 
There was no mechanism in the panel process for votes or 
consensus reaching. Nevertheless, there was on certain issues 
and at certain times fairly robust discussions, at which points 
of agreement were readily apparent and those points of 
agreement ultimately were ignored in the sampling plan that 
EPA------
    Mr. Scott. Did you issue a report with this consensus?
    Mr. Newman. There was no mechanism in the panel process for 
the panel or panel members to issue reports. There were a 
large------
    Mr. Scott. How did you communicate a consensus?
    Mr. Newman. Through discussion at panel meetings.
    Mr. Nadler. Thank you. I will now yield myself 5 minutes.
    Ms. McGinnis, you were asked--before I get to that, the 
Inspector General reported that the so-called EPA cleanup of 
2002 to which I think you referred to a few minutes ago, was 
against scientific standards, totally inadequate, and 
essentially useless. The Inspector General reported that the 
site, namely the whole downtown Manhattan, Brooklyn, maybe 
Jersey City, had not been properly characterized as normal 
procedures say it should be, and that what should be done in 
order to assess indoor contamination is that you should take 
several hundred inspections of indoor spaces and concentric 
circles out from the World Trade Center, find out where in fact 
the contamination indoor is, maybe three blocks in one 
direction, maybe three miles in another direction and wherever 
that was found, whatever geographic area, every building in 
that area must be cleaned.
    That was the IG's recommendation. I think most scientists 
who have looked at that have concurred with that. Nothing like 
this was done, obviously. Given that fact, Ms. Horinko, can you 
say with assurance that thousands of indoor spaces today are 
not contaminated?
    Ms. Horinko. Obviously, I don't have data on every house or 
every apartment.
    Mr. Nadler. I didn't ask about every--talking about large 
numbers.
    Ms. Horinko. I believe that large numbers of the homes in 
lower Manhattan are safe.
    Mr. Nadler. On what basis do you say that?
    Ms. Horinko. I relied upon the experts in EPA region II who 
designed the program.
    Mr. Nadler. But everyone, the IG, et cetera, says that 
program was nonsense, it wasn't based on scientific standards.
    Ms. Horinko. I can tell you the program was design------
    Mr. Nadler. Do you believe there was a 30,000-high-foot 
wall at Canal Street and therefore they didn't have to look 
north of Canal Street all along the East River; therefore they 
didn't have to look at Brooklyn?
    Ms. Horinko. I relied on the professionals' expertise.
    Mr. Nadler. Well, using common sense, could any 
professional in his right mind say that you have to inspect 
below Canal Street but not above Canal Street?
    Ms. Horinko. All I can say, Congressman, is you have to 
draw a line somewhere.
    Mr. Nadler. Mr. Newman, would you comment on that, please?
    Mr. Newman. In our discussions at the EPA World Trade 
Center Technical Review Panel, EPA presented as a basis for its 
determination of geographic boundaries for the sampling plan 
aerial photographs from the EPA EPIC study. Those aerial 
photographs showed deposition of visible dust and debris in 
areas of Lower Manhattan and some areas in Brooklyn. However, I 
believe and the panel believed strongly that geographic 
boundaries needed to be expanded beyond what EPA proposed, and 
we believed there is no scientific basis for utilizing visible 
dust and debris as the basis for the extent of the geographic 
dispersion of particulates, in particular, because the 
particulates of most concern to health are not visible, they 
are invisible. Those asbestos fibers and other particulates 
will not show up on those photographs.
    Mr. Nadler. Are you aware of any respected scientific 
authority who will be willing to testify that the EPA so-called 
cleanup plan in 2002 was scientifically valid?
    Mr. Newman. EPA certainly has some.
    Mr. Nadler. Outside EPA?
    Mr. Newman. No, I'm not.
    Mr. Nadler. You're not. Okay.
    Ms. McGinnis, you were asked by the IG whether the EPA had 
considered putting qualifications in the press releases and 
whether there was resistance to putting in such qualifications. 
You replied that you would not call it resistance but would 
call it competing priorities. You stated that opening Wall 
Street was one of the major competing priorities.
    Is it your testimony today that considerations than public 
health were considered when preparing EPA's early press 
releases?
    Ms. McGinnis. Economic security, national security, were 
certainly considerations but health concerns were never 
sacrificed because of those considerations.
    Mr. Nadler. Do you believe that economic factors ought to 
be considered in a health-based determination?
    Ms. McGinnis. No, sir.
    Mr. Nadler. Who discussed these competing priorities with 
you?
    Ms. McGinnis. I don't recall any specific conversations 
about it. I do recall general conversations about whether the 
Wall Street area was cleaned sufficiently for its
    reopening.
    Mr. Nadler. Thank you.
    Ms. Horinko. Two more questions, one for Ms. Horinko. Ms. 
Horinko, were White House officials involved in the decisions 
on funding or cleaning up indoor spaces?
    Ms. Horinko. I have no direct knowledge.
    Mr. Nadler. You have no direct knowledge. Thank you.
    I see my time has expired. I will recognize the gentleman 
from Virginia--I am sorry, the gentleman from Arizona.
    Mr. Franks. Thank you, Mr. Chairman.
    Ms. Kreisher, thank you very much, again, for being here. I 
wanted to ask you, the indications were that maybe somehow the 
pressure that people speak of, that you had complained to Ms. 
Whitman that--about the changes that the White House requested. 
Is that true that you ever complained to her about specific 
changes that the White House had requested?
    Ms. Kreisher. I don't believe I ever went directly to the 
Governor with anything like that. Eileen and I had discussions. 
Again, you get your ego and all kinds of things involved when 
you are having a dispute with someone, and I would go in and 
say, Eileen, you have got to change this or call them or 
something, and those things happened; but, no, I never went 
directly to Governor Whitman.
    Mr. Franks. I think every Member of Congress identifies so 
much with that when we have discussions with our press 
secretaries and there is always--of course, Members of Congress 
are superior in every way in terms of what words to use. But 
it's an ongoing situation. I have hit on a central theme here 
throughout this entire Committee and that is simply: Was there 
any conspiracy between the White House and the EPA to 
deliberately convince people to go into unsafe areas? Was there 
any effort like that, Ms. Kreisher?
    Ms. Kreisher. No. In fact, this is very interesting to me 
from my existing job at Interior, because we are being often 
criticized that we did not listen to the scientists; that in 
some way policymakers are changing what the scientists are 
telling us--and that is the subject of other congressional 
hearings--yet I seem to be getting overtones here that we 
shouldn't have been listening to our scientists and should have 
come up with another policy. It's just an observation that I'll 
make.
    Mr. Franks. Let me just ask the question a little broader. 
Do you know of any instance in which the leadership of the EPA 
or the White House deliberately acted in a way to subordinate 
people's health to political considerations?
    Ms. Kreisher. No, sir.
    Mr. Franks. Even carelessly?
    Mr. Kreisher. Not that I'm aware of.
    Mr. Franks. Thank you, Ms. Kreisher.
    Mr. Thernstrom, let me just ask you a kind of open-ended 
question. Is there anything here that you think hasn't been 
covered that you think that you would like to specifically 
bring out? Again, along the lines that I talked about with Ms. 
Kreisher, do you think there is any conspiracy here or any 
deliberate effort or even any just blatantly careless effort on 
the part of the White House or the EPA to subordinate the lives 
and health of people for political reasons?
    Mr. Thernstrom. No, sir; to the contrary. I think we made 
great efforts under very difficult circumstances, as I 
mentioned, constantly changing information, many different 
Federal agencies working together. We made great efforts to try 
to make sense of that information, to listen to the scientists 
and to most accurately characterize the information that was 
being given to us. So I don't think anything of the sort was 
going on.
    If you don't mind, I wouldn't mind taking this opportunity 
just very briefly--I'm sorry that Congressman Pascrell from New 
Jersey has left. He was quite exorcised about one particular 
point in the September 14th press release, and if you don't 
mind------
    Mr. Franks. He was also exorcised about me calling some of 
his ideas preposterous.
    Mr. Thernstrom. I would like to correct this point for the 
record. He said that in the draft press release from September 
14th, that I struck the sentence that said the concern raised 
by these samples would be for workers at the cleanup site and 
for those workers who might be returning to their offices on or 
near Water Street on Monday, September 17th. And he's correct 
that I did strike that sentence.
    But I think everyone in this room should listen to the 
sentence that immediately followed that in the original draft 
press release which was: OSHA Director John Henshaw emphasized 
that the level found, even if resuspended in the air, does not 
violate OSHA standards.
    And so the context in the original press release that is 
very clear, is that the press release spoke of a concern and 
then it spoke of the fact that that was not a concern. And so 
the appropriate editorial process was to clarify that, in fact, 
the overall message from this press release was that there was 
not a concern.
    The original language was confusing and the language was 
revised in a way that more clearly communicated the correct 
language.
    That's exactly the sort of type of thinking through these 
draft press releases when we're working very quickly under a 
great deal of pressure. That is the editing process we went 
through collaboratively to try to best express to the people of 
New York the information that they needed to know. And I have, 
in all of the time that has elapsed, I have never heard that 
any EPA scientist object to anything that we said to any way of 
characterizing their reports to us. We had daily conversations 
with them and to the best of my knowledge we accurately 
characterized what they told us.
    Mr. Nadler. The gentleman's time has expired. The gentleman 
from Virginia.
    Mr. Scott. Thank you.
    Mr. Nadler. Is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Thernstrom, in your testimony you stated that you were 
not at liberty to talk to the Inspector General when you were 
at the White House.
    Mr. Thernstrom. Correct.
    Mr. Scott. Who told you not to talk to the Inspector 
General?
    Mr. Thernstrom. White House counsel's office. I asked them 
to try to make arrangements to have that interview happen and 
those arrangements were not made, ultimately. I was never given 
the go-ahead.
    Mr. Scott. The White House counsel's office.
    Mr. Thernstrom. Correct.
    Mr. Scott. Who was the White House counsel at the time?
    Mr. Thernstrom. That would be Mr. Gonzales.
    Mr. Scott. Mr. Newman, we've heard suggestions that we 
needed to listen to the scientists. What were the scientists 
saying this time about the health concerns that people should 
be aware of right after--on 9/11 and right after 9/11, while 
the EPA was suggesting--as the public statements were being 
made that things were safe.
    Mr. Newman. I think as a number of witnesses have already 
pointed out, scientists look to the data for their answers. And 
so the question is the quality of the data and what data are 
available. I think what many folks were confronted with were 
the fact that--many scientists were confronted with was the 
fact that, number one, we had inconsistent data. We had a large 
body of data that indicated low or no exceedances. We had a 
much smaller body that indicated fairly high exceedances under 
certain conditions and certain circumstances.
    The question then becomes which--and that's not unexpected. 
In a circumstance like this where conditions change daily or 
hourly in terms of fires and in terms of emissions, we would 
expect to find inconsistent data. The question then becomes 
politically and from a public health perspective how do you 
interpret that data.
    One approach would be to take the most reassuring data and 
emphasize that. And another approach would be to take the 
worst-case scenario and emphasize precautionary measures until 
such time as we're comfortable and confident that hazards don't 
exist.
    Mr. Scott. With the dangers, with the potential dangers, if 
you're not sure what to do, which way should you lean?
    Mr. Newman. That also goes to the issue of enforcement. We 
had applicable standards such as the OSHA hazardous waste 
operations and emergency response standard, which basically is 
the most effective, proactive, and protective--or standard for 
workers engaged in hazardous waste operations, and we had 
OSHA's decision not to enforce that standard or any other 
standard.
    Those standards essentially call for precautionary 
approaches; that is, assume the worst and as the data become 
available and become more credible, if appropriate, we can 
scale down our levels of respiratory protection, our levels of 
safe work practices, our levels of personal protective 
equipment. But start off with the worst data, assume workers 
are going to be exposed at that level, and assess the situation 
in an ongoing fashion.
    Instead, we had the opposite. We assumed the best and not 
the worst and the consequences--the bottom line here is not the 
data either way; the bottom line is that people are ill, 
regardless of what the data show or don't show and regardless 
of what our interpretation of the data is. I have to strongly 
disagree with my esteemed colleagues from EPA. There is a 
considerable body of data in the peer-reviewed literature, in 
fact. It's unambiguous and noncontroversial and I'm amazed 
people haven't read it. There is a considerable body of 
evidence that indicates both Ground Zero responders as well as 
area workers and residents are ill at alarming rates with 
clinically diagnosed persistent respiratory illness and other 
medical conditions, and the bottom line is if the data don't 
show that, there's something wrong with either how we're 
interpreting the data or with how we obtained the data--because 
the bottom line is that if people are sick, we have a problem.
    Mr. Scott. Ms. Mattei, if people are sick, as they are, how 
can that possibly be consistent with the message that was being 
given out?
    Ms. Mattei. Well, it certainly was not. And that's why I 
wrote the reports that I did, because you can't have it both 
ways. You can't have it's safe, and thousands of people are 
sick. We're talking about thousands of people, not 50 or 100. 
Thousands of people are sick. Children of people exposed are at 
risk. That's what procarcinogenic damage is. It makes a person 
more vulnerable to cancer. That's what's happened to some of 
these newborns. So it's a really serious situation.
    I would also point out that, repeatedly, when private tests 
were conducted, when elected officials paid for private tests, 
when other people conducted private tests, they were finding 
much higher levels of asbestos than EPA was. And I also want to 
point out that the constant emphasis on asbestos was very 
disingenuous.
    I never heard EPA talking about the polycyclic aeromatic 
hydrocarbons carbons. Thousands and thousands of pounds of that 
went into the air. It was discovered on window films within a 
kilometer of the site at high levels. Polycyclic aeromatic 
hydrocarbons are a very toxic group of chemicals. And they 
never talked about it, they never talked about a number of the 
other pollutants from Ground Zero that we should have been 
concerned about and watching for. It was easier to just focus 
on one chemical, and that's what they did. But that was wrong. 
It was definitely a wrong thing to do.
    Mr. Scott. If you could just respond------
    Mr. Nadler. The gentleman is granted an additional 30 
seconds, without objection.
    Mr. Scott. Was that message coming from the scientific 
community?
    Ms. Mattei. David, do you want to respond to that, because 
I'm trying to remember who said what, when. I knew there was a 
fairly significant amount of research from data sources other 
than EPA or other government resources that indicated the 
possibility, the likelihood, and in some cases the reality of a 
variety of a robust range of contaminants. However, that data 
was not large in quantity, so there were a number of scientists 
who have expressed concern through their research as the 
possibility of the presence or exposure to other contaminants. 
However, the data upon which most scientists relied, either 
because they were in the Agency, such as EPA, or because they 
were--or the only data they had available to them if they were 
outside EPA, was the EPA and OSHA data that was publicly 
shared. That data, by and large, at least the data that was 
publicly shared was, as EPA correctly said, reassuring. The 
data that was not necessarily shared was less reassuring.
    Ms. Mattei. I just want to add to that, that we're not just 
talking about what science would indicate but the regulations 
on dealing with hazardous releases calls for that kind of a 
comprehensive assessment. You're not just supposed to look at 
one chemical when you have a release, a hazardous release; 
you're supposed to find out what's in it, where did it go and 
who was exposed? That didn't happen here.
    Mr. Nadler. Thank you. The time of the gentleman has 
expired and I'll grant myself 5 minutes. I recognize myself, I 
should say, for 5 minutes.
    First of all, let me ask Mr. Thernstrom, an EPA press 
release from September 13 says that the collapse of the World 
Trade Center buildings is unlikely to cause significant health 
effects.
    From September 2002 to September 2003, the CDC, Centers for 
Disease Control, New England Journal of Medicine, Mount Sinai 
School of Medicine, all issued reports demonstrating that 
rescuers, cleanup workers and office workers, were sick as a 
result of their exposure to WTC dust. And yet the White House 
Council of Environmental Quality asserted in October of 2003 
that quote, ``We continue to stand by the information 
distributed in press releases regarding the potential long-term 
health risks,'' close quote.
    There have been a myriad of subsequent peer-reviewed 
studies documenting chronic health effects, as has been 
mentioned.
    Do you still stand by the information distributed in the 
press releases regarding lack of potential long-term health 
risks in spite of all what we know today?
    Mr. Thernstrom. Congressman, I don't actually recognize the 
October quote that you are reading to me. That certainly was 
not something I wrote. I'm sorry if------
    Mr. Nadler. First of all, it's a September quote. But 
forget that quote. There are a whole bunch of quotes we've been 
talking about all afternoon here saying in effect that things 
are safe, things are good, things are reassuring, we're not 
going to have health problems from the World Trade Center.
    We now know that that wasn't--I think we know from all the 
studies and from the reality, that that wasn't correct; and yet 
the White House in its latest pronouncement, which was 3 years 
ago, said they stood by it. Do you still think they ought to 
stand by those?
    Mr. Thernstrom. I wasn't working for the White House 3 
years ago so I can't speak to what they said then. Honestly, I 
really don't feel like I have the expertise to speak to the 
health effects of the World Trade Center.
    Mr. Nadler. You're still not willing to say that all these 
people who are sick, a lot of them are sick because of the 
World Trade Center.
    Mr. Thernstrom. Congressman, I simply don't have an 
expertise on that subject. All I can say, what we------
    Mr. Nadler. Let me ask Ms. Mattei and Mr. Newman. You 
mentioned, Ms. Mattei, I think, that there was--I think you 
said a paucity of data with respect to asbestos and so forth. 
There is one thing I wanted to get in the record here. The EPA 
was using PLM test methodology all over New York City except in 
its own building. Now, in 1994 the EPA said the PLM test 
methodology was old-fashioned, not accurate, not up to date, 
and they ought to use the TEM methods. We know that the TEM 
methods will detect small asbestos fibers that are produced by 
the pulverization such as occurred at the World Trade Center, 
that the PLM method will not.
    Do you think that most of the, or many--much of the EPA 
asbestos readings taken with PLM methodology was simply not 
reliable for that reason?
    Ms. Mattei. Certainly the TEM tests revealed higher levels. 
Joel Cutherman worked with both BEP and EPA staff at one point 
to test a split sample and found that there were much higher 
readings of asbestos fibers using the TEM method than the PLM. 
It is not only better at identifying short fibers, but also the 
very thin fibers because it tends to produce thin fibers.
    I would point out it wasn't EPA that tested. It was 
actually the General Services Administration. Pretty much 
everybody else was using--everybody was using TEM except the 
EPA. Kind of baffling.
    Mr. Nadler. Why was that not done?
    Ms. Horinko. We relied upon the folks from region II and 
thought we should use------
    Mr. Nadler. Ms. McGinnis, your September 13 press release 
said--well, and also Governor Whitman earlier today kept 
talking about the distinction between the quality air on the 
pile and off the pile; on the pile you kept saying it was bad 
and all the assurances that we were hearing that everything was 
fine didn't relate to the pile, it related to off-the-pile. 
That's the testimony we heard earlier today.
    Now, September 13 EPA put out a press release that said 
quote: Sampling of ambient air quality found no asbestos or 
very low levels; tests have been reassuring of rescue crews and 
the public to environmental contaminants. Obviously if it's 
talking about rescue crews, you're talking about on the pile, 
not off the pile.
    So it is not true that at least some of the very reassuring 
statements were dealing with off-the-pile only, and in fact 
you're talking here giving reassuring statements about on the 
pile. Is there any other way of reading this?
    Ms. McGinnis. Could you say that again? I didn't follow.
    Mr. Nadler. I will give myself another minute to repeat 
that.
    Ms. McGinnis. I understood everything except the sentence 
itself.
    Mr. Nadler. The question is: Is there any way of reading 
that press release, or the part of it that says the tests have 
been very reassuring about potential exposure of rescue crews 
and the public, as meaning anything other than that that press 
release refers to the wonderful air quality on the pile, not 
just off the pile, and that everything we've heard today about 
the reassurances not referring to conditions on the pile are 
not quite true, or at least not completely true?
    Ms. McGinnis. I'm reluctant to say yes or no on that 
without looking at the context, and I don't have--haven't 
looked------
    Mr. Nadler. You will agree you have to be talking about 
rescue crews, you have to be talking about on the pile.
    Ms. McGinnis. I have no recollection.
    Mr. Nadler. It's in tab 3 of your binder is the entire 
quote.
    Ms. McGinnis. What paragraph are you referring to?
    Mr. Nadler. The sentence: Sampling of ambient air quality 
found asbestos. Tests have been very reassuring about potential 
exposure of rescue crews and the public to environmental 
contaminants. This would imply rescue crews should not even be 
concerned about air quality.
    Do you want to comment, Ms. Kreisher?
    Ms. Kreisher. I think it would be an error that I probably 
made. At the time we were only 2 days out from the blast, and I 
could have added that without thinking in terms of the 
distinction between the------
    Mr. Nadler. You're saying that all the reassurances were 
not still on the pile, and that including that reference was 
probably a mistake.
    Ms. Kreisher. The same day, September 13, I can quote from 
ABC News.com quoting me saying, ``It's one of those cases of 
don't be stupid. If there's a chance, why not put on the 
mask?'' We're talking to rescue workers at that point. Governor 
Whitman was much more strident than I was about making sure 
that there was a distinction.
    Mr. Nadler. My time has expired. The gentleman from 
Arizona.
    Mr. Franks. Thank you.
    Ms. Horinko, did you have anything that you wanted to add 
as far as being able to answer any of the questions prior?
    Ms. Horinko. I just wanted to add that I think all the 
agencies involved worked as hard as they could to get the 
information out in the hands of people who needed it, to make 
sure that responders were able to develop standards under an 
unprecedented situation, using their best professional 
judgment. We will continue to monitor the studies that are 
taking place in New York. People that are becoming ill, if the 
study shows that it is the fault of the World Trade Center 
exposures that they received, I think should get the best 
possible access to health care and treatment they possibly 
should. But at the end of the day, I think everyone involved 
did their very best to get the information out as quickly as we 
could.
    Mr. Franks. Thank you.
    Mr. Thernstrom, you have testified that you tried the best 
you could to disseminate information based on what you thought 
the science showed and that was reported to you, and that's 
still your testimony essentially.
    Mr. Thernstrom. Absolutely, sir.
    Mr. Franks. I think the reason I mention that is the Bush 
administration has been criticized sometimes for their, quote, 
``lack of using scientific bases,'' and yet when they do so 
then they are criticized for that as well.
    I happen to be the grandson of a man who died of black lung 
from exposure to a toxic substance and I know that that's a 
heartbreak for families that begs my ability to describe or 
articulate today. So I want to make sure that any people in 
this room or under the sound of my voice know that I identify 
and care very much about any illness that they have faced.
    But the reality remains that when we talk about safe levels 
of asbestos, there is asbestos in this room; it might be 
measured in parts per quadrillion instead of parts per million, 
and yet 6 years from now there may be people in this room will 
come down with some type of sickness that would be impossible 
to relate to that. I don't know what the ultimate effect--cause 
and effect has been in these illnesses, I really don't know. 
But my point is this: The overwhelming testimony that I have 
heard today indicates to me that there was no deliberate effort 
on the part of the EPA or the Administration to do anything but 
the best they could to try to serve the country in a horrifying 
tragedy, and I believe that they tried to serve both the future 
and the people that were being--not only the ones that were 
victims at the moment, but potentially victims in the future.
    It again seems astonishing to me that we spend the time of 
this Committee trying to punish those who are doing the best 
they could.
    Mr. Nadler. If the gentleman will suspend, please, we have 
come almost to the end with proper decorum. Let's continue 
that.
    Mr. Franks. Just for the record, I understand the comment. 
But for the record, I believe with all my heart that you were 
trying to protect the American people, from what I have heard 
today. So for that I commend you and hope that somehow we can 
all work together to make sure this never happens again, and we 
can help the people who are sick try to get better and prevent 
this tragic situation.
    But we need to remember--my last word--that it was not you, 
the EPA or the Administration, that did this to the American 
people; it was jihadist terrorists that continue to plot 
against America.
    Mr. Nadler. The gentleman's time has expired. The gentleman 
from Virginia is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Chairman, I hope we 
wouldn't set as our standard that there is nothing at all if 
you can't find a potential conspiracy between the EPA and the 
White House to intentionally victimize people. I mean the 
evidence is clear that people are sick. There is something we 
could have done to have prevented it. You don't have to find a 
potential conspiracy to improve things so that it doesn't 
happen again.
    I want to thank all the witnesses for their testimony. They 
have been here a long time, and I appreciate their patience, 
and just ask any of them if they have any final comments, 
particularly on indoor cleanup. If anyone wants to make a final 
comment.
    Ms. Mattei. Well, I was--just on the issue of the kind of 
information that has been put out about indoor pollution. There 
was something that I think was significantly misleading, and 
that was a letter from the White House Council on Environmental 
Quality to Senators Hillary Clinton and Joseph Lieberman, 
stating that of the 4,100 residential units examined as part of 
EPA's indoor program, only about 1 percent were found to have 
asbestos at levels exceeding the health-based standard.
    What that letter didn't say was that they didn't test most 
of those apartments before cleaning them. They tested most of 
them after cleaning them. So the data was significantly 
misused. And it is hard for me to understand how anybody could 
have misused the data in that way, because it was obvious what 
the data was. And the way that it was presented in the letter 
was so obviously misleading. So that is of great concern.
    I am concerned about Ground Zero dust remaining in 
buildings in Lower Manhattan. And until we have a proper 
testing and cleanup program in Lower Manhattan, I consider the 
Lower Manhattan residents--and I am also concerned about 
Brooklyn, as is Jenna Orkin, who is here today, I consider 
people to be at risk. And in particular toddlers who roll 
around on carpets and bounce on soft furniture, where the dust 
is likely to be trapped and can't get picked up by an ordinary 
vacuum cleaner. That is my primary health concern for Lower 
Manhattan and the parts of Brooklyn affected by the dust cloud. 
It is not over for us.
    Mr. Newman. Let's be very clear here that when we talk 
about indoor cleanup, there fundamentally has been none. The 
single EPA program from 2002 to 2003 was limited in scope. 
Anything that was not a residence was excluded, or businesses, 
workplaces, schools, firehouses, City Hall, hospitals, were 
excluded and are excluded again in the current program.
    The participation rate in 2002-2003 was only approximately 
4,000 apartments. The efficacy of environmental cleanup in 
those apartments was inadequate. Fundamentally, the same 
methodology will be used in the current program, only I believe 
the number is 295 apartments are enrolled in the current 
program. So what we have, approaching the sixth anniversary of 
the events of 9/11, is virtually zero testing and cleanup of 
indoor spaces in Lower Manhattan.
    Mr. Scott. Thank you, Mr. Chairman. And I want to thank all 
of our witnesses for their patience. This has been a long 
hearing.
    Mr. Nadler. Would the gentleman yield?
    Mr. Scott. I yield the balance of my time to the Chairman.
    Mr. Nadler. I thank the gentleman. Let me simply say, 
before I go through the rigamarole for closing the hearing, and 
before I thank the witnesses, let me just say that I hope that 
we have learned something at this hearing. I think we have 
learned some things. But I think it is very clear that much of 
the discussion that we were having about those press releases, 
et cetera, was what was known then, and whether people should 
have put out those reassurances then.
    Looking backward--and my opinion is obvious. Looking 
backwards now, it is very clear that whatever their intentions, 
whatever their reliances, they were wrong; 70,000 first 
responders are sick--10,000 first responders; 70,000 people are 
getting sick. Of the 10,000 first responders tested, 70 
percent. So 70 percent of the first responders are sick, 
probably more of the people in the plume, and others. That 
didn't happen because everything was safe and because the air 
was safe. And Lower Manhattan and Brooklyn, and maybe Jersey 
City, hasn't been cleaned up, as Ms. Mattei said.
    And I hope that this hearing, which may be followed by 
others, will begin the process of getting more of this out into 
public view so that we can set the case for changing our 
policies, which are still based on the same policies that got 
us into this mess.
    And by the way, the terrorists caused a terrible mess, but 
an additional mess--I don't want to confuse that--an 
unnecessary mess, with people unnecessarily sick, that we are 
in.
    With that I yield back my time. And I want to thank the 
witnesses. I want to--with unanimous consent, I ask unanimous 
consent to place the EPA Inspector General's report in the 
record.\1\ Without objection.
---------------------------------------------------------------------------
    \1\ See report entitled EPA's Response to the World Trade Center 
Collapse: Challenges, Successes, and Areas for Improvement, by the 
Office of the EPA Inspector General at http://www.epa.gov/oig/reports/
2003/WTC_report_20030821.pdf.
---------------------------------------------------------------------------
    I want to thank all of our witnesses. I want to also thank 
the many people who came here today from New York. I want to 
thank the Members for their participation.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional questions for the witnesses, 
which we will forward and ask the witnesses to respond as 
promptly as you can so that your answers may be made part of 
the record.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for inclusion in the record. 
With that, this hearing is adjourned.
    [Whereupon, at 6 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


           Material Submitted for the Printed Hearing Record

Material submitted by the Honorable Jerrold Nadler, a Representative in 
Congress from the State of New York, and Chairman, Subcommittee on the 

            Constitution, Civil Rights, and Civil Liberties

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Supplemental Submission from the Honorable Christine Todd Whitman, 
                         Whitman Strategy Group

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Response to Post-Hearing Questions from the Honorable Christine Todd 
                    Whitman, Whitman Strategy Group

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ATTACHMENT

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Response to Post-Hearing Questions from John L. Henshaw, 
                       Henshaw & Associates, Inc.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Response to Post-Hearing Questions from Samuel Thernstrom, 
                     American Enterprise Institute

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        Response to Post-Hearing Questions from Tina Kreisher, 
        Communications Director, U.S. Department of the Interior

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Response to Post-Hearing Questions from Eileen McGinnis, 
             Senior Vice President, Whitman Strategy Group

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Response to Post-Hearing Questions from Marianne L. Horinko, Executive 
       Vice President, Global Environment & Technology Foundation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Substantive Due Process Violations Arising from the EPA's Handling of 
            Air Quality Issues Following September 11, 2001

                             June 25, 2007



                           TABLE OF CONTENTS


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
